<html>
<title> - NOMINATION OF HON. SUSAN E. RICE TO BE U.N. REPRESENTATIVE</title>
<body><pre>[Senate Hearing 111-257]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-257
 
          INSERT TITLE HERENOMINATION OF HON. SUSAN E. RICE 
                       TO BE U.N. REPRESENTATIVE

=======================================================================


                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED ELEVENTH CONGRESS



                             FIRST SESSION



                               __________

                 INSERT DATE HERE deg.JANUARY 15, 2009

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web:
              http://www.gpoaccess.gov/congress/index.html




                  U.S. GOVERNMENT PRINTING OFFICE
54-640                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                 COMMITTEE ON FOREIGN RELATIONS        

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Kerry, Hon. John F., U.S. Senator From Massachusetts.............     1


Lugar, Hon. Richard G., U.S. Senator From Indiana................     8


Rice, Hon. Susan E., Nominated to be Representative to the United 
  Nations........................................................    10

    Prepared statement...........................................    16

                                Appendix
              Additional Material Submitted for the Record

Responses to additional questions submitted for the record by 
  members of the committee to Dr. Rice...........................    51


                                 (iii)



                    NOMINATION OF DR. SUSAN E. RICE 
                       TO BE U.N. REPRESENTATIVE

                              ----------                              


                       Thursday, January 15, 2009

                              United States Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m., in 
room SH-216, Hart Senate Office Building, Hon. John F. Kerry, 
chairman of the committee, presiding.
    Present: Senators Kerry, Dodd, Feingold, Boxer, Nelson, 
Menendez, Cardin, Casey, Lugar, Corker, Murkowski, DeMint, 
Isakson, and Barrasso.
    Also Present: Senator Shaheen.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman.  This hearing will come to order, please.
    We have nine. So we are one Senator shy from a quorum, and 
while we wait for that one Senator to arrive so that we can do 
the business portion of the meeting, I know that both of our 
Senators--we are delighted to welcome you, Senator Collins, 
Senator Bayh. Thanks for taking time to be here. They both have 
pressing schedules. So what we are going to do is let them make 
their opening introductions of Dr. Rice initially and then as 
soon as the Senator is here, we will do the business meeting 
and then proceed to the other openings and testimony.
    So Senator Collins, thanks so much for taking time. We are 
glad you are here.

               STATEMENT OF HON. SUSAN COLLINS, 
                    U.S. SENATOR FROM MAINE

    Senator Collins.  Thank you, Mr. Chairman.
    Mr. Chairman, it is my privilege today to introduce Dr. 
Susan Rice, the President-elect's nominee to be the next United 
States Ambassador to the United Nations. The people of Maine 
are proud of what this remarkable woman has accomplished in her 
distinguished career of service to our Nation, and we take 
special pride in her strong ties to our State.
    In order to fully describe Dr. Rice's accomplishments, 
first let me describe those ties, for they are the foundation 
of her character. Her grandparents emigrated from Jamaica to 
Portland, Maine in the early years of the 20th century. Like so 
many who have come to our shores, they came with little in 
their pockets, but with spirits overflowing with determination. 
On modest wages, they raised five children, and they believed 
that education was the key to the American dream. Their four 
sons all graduated from Maine's Bowdoin College. Two became 
physicians, one an optometrist, and one a college president. 
Their daughter, Dr. Rice's mother Lois, who is here today, was 
valedictorian of Portland High School and president of the 
student body at Radcliff College. She is a former vice 
president of the college board and a former advisory council 
chairwoman at the National Science Foundation. She married 
Emmett Rice, Dr. Rice's father, who is also here today, a 
retired senior vice president at the National Bank of 
Washington and a former governor of the Federal Reserve.
    The determination of Dr. Rice's grandparents to build a 
brighter future did not end with their own family. They founded 
a USO center for blacks in Portland during World War II and 
were active in the Portland branch of the NAACP.
    That determination to succeed and to contribute thrives in 
their granddaughter. Dr. Rice was valedictorian and a three-
sport athlete at the National Cathedral High School here in 
Washington. She graduated from Stanford where she was elected 
as a junior to Phi Beta Kappa and earned both a masters degree 
and a doctorate in international relations from Oxford 
University where she was a Rhodes Scholar.
    After a stint at the global consulting firm, McKinsey & 
Company, she joined the Clinton administration as a member of 
the National Security Council staff. Dr. Rice then became the 
youngest person ever to serve as a regional Assistant Secretary 
of State, taking on the African Affairs portfolio at a 
particularly challenging time. While in that position, Dr. Rice 
played a key role in addressing conflict resolution in Africa, 
helping to develop a U.S. response to conflicts in the Sudan 
and the Horn of Africa and working to secure enactment of the 
African Growth and Opportunity Act. She was also the first 
American official ever to address the Organization of African 
Unity summit.
    After her Government service, Dr. Rice became a senior 
fellow at the Brookings Institution and served as the senior 
foreign policy advisor to the President-elect during his 
campaign.
    Although, of course, I knew of Dr. Rice when she worked at 
the NSC, I first met her when we were both participants in a 
series of seminars sponsored by the Aspen Strategy Group. I was 
so impressed with her brilliance and nuanced insight as I 
listened to her discuss various foreign policy challenges. I 
knew at that time that she was a real star.
    Dr. Rice would bring to this position experience, 
expertise, and enthusiasm that are especially crucial during 
these difficult times. She has special expertise in the 
challenges posed by weak and failed states, poverty, and global 
security threats, particularly in Africa. She is known for 
being direct, yet always diplomatic. She is not driven by rigid 
ideology, but rather by firm principles. She has the reputation 
as a keen, critical thinker who is always learning. Her 
intellect, experience, and character will serve our Nation 
well.
    Mr. Chairman, one of Dr. Rice's most recent visits to the 
State of Maine was exactly a year ago when she came to Portland 
to address the annual Martin Luther King breakfast. In her 
eloquent remarks, she made clear that human rights are not 
defined by race, ethnicity, or national borders, but rather, 
are the universal birth right of all mankind. To secure that 
birth right, she said-- and I quote--``we can and we must 
overcome the divisions of past centuries as well as the traumas 
of the recent past.''
    Mr. Chairman, Ranking Member Lugar, I can think of no 
better message to convey to the United Nations and no better 
messenger than Dr. Susan Rice. I am honored to present her to 
this distinguished committee, and I enthusiastically endorse 
her nomination. Thank you. Thanks to all the members of the 
committee.
    The Chairman.  Well, thank you very much, Senator Collins. 
What a wonderful introduction. Remind me that if I am ever in 
need of an introduction, I want to put in my reservation right 
now. [Laughter.]
    The Chairman.  It does not get better than that. And 
really, you have given great, important background to the 
committee, and so we really appreciate that.
    Senator Bayh, I think we will go with yours, just to keep 
the continuity, and then we will interrupt for the business 
meeting and start again. Thank you.

                 STATEMENT OF HON. EVAN BAYH, 
                   U.S. SENATOR FROM INDIANA

    Senator Bayh. Thank you, Mr. Chairman, Ranking Member 
Lugar. Let me just say that in these difficult times for our 
Nation, we can be reassured that you are providing foreign 
policy leadership to our country.
    Members of the committee, it is an honor to be before you 
today.
    I too have known Dr. Rice for many years and can attest 
from personal experience that she has the keen intellect, the 
strong work ethic, and the collegiality to be an outstanding 
Ambassador to the United Nations.
    Mr. Chairman, as you know very well, our Nation faces a set 
of formidable transnational challenges that threaten the 
security and prosperity of our people in the 21st century: 
terrorism, radicalism, and extremism, the proliferation of 
weapons of mass destruction, global climate change, poverty, 
and disease. These are problems that threaten our people that 
cannot be solved by our Government alone. The U.N. offers an 
important vehicle to assert American global leadership through 
collective action with other nations around the world.
    President-elect Obama has rightly noted that the United 
Nations is an imperfect but indispensable institution for 
advancing America's security. In the 21st century, our goal 
must be to make the United Nations a more effective mechanism 
to work with other nations to advance our interests in 
combating common threats.
    Mr. Chairman, I believe we need an Ambassador to the United 
Nations with a demonstrated ability to represent our country in 
the international community in a credible, forthright, and 
influential manner. Mr. Chairman, I believe Dr. Susan Rice is 
uniquely qualified to do exactly that.
    Throughout her career in public service, she has served 
with distinction. Her service includes key roles on the 
National Security Council as Director for International 
Organizations and Peacekeeping and Senior Director for African 
Affairs.
    In 1997, Dr. Rice became one of the youngest Assistant 
Secretaries of State in American history when she was appointed 
Assistant Secretary of State of African Affairs. In this role, 
she oversaw 43 U.S. embassies, 5,000 employees, and an annual 
operating budget of $260 million.
    At a time when the United Nations is in great need of 
internal reform, Dr. Rice has proven that she is an adept and 
capable manager. She will help the United States strengthen the 
effectiveness of the United Nations, modernize it, and make it 
more capable of meeting the challenges of the 21st century. 
That means implementing an agenda of management reform and 
working to strengthen its program capacities.
    We are asking the United Nations now to do more than ever 
to promote global security. Yet, we have not aligned 
capabilities with the mandates that we have given U.N. 
missions. Dr. Rice has demonstrated the intellectual heft 
required of this position. As a senior fellow at the Brookings 
Institute, she has written extensively on multilateral 
diplomacy and how to deal with the security challenges posed by 
failed states. She will represent America's interests on the 
world stage thoughtfully and vigorously.
    Mr. Chairman, I have seen her in action, and I am pleased 
to report to the panel today that, if confirmed, she will be a 
formidable negotiator and a skilled diplomat on our Nation's 
behalf.
    Last February, Dr. Rice and I sat together on a foreign 
policy panel, the U.S.-Islamic World Forum in Doha. She 
attended as a representative of candidate Obama, and I 
represented Senator, then-candidate, Clinton. Dr. Rice offered 
a spirited defense of America's prerogatives and a keen 
understanding of the importance of leveraging buy-in from U.N. 
member states to tackle global security challenges.
    Dr. Rice understands the myriad challenges facing the 
United States, and she is prepared to work with our allies 
around the globe to marshal world opinion and spur action to 
ensure our country's security. She also carries a currency 
invaluable in this endeavor, the ear and full confidence of the 
next President of the United States.
    The United States will never ask permission to defend 
ourselves or our allies. Yet, the last 8 years proved that 
there is great peril in acting alone in a dangerous world. We 
do not seek alliances because we are weak, but because acting 
with our friends and partners around the world makes us strong. 
It is important to use the United Nations as a vehicle to 
promote peace and stability, the prevention and resolution of 
conflict, and the stabilization of conflict zones once war has 
ended. It is in our interests to make the United Nations more 
effective in this regard.
    President-elect Obama has outlined an ambitious agenda with 
respect to climate change, nonproliferation, poverty reduction, 
and strengthening the capacity of weak and failing states. All 
of these elements can and should be addressed in the U.N., as 
well as in other contexts. Dr. Susan Rice will strive to make 
the United Nations a more effective mechanism to advance our 
national security and meet global challenges.
    I have high confidence, Mr. Chairman, that if confirmed, 
Dr. Rice can help build new bridges to nations with whom we do 
not always agree while renewing America's leadership in the 
world.
    Finally and on a note that I think Senator Lugar can relate 
to well, I understand that back in the day, Dr. Rice was a 
capable basketball player, which will endure her to the hearts 
of Hoosiers everywhere. She has proven that she can succeed in 
some of the most competitive arenas. I am confident she can in 
the United Nations as well.
    So, Mr. Chairman and Ranking Member Lugar, it is my 
distinct pleasure to recommend that this committee confirm Dr. 
Susan Rice as our next Ambassador to the United Nations.
    The Chairman.  Thank you very much, Senator Bayh. We 
respect your observation about her athletic skill and regret to 
inform you that born in Portland, she is a Celtics fan. 
[Laughter.]
    Senator Bayh: I did not say she was perfect, Mr. Chairman. 
[Laughter.]
    Dr. Rice. Just for the record, I was born in Washington, 
D.C. A Bullets fan.
    The Chairman.  Born in Washington. There you go. Bullets.
    We thank both of you for your introductions today. You are 
both respected voices in the Senate on national security and 
foreign policy issues. And so these introductions are important 
to us, and we are very, very grateful to you.
    We know you have other business, so we will excuse you 
while we begin quickly the business meeting, and then we will 
come back to the hearing itself. But thank you for taking time 
to be here. We appreciate it.
    Senator Collins.  Thank you, Mr. Chairman.


    [Whereupon, at 9:49 a.m., the hearing was recessed, to 
resume at 9:53 a.m.]


    The Chairman.  Senator Dodd has asked a point of personal 
privilege. Again, as chairman of the Banking Committee, he is 
in the middle of major discussions and hearings. So I would 
like to honor that. Senator Dodd?

              STATEMENT OF HON. CHRISTOPHER DODD, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Dodd.  Mr. Chairman, thank you very much. I'll be 
very, very brief.
    First of all, my apologies to you, Dr. Rice. We are having 
the confirmation hearings for the nominee to be the Chairman of 
the SEC, a Federal Reserve post, and three positions on the 
Council of Economic Advisers. So we have a full day in the 
Banking Committee before us.
    And we will have plenty of chances, I presume, in the 
coming days to talk and work together. So I congratulate you on 
accepting the nomination. I commend the President for 
suggesting your nomination to us, and we all look forward to 
working with you.
    I think the statements of Senator Kerry, as I heard them, 
Senator Bayh and Senator Collins express the views of all of us 
about the importance of this role. We know you will do an 
admirable job at it. So thank you very much. Thank you, Mr. 
Chairman.
    The Chairman.  Thank you very much, Senator Dodd.
    It is my pleasure, on behalf of the entire committee in the 
Senate, to welcome you here, Dr. Rice. We are really pleased to 
see you here today. And obviously, I can see that some members 
of your family are here, ranging up and down the generations I 
see. We would love to have you introduce them, if you would. 
Can you just share with us quickly who they are? And then I 
would like to say a few words, and I know Senator Lugar would 
too.
    Dr. Rice. Thank you, Mr. Chairman. I really am very pleased 
and proud that my family can be here. I would like to introduce 
my mother, Lois Rice; my father, Emmett Rice; my son Jake; my 
daughter Maris; and my husband Ian Cameron. They are a 
wonderful source of joy and support to me, and I could not 
imagine taking on this responsibility without them.
    The Chairman.  Well, we are really happy to welcome all of 
you. I know how proud you are. I listened to all those 
youngest-ever comments, and Senator Lugar and I were up here 
feeling grayer and grayer. [Laughter.]
    The Chairman.  But there is every reason to be enormously 
proud and we welcome you.
    As a point of personal privilege, I would like to just say 
to members of the committee we are delighted to welcome our old 
colleague and friend. Senator Tim Wirth is here in his role as 
President of the U.N. Foundation, which is a very important 
addendum to our efforts here. And we are delighted to welcome 
you back, Senator.
    The United States Ambassador to the United Nations is, 
without question, one of the most important national security 
and diplomatic posts in the administration and one from which 
there is an enormous ability to achieve a great deal. The Obama 
administration has recognized this by rightfully restoring it 
to cabinet level, and I believe that President-elect Obama has 
made an outstanding choice in Dr. Susan Rice.
    I have had the pleasure of working closely with Dr. Rice 
over the past years, and I can tell you that she is 
exceptionally talented, fiercely conscientious, and one of the 
most dedicated public servants that I have met. She has been a 
trusted personal advisor, and I have worked with her closely on 
a special project outside of the Senate, and she is a friend. 
And I could not be happier than to welcome her here for 
confirmation for such a key position.
    The choice of Dr. Rice for this elevated position is 
further evidence of the Obama's administration commitment to a 
renewed diplomatic and multilateral presence on the world 
stage. The United Nations can play a crucial role in mobilizing 
the world to meet complex international issues that are 
critical to our national interests.
    From Iran's nuclear program to climate change, to the 
crisis in Darfur and beyond, we are living in a world where the 
actions of a single nation are profoundly and increasingly 
inadequate to meet the challenges that we face.
    As I and others have said, if there were no United Nations, 
we would have to invent one. It is in our national and moral 
interests to cultivate a forum where frozen conflicts can be 
resolved before they become hot wars, where peace can be forged 
and protected, where global consensus on transnational threats 
and challenges can be translated into bold action, and where 
America can lead by working cooperatively with willing and able 
partners.
    At its most effective, the U.N. can and will be vital to 
our interests. The world is changing and it is changing 
rapidly. Narrower traditional notions of national interests are 
giving way to a broader, more holistic view, one that 
appreciates how the mass movements of people, melting ice caps, 
violent religious extremism, and global health challenges like 
HIV/AIDS are all interrelated facets of our security picture, 
and they all deserve greater attention.
    That is the world that the next administration inherits, 
and Dr. Rice brings a deep understanding to addressing these 
issues. In fact, her own writings and testimony on failed 
states and transnational challenges have helped to educate many 
of us about the new and inescapable global set of realities 
that we face. Dr. Rice brings insight and passion to an 
institution that will benefit from both.
    There have long been values of our foreign policy debate 
that somehow we leave aside, inadvertently I think, but they 
are often left aside. Certainly the rhetoric and the reality--
there is a gap between them. And there are many voices in that 
debate that prefer to dwell on all that the United Nations is 
not, rather than how it does serve our interests today or what 
it can become if we commit ourselves to strengthening it.
    On the other hand, support for the United Nations must not 
lead us to whitewash the institution's shortcomings any more 
than we should, obviously, accept the blanket condemnations. In 
the end, it diminishes the work of many good people, and it 
really reduces our ability to make the institution what it can 
be.
    Support for the U.N. requires us to address legitimate 
flaws, including corruption scandals, abuse by peacekeepers, 
and bureaucratic gridlock, not to mention a sometimes 
unbalanced approach to the Middle East and an unaccountable 
Human Rights Council. Sometimes also working through the United 
Nations has proved frustrating when it comes to addressing 
humanitarian crises in places like Burma, Darfur, and Zimbabwe 
and threats like Iran's nuclear program. Clearly today, we look 
forward to Dr. Rice's thoughts on how we can all join together 
to enhance the U.N.'s ability to deal with each of these issues 
multilaterally.
    But as we work toward making the U.N. a more effective and 
efficient body, we absolutely should not lose sight of the many 
ways in which it currently serves our interests. From managing 
over 90,000 peacekeepers in 16 missions around the world, 
despite chronic underfunding, to providing food and shelter to 
over 8 million refugees worldwide, to monitoring elections in 
Iraq, to much needed coordination efforts in Afghanistan, the 
U.N. and its affiliated agencies take on issues that no nation 
can or should take on alone. And in many cases, it is the best 
equipped and the only multilateral institution capable of doing 
so.
    The United Nations also advances important international 
norms that will benefit all nations. A U.N. panel of top 
scientists ratifies the world's consensus on the threat of 
global climate change. The U.N.'s championing of core 
principles of nuclear nonproliferation are vital, as well as 
the indispensable work of the IAEA's monitoring compliance with 
the Nuclear Nonproliferation Treaty. All of these have 
significantly improved our security.
    And the U.N. also plays a critical role in advancing causes 
that everyone should be able to agree on: the fight against 
global hunger, global poverty, and the fight for global health.
    The United States' support for the U.N. is critical. We are 
the largest contributor to both the regular and peacekeeping 
budgets at 22 percent and 27 percent, respectively. However, we 
are routinely behind in those payments and we handicap the 
United Nations in doing so. The administration's budget 
requests in recent years, particularly for peacekeeping, have 
not been enough to pay our bill. That is wrong. If we expect 
the United Nations to fulfill its important missions, we need 
to do better by upholding our end of the bargain, and that 
means paying our share in full and on time.
    Representing America at a body as complex as the United 
Nations is a huge challenge. I am absolutely confident that Dr. 
Rice is up to that challenge. She has served in senior 
positions on the National Security Council, and as referenced, 
as the youngest-ever Assistant Secretary of State, she was 
responsible for U.S. policy toward 48 countries of sub-Saharan 
Africa, including 43 embassies, over 5,000 Foreign Service 
employees, an operating budget over $100 million, and a program 
budget of approximately $160 million.
    Dr. Susan Rice is one of our most capable national security 
thinkers. She understands that our country is stronger when we 
enlist others in our cause, when we share our burdens, and when 
we lead strategically.
    It is my pleasure to support her nomination as U.N. 
Ambassador, one who brings both vital respect for the U.N. and 
the courage to challenge it and improve it. And I look forward 
to confirming her as our next Ambassador to the United Nations.
    Senator Lugar?

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar.  Mr. Chairman, I join you in your warm 
welcome to Dr. Susan Rice. We first met as members of a 
selection committee for Rhodes Scholars, interviewing the 
distinguished students and making a selection. And I 
appreciated that day with Dr. Rice and have appreciated her 
testimony before this committee over the course of the years, 
most recently on Darfur in 2007 when she brought considerable 
insight to those proceedings.
    The position of Ambassador to the United Nations is unique, 
as you pointed out, Mr. Chairman, among diplomatic assignments. 
Its occupant is responsible not only for conducting diplomacy 
on most of the critical foreign policy issues of the day, but 
also for United States stewardship of a multilateral 
institution that plays a central role in global affairs. The 
diplomatic challenges that will face our nominee include the 
nuclear confrontations with Iran and North Korea, the spread of 
HIV/AIDS and other diseases, refugee crises related to Iraq and 
Darfur and other locations, and numerous other problems that 
confront the United Nations every day.
    And while we all hope for a United Nations that can fulfill 
its potential as a forum for international problem-solving and 
dispute resolution, often the U.N. has fallen short of our 
hopes, particularly in areas related to management, to 
financial transparency and oversight. The influence and 
capabilities possessed by the United Nations come from the 
credibility associated with countries acting together in a 
well-established forum with well-established rules. Scandals, 
mismanagement, and bureaucratic stonewalling squander this 
precious resource.
    This committee and others in Congress have spent much time 
examining how the United States can work cooperatively with 
partners at the U.N. to streamline its bureaucracy, improve its 
transparency, and make it more efficient as it undertakes vital 
missions.
    I recently read in the Washington Post and the Wall Street 
Journal reports that the General Assembly shut down the U.N.'s 
Procurement Task Force that was rooting out corrupt U.N. 
officials and had banned 36 international companies from 
further business with the United Nations. Regrettably, it 
appears that the U.N. has already begun to curtail or terminate 
many of the task force's ongoing investigations.
    Many barriers exist to successful U.N. reform. Too many 
diplomats and bureaucrats in New York see almost any structural 
or budgetary change at the U.N. as an attempt to diminish their 
prerogatives.
    Our next Ambassador must be dedicated to continuing 
meaningful reform at the U.N. in spite of the daunting 
atmosphere. Our Ambassador must be a forceful advocate for 
greater efficiency and transparency and an intolerance of 
corruption.
    The performance of the U.N. Human Rights Council in Geneva 
also continues to be a source of concern in the Congress and 
among the American people. Sessions of the Council have focused 
almost exclusively on Israel. Much less well known is the role 
of the United Nations Social, Humanitarian, and Cultural 
Affairs Committee in New York, which has voted in the past to 
condemn the deplorable human rights situations in Iran, North 
Korea, Belarus, and Burma, countries which the Human Rights 
Council in Geneva has often ignored.
    Now, despite these and other difficulties, the United 
Nations remains an essential component of global security 
policy. The World Health Organization and the World Food 
Program, for example, have performed vital functions, reduced 
U.S. burdens, and achieved impressive humanitarian results for 
many years.
    The United Nations peacekeeping missions have contributed 
significantly to international stability and helped rebuild 
shattered societies. Currently there are 16 peacekeeping 
operations ranging from Haiti to the Congo, to East Timor, and 
some 100,000 civilian, military, and police forces from around 
the world are helping to stabilize some of the most war-ravaged 
places on our earth. In 2008, there were 130 peacekeeping 
fatalities, the second highest level since 1994.
    The ability of U.N. peacekeeping missions to be a force 
multiplier was underscored by a 2006 General Accounting Office 
analysis of the U.N.'s peacekeeping mission in Haiti. GAO 
concluded--and I quote--``the U.N. budgeted $428 million for 
the first 14 months of the mission. A U.S. operation of the 
same size and duration would have cost an estimated $876 
million.'' The report noted the U.S. contribution to the Haiti 
peacekeeping mission was $116 million, roughly one-eighth the 
cost of a unilateral American mission.
    Now, most Americans want the United Nations to help 
facilitate international burden-sharing in times of crisis. 
They want the U.N. to be a consistent and respected forum for 
diplomatic discussions, and they expect the U.N. to be a 
positive force in the global fight against poverty, disease, 
and hunger.
    But Americans also are frequently frustrated with the 
United Nations, and the job of the United States Ambassador to 
the U.N. involves not only dealing with policies and politics 
in New York. Our U.S. Ambassador must also be able to 
communicate to Congress and to the American people why it is 
important to pay our U.N. dues on time, why peacekeeping 
operations benefit the United States, why cooperation at the 
U.N. is essential to United States foreign policy.
    I welcome the distinguished nominee, look forward to 
hearing how she and the Obama administration intend to address 
these important issues.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    And now, Dr. Rice, we look forward to your testimony. Thank 
you.

STATEMENT OF HON. SUSAN E. RICE, NOMINATED TO BE REPRESENTATIVE 
                     TO THE UNITED NATIONS

    Dr. Rice. Thank you very much, Mr. Chairman, Ranking Member 
Lugar, and distinguished members of the committee. I am really 
deeply honored to appear before you as the President-elect's 
designee to be the United States Permanent Representative to 
the United Nations. I want to thank the President-elect for his 
confidence in naming me to this vitally important position.
    Mr. Chairman, my warmest congratulations to you as the new 
chairman of the Foreign Relations Committee. You have been an 
ardent champion of a principled U.S. foreign policy to ensure 
this country's security and prosperity. There is a great 
tradition of probity on this committee dating back to Senator 
Fulbright. The man seated next to you, Senator Lugar, continued 
that tradition through his years as chairman, and I know you 
will do so with great distinction as well. I am very grateful 
to you both for convening this hearing swiftly to consider my 
nomination.
    I also want to express my gratitude to Senator Susan 
Collins and Senator Evan Bayh for their very, very generous 
introductions of me and for their extraordinary service to our 
country. I am very appreciative of their support.
    Mr. Chairman, like many Americans, I first heard of the 
United Nations as a child about the age of my daughter Maris. 
My initial images of the U.N. were not of the blue helmets of 
its peacekeepers or the white vehicles of its lifesaving 
humanitarian workers, but the orange and black of the UNICEF 
boxes I carried door to door each Halloween. UNICEF and the 
U.N. embodied to me then, as it does still today, our shared 
responsibility to one another as human beings and our 
collective potential and, indeed, obligation to forge a more 
secure, more just, and more prosperous future.
    As I grew up during the Cold War, I saw the U.N. frequently 
paralyzed by geopolitical and ideological showdowns between the 
United States and the Soviet Union. Later, with the fall of the 
Berlin Wall, I joined millions in hoping that the vital mission 
of the U.N. could be advanced through enhanced cooperation. 
Serving in the Clinton administration in the 1990's, I had the 
opportunity to gain firsthand an appreciation of the 
organization's strengths and understanding of its weaknesses.
    In the wake of the Cold War, the U.N. was modernized in 
important ways and did substantial good, from Namibia to 
Mozambique, from El Salvador to South Africa and Cambodia. At 
the same time, there were clear failures, witnessed in the 
unimaginable human tragedies of Somalia, Rwanda, and Srebrenica 
and in the inability to deal effectively with crises in Angola 
and Haiti.
    Mr. Chairman, I believe we now stand at yet another 
defining moment. Terrorism, the spread of weapons of mass 
destruction, civil conflict, climate change, genocide, extreme 
poverty, and deadly disease are global challenges that no 
single nation can defeat alone. They require common action 
based on a common purpose and a vision of shared security. If 
confirmed, I welcome the challenge and will be humbled by the 
privilege to serve our country at the United Nations, where I 
will work to promote and implement President-elect Obama's 
commitment to strengthen our common security by investing in 
our common humanity.
    More than 60 years ago, our leaders understood that a 
global institution that brings all of the world's countries 
together would enhance, not diminish our influence and bring 
more security to our people and to the world.
    The President-elect has affirmed America's commitment to 
the United Nations as an indispensable, if imperfect, 
institution for advancing America's security and well-being in 
the 21st century. The goal of our diplomacy at the United 
Nations must be to make it a more perfect forum to address the 
most pressing global challenges: to promote peace, to support 
democracy, and to strengthen respect for human rights.
    My most immediate objective, should I be confirmed, will be 
to refresh and renew America's leadership in the United Nations 
and bring to bear the full weight of our influence, voice, 
resources, values, and diplomacy at the United Nations.
    The choices we face in addressing global challenges can 
often be difficult: allowing conflict and suffering to spread, 
mobilizing an American response, or supporting a multinational 
United Nations effort. The U.N. is not a cure-all. We must be 
clear-eyed about the challenges it faces. But it is a global 
institution that can address a tremendous range of critical 
American and international interests.
    I know the U.N. sometimes deeply frustrates Americans, and 
I am acutely aware of its shortcomings. Yet, all nations 
understand the importance of this organization. And that 
ironically is why countries like Sudan, North Korea, and Cuba 
work so hard to render bodies like the U.N. Human Rights 
Council ineffective and objectionable. It is why efforts to 
pass Security Council resolutions on abuses in places like 
Zimbabwe and Burma occasion such fierce debate. It is also why 
many try to use the U.N. willfully and unfairly to condemn our 
ally Israel. When effective and principled U.N. action is 
blocked, our frustration naturally grows, but that should only 
cause us to redouble our efforts to ensure that the United 
Nations lives up to its founding principles.
    Today, there is more on the agenda of the United Nations 
than ever before. Nearly 90,000 U.N. peacekeepers are deployed 
in 16 missions around the world. The U.N. is playing a vital 
role in Iraq and Afghanistan, and the United Nations is at the 
center of global efforts to address climate change and prevent 
the spread of nuclear weapons, to stabilize weak and failing 
states, prevent and resolve conflict, reduce poverty, combat 
HIV/AIDS, assist refugees and the internally displaced, feed 
the hungry, promote food security, and confront genocide and 
crimes against humanity.
    If confirmed, Mr. Chairman, I will work to strengthen the 
U.N.'s effectiveness to fulfill its many important missions, 
and working closely with the Secretary of State, I will devote 
particular attention to four areas.
    First, I will work to improve the capacity of the United 
Nations to undertake complex peace operations more effectively. 
We need to weigh new U.N. mandates more carefully and review 
existing mandates as they come up for renewal. The fact that 
more than 1 year after the force was established the crucial 
U.N. mission in Darfur is only at half-strength is patently 
unacceptable. We will work to build global peacekeeping 
capacity and help streamline the U.N.'s as well as our own 
procedures for deploying and supporting U.N. missions.
    Second, the Obama administration will provide strong 
leadership to address climate change. Under President-elect 
Obama, the United States will engage vigorously in UN-sponsored 
climate negotiations while we pursue progress in sub-global, 
regional, and bilateral settings. To tackle global warming, all 
major emitting nations must be part of the solution. Rapidly 
developing economies such as China and India must join in 
making and meeting their own binding and meaningful 
commitments. And we should help the most vulnerable countries 
adapt to climate change. If confirmed, I look forward to 
advancing the diplomatic and development elements of the 
President's climate change agenda.
    Third, preventing the spread and use of nuclear weapons is 
an enormous security challenge that deserves top-level 
attention. Senator Lugar, thanks to your bold leadership and 
vision and that of others, we have made some meaningful 
progress in this regard, but the threat remains urgent. It is 
essential to strengthen the global nonproliferation and 
disarmament regime, dealing with those nations in violation and 
upholding our obligations to work towards the goal of a world 
without nuclear weapons. The United Nations plays a significant 
role in this regime. Our objective is to lay the groundwork for 
a successful Nonproliferation Treaty review conference in 2010, 
one that advances the world's nonproliferation and disarmament 
architecture and improves it for the 21st century.
    Fourth, billions of the world's people face the threats of 
poverty, disease, environmental degradation, venal leadership, 
extremism, corruption, and violence. Conflict-ridden and 
fragile states can incubate these and other threats that rarely 
remain confined within national borders. President-elect Obama 
has long stressed the importance of working with others to 
promote sustainable economic development, to combat poverty, 
enhance food and economic security, including by making the 
Millennium Development Goals America's goals. If confirmed, I 
look forward to working with member states to advance this 
critical agenda at the United Nations.
    Regional political and security challenges will inevitably 
remain a central element of the U.S. agenda at the United 
Nations. Iran's pursuit of a nuclear weapon demands the urgent 
attention of the Security Council. Multilateral pressure is 
needed to eliminate North Korea's nuclear weapons program. A 
strengthened U.N. role in Afghanistan and Iraq will support 
elections and strengthen political institutions. The ongoing 
genocide in Sudan, the persistent violence in Eastern Congo, 
and the persecution of innocents in Zimbabwe and Burma all 
require much more effective action by the international 
community. And recent events remind us yet again of the 
importance of working to help Israelis and Palestinians achieve 
their goal of a peaceful two-state solution that achieves 
lasting security for Israel and a viable state for the 
Palestinians. I will work to enable the United Nations to play 
a constructive role in pursuit of this goal.
    The Obama administration will also promote democracy, 
understanding that the foundations of democracy are best seeded 
from within. We will stand up for human rights around the 
world. Thus, we will work closely with friends, allies, the 
United Nations Secretariat, and others to seek to improve the 
performance and the prospects of the Human Rights Council, 
which has strayed so far from the principles embodied in the 
United Nations Declaration of Human Rights.
    The United States will address all of these challenges 
unencumbered by the old divisions of the 20th century. We 
cannot afford any longer to be burdened by labels such ``rich'' 
and ``poor,'' ``developed'' or ``developing,'' ``North'' or 
``South,'' ``non-aligned'' or ``Western.'' In the 21st century, 
these false divisions rarely serve anybody's interests. In 
facing the challenges of the scale that lie before us, all 
peoples and all nations should focus on what we have in common: 
our shared desire to live freely and securely in health, with 
hope and opportunity. Those are the interests and aspirations 
of the American people and they are shared by billions around 
the world.
    Mr. Chairman, the United Nations must be strengthened to 
meet 21st century challenges. In cooperation with other 
governments, we will pursue substantial and sustained 
improvements across the full range of management and 
performance challenges. Important work on all of these issues 
has been undertaken, but we have much farther to go. Progress 
and reform are essential to address flaws in the institution, 
to meet the unprecedented demands made on it, and to sustain 
confidence in and support for the U.N. I pledge to you to work 
tirelessly to see that the American taxpayer dollars are spent 
wisely and effectively.
    To lead from a position of strength, the United States must 
consistently act as a responsible, fully engaged partner in the 
U.N. President-elect Obama believes that the United States 
should pay our dues to the U.N. in full and on time. I look 
forward to working with you and other Members of Congress to 
ensure that we do so, as well as to pay down our newly mounting 
arrears and to support legislation to permanently lift the cap 
on U.S. payments to the United Nations peacekeeping budget.
    If confirmed, I will have the great privilege of leading 
our hardworking and dedicated team at the U.S. mission to the 
United Nations. I intend to work with the Secretary of State to 
attract our best diplomats to serve at the mission. I will also 
work to ensure that the new U.S. mission building is completed 
as expeditiously as possible and provides our diplomats with 
the tools they need to be safe, effective, and successful.
    In conclusion, Mr. Chairman, Senator Lugar, if I am 
confirmed, I will be an unflinching advocate of America's 
interests and values at the United Nations. As I seek to 
maximize cooperation to address the most serious global 
challenges we confront, I will listen, I will engage, I will 
collaborate. I will go to the U.N. convinced that this 
institution has great current value, even greater potential, 
and still great room for improvement. I commit to being direct 
and honest in New York and always forthright with Congress. I 
will welcome the advice and support of members of this 
committee. I look forward to working closely with each of you, 
and I invite each of you to come to New York to contribute 
directly to our shared efforts to strengthen and support this 
important institution.
    Mr. Chairman, if confirmed, it will be my highest honor to 
support our country's interest in renewing our global 
leadership and effecting critical and lasting change. In the 
21st century, we can and we must transcend old barriers, build 
new bridges, strengthen our common security, and invest in our 
common humanity.
    I thank you. I would like to ask that my entire statement 
be submitted for the record, and I am very pleased now to 
answer your questions.
    The Chairman.  Thanks so much, Dr. Rice. Your entire 
statement will be put in the record, as if read in full. And we 
appreciate your summary enormously.
    I have no doubt that the things you have said you will do 
you are going to work to do, particularly work tirelessly. That 
I understand.
    Let me ask you, first of all--for me and I think for a lot 
of us--you spoke to this a little bit in your comments just 
now, acknowledging the frustration that many of us sometimes 
feel. I think these last 8 years have been particularly 
frustrating because it seems somehow that the entire 
international community has lost the ability to act on its 
outrage. I do not doubt that the outrage expressed by a lot of 
countries is sincere, including our own.
    But Darfur, Zimbabwe, Burma, just to mention a few, now the 
Eastern Congo. It is stunning, shocking what occurs on a daily 
basis in terms of young people being given guns and rampaging 
through villages, rag-tag armies that really are not that 
strong. They are certainly not that organized. And yet, those 
who are organized and who are strong do not seem to mobilize. 
And the caring is reserved to the rhetoric not to the reality 
of action.
    I was really surprised. I had been in South Africa and 
Botswana and was in Sharm el-Sheikh right at the time that the 
African Union was meeting there. And it was the day after the 
Zimbabwe election. I met with President Mubarek and asked him 
how they and he could receive Mr. Mugabe almost as if nothing 
had happened, despite the fact that he had openly talked about 
stealing an election because of the power of a bullet and the 
disrespect that he showed openly to the electoral process and 
to the people of his own country. And people just went on as if 
it was business as usual.
    So the pregnant question I think, for a lot of us, is what 
do you intend to do. What do you really realistically believe 
can be done so that under the Obama administration this will be 
different? What is going to be different with respect to 
Darfur, Zimbabwe, the Congo, just to take those three, starting 
on January 20th of next week?
    Dr. Rice. Thank you, Mr. Chairman. That is a vitally 
important question, and there are multiple aspects to it.
    First of all, the United States will lead at the United 
Nations with a respect for the institution and a determination 
to make it work.
    With respect to these thorny challenges of peacekeeping in 
the context of Darfur and Congo, and autocracy in the context 
of Zimbabwe, a common thread runs through these challenges, and 
it is twofold. We need as an international community not only 
to build additional peacekeeping capacity to be able to address 
these challenges on a timely basis on the ground because part 
of the problem we face in Darfur and Congo is a lack of ready, 
trained, and equipped troops to deploy to these operations on a 
timely basis. Building greater capacity globally is in our 
interest. It is in the interest of all United Nations member 
states, and it is something that we have in the past 
contemplated and even made early steps towards achieving, but 
have not pursued in a sustained and collective fashion. This is 
not a challenge for the United States alone. It is one that our 
partners and allies need to join, and it is one I am very 
committed to working on.
    The other half of the challenge, though, Mr. Chairman, is 
that of will, political will. It is not uncommon to hear quite 
moving speeches given in the halls of the Security Council, but 
there is a deficit of determination to take the difficult steps 
to hold accountable dictators such as Robert Mugabe, to demand 
that his illegitimate government step down and honor the will 
of the people of Zimbabwe. And we need to lead from a position 
of moral strength in order to bring others along with us.
    I hope very much, Mr. Chairman, that under President-elect 
Obama's leadership we will engage more actively with the 
countries in southern Africa and bring their often private 
condemnation into the public sphere. We need them to work with 
us and others to bring the necessary pressure to bear on that 
regime so that the Zimbabwean peoples' suffering can finally 
end.
    And we also need to strengthen the will of the 
international community to do what is necessary in places like 
Congo and Darfur. We finally have agreement that there ought to 
be increased peacekeeping operations there. That is progress. 
But now the challenge of putting those troops on the ground 
remains.


    [Dr. Rice's prepared statement follows:]


                Prepared Statement of Dr. Susan E. Rice

    Mr. Chairman, Ranking Member Lugar, and distinguished members of 
the committee, I am deeply honored to appear before you as the 
President-elect's designee to be the United States' Permanent 
Representative to the United Nations. I want to thank the President-
elect for his confidence in naming me to this vitally important 
position.
    Mr. Chairman, my warmest congratulations to you as the new chairman 
of the Foreign Relations Committee. You have been an ardent champion 
and advocate for a principled U.S. foreign policy to ensure this 
country's security and prosperity. There is a great tradition of 
probity on this committee, dating back to Senator Fulbright. The man 
seated next to you, Senator Lugar, continued that great tradition 
through his years as chairman, and I know you will, as well. I am very 
grateful to you, Mr. Chairman, and to Senator Lugar, for convening this 
hearing swiftly to consider my nomination.
    I would like to take a moment to introduce and thank my family. I 
am so pleased and proud to be joined today by my mother, Lois Rice, my 
father, Emmett Rice, my wonderful husband Ian Cameron, and our greatest 
blessing, our children, Jake and Maris. Without their unfailing wisdom, 
love and support, I would not be here today, nor could I imagine taking 
on this great responsibility.
    In addition, I want to express my gratitude to Senator Susan 
Collins and Senator Evan Bayh for their generous introductions of me 
and for their extraordinary service to our nation. I am very 
appreciative of their support.
    Mr. Chairman, like many Americans, I first heard of the United 
Nations as a child of about Maris' age. My initial images of the U.N. 
were not the blue helmets of its peacekeepers or the white vehicles of 
its life-saving humanitarian workers but the orange and black of the 
UNICEF boxes I carried door to door each Halloween. I grew up trick-or-
treating for UNICEF--a tradition my children continue today. The 
concept is simple and powerful--children the world over helping other 
children. UNICEF and the U.N. embodied to me then, as they still do 
today, our shared responsibility to one another as human beings and our 
collective potential and obligation, to forge a more secure, more just 
and more prosperous future.
    As I grew up during the Cold War, I then saw the U.N. frequently 
paralyzed by geopolitical and ideological showdowns between the United 
States and the Soviet Union. Later, with the fall of the Berlin Wall, I 
joined millions in hoping that the vital mission of the U.N. could be 
advanced through enhanced cooperation. Serving in the Clinton 
administration in the 1990s, I had the opportunity--first as the 
official on the NSC staff responsible for U.N. affairs and later as 
Special Assistant to the President and Assistant Secretary of State for 
African Affairs--to gain a first-hand appreciation of the 
organization's strengths and an understanding of its weaknesses.
    In the wake of the Cold War, the U.N. was modernized in important 
ways and did substantial good--from Namibia to Mozambique, from El 
Salvador to South Africa and Cambodia. At the same time, there were 
clear failures, witnessed in the unimaginable human tragedies of 
Somalia, Rwanda and Srebrenica, and the inability to effectively deal 
with crises in Haiti and Angola. We saw the difficulties and limits of 
U.N. action when conflicting parties are determined to continue 
fighting, as well as the imperative of mobilizing broad-based support 
behind U.N. efforts. We were disappointed when the U.N. occasionally 
served as a forum for prejudice instead of a force for our shared 
values. Finally, we learned that mismanagement and corruption can taint 
the dedicated work of skilled professionals, and that the reprehensible 
actions of a few can undermine the goodwill of many towards an 
institution, which most Americans nonetheless continue to support.
    Mr. Chairman, I believe we stand now at yet another defining 
moment--one in which the peoples and nations of the world must find 
both the will and more effective means to cooperate, if we are to 
counter the urgent global threats that face us all. Terrorism, the 
spread of weapons of mass destruction, civil conflict, climate change, 
genocide, extreme poverty, and deadly infectious disease are shared 
challenges that no single nation can defend against alone. They require 
common action based on a common purpose and vision of shared security. 
I welcome the challenge and am humbled by the opportunity to serve our 
country at the United Nations. If I am confirmed, I will work to 
promote and implement President-elect Obama's commitment to 
``strengthening our common security by investing in our common 
humanity.''
Advancing America's Interests in the United Nations
    More than 60 years ago, in the aftermath of the destruction and 
devastation of World War II, the United States provided the leadership 
and vision that led to the founding of the United Nations. Our leaders 
understood then that a global institution that brings all of the 
world's countries together would enhance--not diminish--our influence 
and bring more security to our country and the world.
    Today, with our security at home affected by instability, violence, 
disease, or failed states in far corners of the world, the President-
elect has affirmed America's commitment to the United Nations as an 
indispensable, if imperfect, institution for advancing our security and 
well-being in the 21st century. He has made it clear that we must 
pursue a national security strategy that builds strong international 
partnerships to tackle global challenges through the integration of all 
aspects of American power--military and diplomatic; economic and legal; 
cultural and moral. The goal of our diplomacy at the United Nations 
must be to make it a more perfect forum to address the most pressing 
global challenges: to promote peace, to support democracy, and to 
strengthen respect for human rights.
    There is no country more capable than the United States to exercise 
leadership in this global institution, and to help frame its programs 
and shape its actions. My most immediate objective, should I be 
confirmed, will be to refresh and renew America's leadership in the 
United Nations and bring to bear the full weight of our influence, 
voice, resources, values, and diplomacy at the United Nations.
    The Obama administration will work to maximize common interests and 
build international support to share the burdens of collective action 
to counter the most pressing threats Americans face, while working to 
help tackle the poverty, oppression, hunger, disease, fear and war that 
threaten billions around the world every day.
    We will make our case to the U.N., and press for it to become a 
more effective vehicle of collective action. We will also be prepared 
to listen and to learn, to seek to understand and respect different 
perspectives. The task of our diplomacy must be to expand both the will 
and ability of the international community to respond effectively to 
the great challenges of our time.
    I know that the U.N. often frustrates Americans, and I am acutely 
aware of its shortcomings. But that is precisely why the United States 
must carry out sustained, concerted, and strategic multilateral 
diplomacy. Many countries invest heavily in deliberations on what they 
view as the ``world's stage.'' That in part explains why diplomacy at 
the U.N. can be slow, frustrating, complex, and imperfect. But that is 
also why effective American diplomacy at the United Nations remains so 
crucial.
    Indeed, in some places the U.N. is the only capable institution 
trying to make a difference. Around the world, the United Nations is 
performing vital, and in many areas life-saving, services. Last year, 
the World Food Program fed 86 million people in 80 countries who would 
otherwise go hungry or even face starvation, including Afghanistan, 
Iraq, Sudan, Indonesia, and Congo. Thanks to the efforts of UNICEF and 
the World Health Organization, smallpox and polio have been nearly 
wiped out. UNICEF alone vaccinates about 40 percent of the world's 
children each year.
    The choices we face in addressing global challenges can often be 
difficult: allowing conflict and suffering to spread, mobilizing an 
American response, or supporting a multi-national United Nations 
effort. The U.N. is not a cure-all; we must be clear-eyed about the 
problems, challenges and frustrations of the institution. But it is a 
global institution that can address a tremendous range of critical 
American and global interests.
    The support of others can never be viewed as a prerequisite for 
U.S. action, but our actions are strengthened with the support of 
friends, allies and other stakeholders. Achieving the backing of an 
institution that represents every country in the world can give added 
legitimacy and leverage to our actions and facilitate our efforts to 
garner broad support for our policy objectives.
    From the Balkans to East Timor, from Liberia to Kashmir, from 
Cyprus to the Golan Heights, the United Nations has, for more than six 
decades, played a critical role in forestalling renewed fighting, 
helping to resolve conflict and repair war-torn countries, providing 
humanitarian aid, organizing elections, and responding to threats to 
international peace and security. Countless lives have been saved. And 
when it works, the U.N. has helped promote the very democratic values 
that lie at the center of what the United States represents.
    Indeed, the flaws and disappointing actions within the U.N. are 
rooted in its potential to serve as an engine for progress. All nations 
understand the importance of this institution. That is why countries 
like Sudan, North Korea and Cuba work so hard to render bodies like the 
U.N. Human Rights Council ineffective and objectionable. It is why 
efforts to pass Security Council resolutions on abuses in places from 
Zimbabwe to Burma occasion such fierce debate, and don't always 
succeed. It is also why many try to use the U.N. to willfully and 
unfairly condemn our ally Israel. When effective and principled U.N. 
action is blocked, our frustration naturally grows, but that should 
only cause us to redouble our efforts to ensure that the United Nations 
lives up to its founding principles.
    As in the past, there will be occasions in the future when 
deadlocks cannot be broken, and the United States and its partners and 
allies will nonetheless have to act. Yet, what our leaders accomplished 
over 60 years ago was to help establish an inclusive global institution 
that, by its very existence, provides the potential to enhance 
collective security, while affording a powerful platform for American 
leadership--leadership that can increase our own and others' security 
and prosperity.
Nature of the Challenges and U.N. Role
    Today, there is more on the agenda of the United Nations than ever 
before, and with that full agenda comes increased expectations and 
increased need to shed inefficiency and implement management best 
practices. Nearly 90,000 U.N. peacekeepers--more than ever before--are 
deployed in 16 missions around the world. The U.N is also playing vital 
roles in Iraq and Afghanistan--working to strengthen governance, foster 
democracy and development, and meet pressing humanitarian needs. The 
United Nations is also at the center of global efforts to address 
climate change, prevent the spread of nuclear weapons, stabilize weak 
and failing states, prevent and resolve conflict, reduce poverty, 
combat HIV/AIDS and halt the spread of other infectious disease, assist 
and resettle refugees and the internally displaced, feed the hungry and 
promote food security, and confront genocide and crimes against 
humanity.
    If confirmed, I will work to strengthen the U.N.'s effectiveness to 
fulfill its many important missions, and working closely with the 
Secretary of State, I will devote particular attention to four areas:
    First, we must make renewed efforts to improve the capacity of the 
United Nations to undertake complex peace operations effectively. We 
need to weigh new U.N. mandates more carefully and review existing 
mandates as they are renewed. Indeed, the gap between number and 
complexity of the missions the Security Council has committed the U.N. 
to perform, and its ability to do so, has arguably never been greater. 
The fact that more than one year after the force was established, the 
crucial U.N. mission in Darfur is only at half its authorized strength 
is unacceptable. We should work to build global peacekeeping capacity 
and help streamline the U.N. as well as our own procedures for 
deploying and supporting U.N. missions. We must also no longer allow 
host nations to dictate the composition of--and thwart the effective 
deployment of--Chapter VII U.N. operations.
    Second, the Obama administration will provide strong leadership to 
address climate change and welcomes the U.N. Secretary-General's strong 
interest in this issue. Under President-elect Obama, the United States 
will engage vigorously in U.N.-sponsored climate negotiations while we 
pursue progress in sub-global, regional and bilateral settings. To 
tackle global warming, all major emitting nations must be part of the 
solution, and rapidly developing economies, such as China and India, 
must join in making and meeting their own binding and meaningful 
commitments. We must help the most vulnerable countries adapt to 
climate change and seize opportunities to accelerate their development 
by investing in supplying renewable energy and participating in 
emissions trading mechanisms. If confirmed, I look forward to advancing 
the diplomatic and development elements of the President's climate 
change agenda.
    Third, preventing the spread and use of nuclear weapons is an 
enormous security challenge that deserves top level attention. Thanks 
to the bold leadership and vision of Senator Lugar and others, enormous 
progress has been made, but the threats are daunting and must be 
addressed. There is no more urgent threat to the United States than a 
terrorist with a nuclear weapon. Nuclear weapons materials are stored 
in dozens of countries, some without proper security. Nuclear 
technology is spreading. Iran continues its illicit nuclear program 
unabated, and North Korea's nuclear weapon's program is destabilizing 
to the region and an urgent proliferation concern. President-elect 
Obama will work on multiple levels to address these dangers. It is 
essential to strengthen the global nonproliferation and disarmament 
regime, dealing with those states in violation of this regime, and 
upholding our obligations to work constructively and securely toward 
the goal of a world without nuclear weapons. The United Nations plays a 
significant role in this regime, particularly through the Review 
Conferences held every five years under the Nuclear Nonproliferation 
Treaty. The next Review Conference in 2010 is an opportunity to 
strengthen all nations' adherence to the global non-proliferation 
regime for the 21st century. Our objective for the 2009 Preparatory 
Committee is to lay the groundwork for a successful Review Conference 
in 2010--one that advances the world's nonproliferation and disarmament 
regime and decreases the chance that nuclear weapons will end up in the 
hands of terrorists.
    Fourth, President-elect Obama has called for us to ``invest in our 
common humanity.'' Billions of the world's people face the threats of 
poverty, disease, environmental degradation, rampant criminality, 
extremism, and violence where states and public institutions cannot 
provide security or essential services to their own citizens. Conflict-
ridden and fragile states also can incubate these and other threats 
that rarely remain confined within national borders. Indeed, some of 
the world's most dangerous forces are manifest in or enabled by 
precisely these contexts. President-elect Obama has long stressed the 
importance of working with others to promote sustainable economic 
development, combat poverty, enhance food and economic security, curb 
conflict and help strengthen democracy and governing institutions. The 
Obama administration is also committed to supporting broad-based and 
sustainable economic development, including making the Millennium 
Development Goals (MDGs) America's goals. This is a broad but crucial 
agenda for the United States that will enhance our own security in an 
interconnected world. It is one that requires engagement from many 
different elements of the international community but where the United 
Nations has a unique and critical role to play.
    Regional political and security challenges will inevitably remain a 
central element of the U.S. agenda at the United Nations. Iran's 
pursuit of a nuclear weapon will continue to demand the urgent 
attention of the U.N. Security Council. Multilateral pressure will 
continue to be needed to eliminate North Korea's nuclear weapons 
program. A strengthened U.N. role in Afghanistan and Iraq will promote 
governance, support elections, strengthen political institutions, 
improve coordination of development, and enhance regional security. The 
ongoing genocide in Sudan, the persistent violence in Eastern Congo, 
and the persecution and repression of innocents in Zimbabwe and Burma 
all require much more effective action by the international community. 
And, recent events remind us yet again of the importance of working to 
help Israelis and Palestinians achieve their goal of a peaceful two-
state solution that achieves lasting security for Israel and a viable 
state for the Palestinians. I will work to enable the United Nations to 
play a constructive role in pursuit of this goal.
    The Obama administration will promote democracy, understanding that 
the foundations of democracy must be grown beyond elections, and those 
foundations are best seeded from within. We will stand up for human 
rights around the world mindful of our deep and abiding interest in 
ensuring strong global mechanisms to defend these rights. Thus, we will 
work closely with friends, allies, the U.N. Secretariat and others to 
seek to improve the performance and the prospects of the Human Rights 
Council, which has strayed far from the principles embodied in the U.N. 
Declaration of Human Rights, and too often undermines the very rights 
it must defend.
    The United States will address all these challenges unencumbered by 
the old divisions of the 20th century. We cannot afford to be burdened 
with labels such as ``rich'' or ``poor,'' ``developed'' or 
``developing,'' ``North'' or ``South,'' or ``the Non Aligned 
Movement.'' In the 21st century, these false divisions rarely serve 
anyone's interests. In facing challenges of the scale that lie before 
us, all peoples and nations should focus on what we have in common: our 
shared desire to live freely and securely, in health, with hope and 
with opportunity. Those are the interests and aspirations of the 
American people, and they are shared by billions around the world.
Strengthening the United Nations
    Mr. Chairman, the United Nations must be strengthened to meet 21st 
century challenges. None of us can be fully satisfied with the 
performance of the U.N., and too often we have been dismayed. The 
United States must press for high standards and bring to its dealings 
with the U.N. high expectations for its performance and accountability, 
and that's what I intend to do. In cooperation with other governments, 
we must pursue substantial and sustained improvements across the full 
range of management and performance challenges, including financial 
accountability, efficiency, transparency, ethics and internal 
oversight, and program effectiveness. Important work on all of these 
issues has been undertaken, but we have much further to go. Progress 
and reform are essential to address flaws in the institutions, to meet 
the unprecedented demands made on it, and to sustain confidence in and 
support for the U.N. I pledge to you to work tirelessly to see that 
American taxpayer dollars are spent wisely and effectively.
    To lead from a position of strength, the United States must 
consistently act as a responsible, fully-engaged partner in New York. 
To do so, we must fulfill our financial obligations while insisting on 
effective accountability. In the past, our failure to pay all of our 
dues and to pay them on a timely basis has constrained the U.N.'s 
performance and deprived us of the ability to use our influence most 
effectively to promote reform. President-elect Obama believes the U.S. 
should pay our dues to the U.N. in full and on time. I look forward to 
working with you and other Members of Congress to ensure that we do so, 
as well as to pay down our newly mounting arrears and to support 
legislation to permanently lift the cap on U.S. payments to the U.N. 
peacekeeping budget.
Leading USUN
    If I am confirmed, I will have the privilege of leading our 
hardworking and dedicated team at the U.S. Mission to the United 
Nations. Successful diplomacy requires top-notch people. If confirmed, 
I intend to work with the Secretary of State to attract and support our 
best and brightest diplomats to serve at the Mission. Current tax laws 
and policies make service at the U.S. Mission a comparative financial 
sacrifice for Foreign Service officers. This is a situation that 
together, we should review and address to strengthen America's global 
leadership. In addition, a secure, modern work environment is critical 
to maximizing performance. The best businesses in America understand 
this point. If confirmed, I will work to ensure that the new U.S. 
Mission building is completed as expeditiously as possible and provides 
our diplomats with the tools they need to be safe, effective and 
successful.
    Early in my career I was a management consultant. I know that 
strong leadership and sound management supports effective action. We 
must enhance our capacity to press for a more efficient and effective 
U.N. Heading a well-run mission will be an important priority for me.
Conclusion
    In conclusion, Mr. Chairman, if I am confirmed, I will work 
energetically to help renew America's leadership in the world. I will 
ensure that the United States is represented powerfully and 
effectively. I will be an unflinching advocate of our interests and 
values, as I seek to maximize cooperation to address the most serious 
global challenges we confront. I will listen. I will engage. I will 
collaborate. I will go to the U.N. convinced that this institution has 
great current value, even greater potential, and great room still for 
improvement. I commit to being direct and honest in New York and always 
forthright with Congress. I will welcome the advice and support of the 
Members of this committee; I look forward to working closely with all 
of you; and I invite each of you to come to New York to contribute 
directly to our shared efforts to strengthen and support this important 
institution.
    Mr. Chairman, if confirmed, it will be my highest honor to support 
our country's interest in renewing our global leadership and effecting 
critical and lasting change. In the 21st Century, we can and we must 
transcend old barriers, build new bridges, strengthen our common 
security and invest in our common humanity.
    Thank you.


    The Chairman.  Well, thank you. It is an important 
statement, and I want to try to flesh it out a little bit, if 
we can.
    Let me just say to my colleagues we are going to do a 10-
minute round so that colleagues can think about being here.
    And Dr. Rice, let me just say--I think you know this, but I 
want to make it part of the record--that we have about five 
competing nomination hearings today which is why colleagues are 
coming and going. And I know you understand that and respect 
it, but I want the record to reflect it.
    You talked about building greater capacity. I happen to 
believe very deeply. We do not have to argue about it here, but 
if we were not in Iraq or had not made that commitment, I think 
the options and possibilities might have been considerably 
different with respect to some of these interventions. But we 
are where we are.
    And so I want to ask you, what shape do you believe that 
greater capacity takes? Are you talking about blue helmets? Are 
you talking about joint operations conceivably? Are you talking 
about in some places, as in eastern Europe, where we have 
extended the NATO presence and so forth? Give us a sense of how 
you view that capacity.
    Dr. Rice. Well, Senator, that capacity can and should come 
from various different parts of the world. The bulk of 
peacekeeping troops now are contributed by a handful of 
countries in South Asia and Africa. We have largely tapped out 
the capacity within Africa, for example, to address the 
peacekeeping shortfalls in many of the conflicts which are in 
Africa. African governments have indicated a desire and a 
willingness to contribute more, but they may not have the 
equipment or the training or the interoperability to enable 
them to do so effectively and on short notice.
    You may recall that at the G-8 summit a few years ago in 
Sea Island, Georgia we and other G-8 partners made a commitment 
to build five regional brigades within Africa, brigades that 
would be interoperable and equipped and ready to deploy swiftly 
if national governments made the decision to do so.
    Well, we have not quite fulfilled that commitment. We have 
gotten diverted along the way, as have our European partners. 
Redoubling our determination to build that sort of capacity 
with other countries is an example of the sort of support I 
think we can provide: training, logistics, lift, equipment. We 
have done some of that, to the Bush administration's credit, in 
various one-off instances, but we have not achieved a 
systematic strengthening of global peacekeeping capacity in 
Africa and beyond.
    The Chairman.  Well, we wish you well with that. It is 
going to be an enormous undertaking, but I could not agree more 
about the importance of the ability to move--and I will come 
back to it perhaps in another round in a little bit. But I want 
to go to one other area.
    You talked about bringing pressure to bear. And I agree. We 
have to bring some pressure to bear. Particularly when you look 
at the U.N. Security Council relationships to see a China or a 
Russia veto on something that most people believe violates 
universal principles of behavior and so forth is disappointing.
    To what degree, though, does our current economic crisis, 
the fact that both of those countries have important economic 
relationships to us--China is one of our bankers of preference, 
and we are relying on them significantly with respect to the 
purchase of American debt. To what degree do those 
interconnected realities condition the level of pressure that 
you can actually bring in order to get the outcome that we need 
on some of these other issues? And are you concerned about that 
as you go forward?
    Dr. Rice. It is a very important question and it is a tough 
challenge. There is no doubt. We have a complex set of 
interests and relationships with other major countries, notably 
China and Russia. And there will be instances in which we agree 
and are able to work together, and there will be instances in 
which we disagree. And we will stand our ground and stand up 
for our values.
    But I think the challenge is to use effective, sometimes 
quiet diplomacy to try to maximize their willingness to join 
with us on issues that are not central to their vital national 
security or to ours. There is no logical reason why it must 
remain that Russia and China, for instance, are unable to 
separate themselves from the regime of Robert Mugabe. China has 
a long relationship. Russia does as well, going back to the 
liberation struggle. But those two countries have grown and 
evolved, and Zimbabwe has evolved to a place where their 
interests, frankly, no longer coincide.
    My view is if, for instance, the countries of southern 
Africa were to speak strongly with one voice and say to the 
international community, including Russia and China, with whom 
they have close economic ties, that it is now in our shared 
interest to support a peaceful transition in Zimbabwe to a 
democratically elected government, that we are no longer going 
to stand by while great human suffering persists and cholera 
pours across our shared borders, then I think China and Russia 
will have more interest in those regional relationships than 
they will in maintaining strong support for a regime that is 
clearly not long for this world.
    The Chairman.  Well, we certainly hope so and wish you well 
in that effort. And I know the committee will work very closely 
with you to try to help leverage that.
    Senator Lugar?
    Senator Lugar.  Thank you, Mr. Chairman.
    As I mentioned in my opening statement, I am concerned that 
the United Nations is beginning to fail to follow up on the 
significant progress made by the Procurement Task Force.
    Now, specifically, Ms. Rice, in your written response to an 
earlier question for the record on the list of corrupt 
companies who have been suspended from further business with 
the U.N., you indicated that this list is not made public. The 
list is not even shared with member states. And I would have 
hoped under Secretary-General Ban Ki-Moon's leadership, the 
obvious sunshine policies would have been enacted.
    Now, specifically, you do mention in your response that the 
list of companies is shared with other U.N. funds and programs. 
Is the World Health Organization, for example, or UNDP, 
committed to abstaining from conducting business with those 
banned companies, as well as their compliance? Or is it just 
simply voluntary? And what comment do you have really about the 
entire secrecy or nontransparency of this process?
    Dr. Rice. Well, Senator Lugar, I think you are right to 
point to that as a source of concern. The United States has 
fought for, and under President-elect Obama will remain 
committed to, increasing transparency within the United Nations 
system. Under President Bush, we have pressed for more 
accountability, and more sharing of information with member 
states. And this must remain an important point of our 
discussion and engagement with the Secretary-General and the 
institution as a whole.
    You spoke about the Procurement Task Force. This was a body 
created in 2006 after the Oil for Food scandal, and it has done 
a very credible job of highlighting over $650 million in faulty 
contracts. Its work now has come to a formal end in its current 
construct, as it was supposed to do. It wrapped up on schedule.
    Now the challenge is ensuring that as it is folded into the 
Investigative Division of the Office of Internal Oversight 
Services, that the people and the institutional knowledge, 
which have enabled the task force to be effective, are not 
lost, and that the work can continue until it is completed.
    And I, if confirmed, Senator, look forward to getting a 
full briefing on the internal dynamics on the personnel 
questions, which I understand are of concern to you and other 
Members of Congress, and to press for ensuring that our tax 
dollars are well spent, that the procurement functions continue 
to be conducted in a more transparent fashion, and that we, as 
the largest paying member state, and other member states have 
the ability to see and know what is going on inside the 
institution.
    Senator Lugar.  Well, I appreciate that answer because, 
obviously, I would think everyone in the world is concerned 
about corruption. The monies are being spent in difficult 
places, but these are factors that we have tried to survey in 
our own government as with the contracts in Iraq, for example, 
we have been exploring.
    But then I made the point--and I think you agree-- that 
there is an obligation on your part to the American people to 
report about all of this because taxpayer funds of all 
Americans are involved. And the idea of transparency, which 
seems to be hidden behind the doors of the U.N., really will 
not work. So I challenge your ingenuity and your diplomacy once 
again to sort of tip the doors open, have a new era, an 
Ambassador Rice era, in which we really have more confidence on 
the part of the American public in the business dealings, which 
are very considerable.
    Now, you indicated also in a response for the record that 
you intend to pursue pragmatic working relationships with other 
members of the Security Council and cited specifically, of 
course, the importance of those relationships with Russia and 
China. How do you believe the United States can be more 
effective in dealing with Russia and China?
    You have already cited one instance in which perhaps you 
might talk about Zimbabwe with these countries and the 
coincidence or lack of interest that they may have. And that 
may be a pragmatic way of prying the door open there too. But 
frequently the frustration of the rest of the world, quite 
apart from the United States, comes from vetoes of Russia or 
China with Security Council resolutions in which action, 
therefore, is immobilized. So discuss for a moment your 
thoughts about these pragmatic conversations with the Russian 
and the Chinese delegates.
    Dr. Rice. Well, Senator, thank you.
    Part of this is embedded in a larger challenge of trying to 
renew and refresh these critical bilateral relationships. In 
some instances, they are relationships that have been very 
fraught of late. In other instances, we have found ways to 
cooperate, for example, with China on a number of important 
issues like North Korea, but we have not yet unlocked the door 
to sufficient cooperation in other areas.
    I, as the U.S. Ambassador at the United Nations, if 
confirmed, will reach out very early to my Russian and Chinese 
counterparts. I want good working relationships with them. I 
want honesty and transparency and I want to minimize surprises. 
And I am very well aware that there will be times when our 
interests diverge and when we cannot reach agreement. But I 
think, frankly, with a new openness, a respect for what these 
nations' interests are and what their hopes and aspirations 
are, and a recognition that in many, many spheres we share 
common concerns and common interests, whether we are talking 
about nonproliferation, arms control, or dealing with 
challenges like climate change. Senator, you mentioned the 
global economy. These are areas where we do have many shared 
concerns even as we differ, sometimes quite starkly, on issues 
of human rights and regional security.
    The aim must be to try to maximize those areas of 
cooperation, not to fight every battle with equal vigor, but to 
pick those which matter most to our interests and values, and 
to minimize differences where possible. And that is what I will 
do if I am fortunate to serve our Nation at the United Nations, 
and that is what, as you heard from Senator Clinton, the Obama 
administration will do more broadly in the context of our 
overall bilateral relationships.
    Senator Lugar.  In a particularly difficult instance of 
what you have just discussed, in late December Russia blocked 
efforts to extend the OSCE's observer mission in Georgia 
following Georgian and Russian activity in 2008. Now, the U.N. 
peacekeeping mission in the Abkhazia region of Georgia is now 
set to expire on February 15th, and that mission of some 450 
observers and support staff has proved a useful neutral 
instrument in the region. And this month, likewise the OSCE, 
which I have already cited, will begin dismantling 140 
observers who have been in place since 1992.
    What can you comment about the fate of the U.N. mission 
with regard to Georgia, South Ossetia, and Abkhazia?
    Dr. Rice. Well, Senator, it will be our objective to seek 
the renewal of those operations which, as you point out, have 
served a very important function.
    As a matter of broad policy, as President-elect Obama has 
said in many instances, we stand firmly in support of Georgia's 
sovereignty and territorial integrity. We think that there is 
no place in the 21st century for aggression or intimidation of 
sovereign states, and that is an important principle that we 
will stand by and uphold, even as we seek improved cooperation 
with Russia and other countries on a wide range of issues. We 
hope very much to be able to work with Russia in the Security 
Council and with others towards agreement to renew this 
operation and take it off the agenda as a potential point of 
disagreement between our countries.
    Senator Lugar.  Finally, you have mentioned in your 
questions for the record the issues of Security Council reform, 
a proposal for change in size, structure. Do you have any 
general feeling about the Security Council proposition?
    Dr. Rice. Well, it is important to be clear that the 
incoming administration has not taken any specific position on 
the nature of Security Council reform. President-elect Obama 
and all of us recognize that the Council of today quite 
logically ought to be something that looks a little bit 
different from the Council as it was created 60-plus years ago 
when the United Nations had only 50 member states. The world 
has changed. Relationships have changed. We now have an 
organization of over 190 members. Certainly it is in our 
interest for the institution to remain fresh and legitimate and 
representative of the 21st century in which we live.
    That said, it is critically important that any Security 
Council reform not undermine the operational efficiency and 
effectiveness of the Council. We have a strong stake in that 
council being able to operate on a timely basis and take swift 
and meaningful action. So that will guide our approach to U.N. 
Security Council reform.
    Senator Lugar.  Thank you very much.
    The Chairman.  Thank you very much, Senator Lugar.
    Senator Feingold?
    Senator Feingold.  Thank you, Mr. Chairman.
    As she well knows, I am very pleased that Dr. Susan Rice 
has been nominated to be our Ambassador to the United Nations. 
I have known Susan Rice for a long time and was lucky enough to 
travel with her and then-United Nations Ambassador Holbrooke to 
several African countries in 1999, including a particularly 
memorable long conversation with President Robert Mugabe where 
we got a little sense of just how disturbing the future might 
be. And that was a very regrettable thing to watch to start to 
happen.
    But our purpose on the trip actually was to try to bring 
peace to Eastern Congo and that region. Unfortunately, a decade 
later, there is still grave instability in central Africa, but 
Dr. Rice, if you are confirmed, I look forward to working with 
you again on these efforts.
    I am also very pleased that the President-elect has decided 
to restore the U.N. Ambassador position to a cabinet rank as it 
was under President Clinton. This decision is an indication of 
his strong commitment to multilateralism and to collaboration 
with our friends and our allies.
    Dr. Rice, as you well know, efforts to impose stronger 
multilateral sanctions on Iran at the Security Council have 
been repeatedly delayed and diluted. I have supported stronger 
multilateral sanctions on Iran. Unfortunately, the Bush 
administration's saber rattling has undermined these efforts. I 
would like to hear your thoughts today on what steps the new 
administration intends to take at the Security Council with 
regard to Iran and what you believe to be the greatest 
challenge you would face in trying to shore up support from 
other permanent members of the Security Council.
    Dr. Rice. Thank you, Senator Feingold, and thank you for 
your kind words.
    The broad challenge, with respect to Iran, is to prevent 
Iran from acquiring a nuclear weapon, and to reduce its 
destabilizing engagement in neighboring countries and its 
support for terrorism.
    With respect to its efforts to acquire a nuclear weapon, 
the President-elect has said very forcefully that that is a 
great threat to the United States, to Israel, and to the 
region, and Iran's acquisition of a nuclear weapon is not an 
acceptable outcome. The challenge is how best to prevent it. 
And the President-elect has said that it is time that we 
combined tough, direct, robust diplomacy with increased 
sanctions and pressure to try to elicit a change of course from 
the Iranian regime. We are interested in seeing what progress 
can be made from such a new approach.
    Now, to buttress those efforts, we will look to the 
Security Council and, indeed, to our partners and friends 
outside of the Security Council to consider what package of 
pressures and incentives would best accomplish that goal. This 
needs to be a collective effort. We want to continue to work in 
the context of the EU3 Plus 3 and concert our diplomacy and 
concert our pressures.
    With respect to particular pressures or incentives, 
Senator, we will conduct and complete a review early on that 
will inform that choice. It would be premature for me to 
speculate on the specifics of that here today.
    Senator Feingold.  Well, another area where that may be 
occurring in the near future is an area we have discussed, 
which is Somalia and the Horn of Africa. I have been, as you 
know, very critical of the current administration's fragmented 
and counterproductive approach to Somalia and the Horn, and the 
situation in Somalia is actually far worse than 2 years ago. 
Somalis are considered a moderate people, but violent 
extremists have gained traction in much of the country, posing 
a potential threat to our own national security.
    Now with the Ethiopian forces withdrawing, the current 
administration is strongly pushing for the authorization of a 
United Nations peacekeeping force for Somalia. And I support 
the current AU force, but I do have some worries that 
authorizing a U.N. force poses real risks without committed 
troops and a viable and inclusive political process and a 
comprehensive strategy. If you could give me just your views at 
this point on the merits of such a peacekeeping force and what 
you see as the way forward for U.N. action regarding Somalia.
    Dr. Rice. Thank you, Senator.
    Well, as you well know, having spent so much time working 
on Africa and having traveled to Djibouti recently and met with 
many of the Somali players, this is an enormously difficult and 
important challenge that the international community faces.
    We have multiple and important interests in Somalia. First, 
obviously, we have a deep concern for the humanitarian 
suffering of the Somali people who are displaced, who are 
lacking in food, and who are living in the context of complete 
state collapse and failure. And ensuring that there is the 
continued flow of humanitarian assistance to those in need is 
no small challenge.
    Secondly, we obviously have an interest in helping to see 
that there is the sort of political reconciliation and outcome 
that is necessary for the state, which has all but collapsed, 
to come together, and that competing factions can unite behind 
a common central government. That is at risk as well, and our 
efforts in that regard need to be sustained and high-level.
    And thirdly, we face a very serious counterterrorism 
challenge in Somalia, as you well know, with extremists 
affiliated with al-Qaeda training and operating in substantial 
portions of southern Somalia. This has the potential to pose a 
serious and direct threat to our own national security.
    So what we need to fashion, as you suggest, is a 
multifaceted approach that combines efforts at emergency relief 
with efforts at political reconciliation and to deal 
effectively with the terrorism challenge. There is no one-size-
fits-all approach, and it needs to be worked in coordination 
with states in the region and others in the international 
community.
    I will tell you, Senator, that I am skeptical too about the 
wisdom of a United Nations peacekeeping force in Somalia at 
this time. I certainly do support elements of the current 
resolution that is pending in the Council to strengthen the 
African Union and provide it with the support and resources 
that it needs to be larger and more effective.
    But the new administration will have to take a very careful 
and close look at this question of whether, in 6 months' time, 
to in fact support the standing up of a U.N. force against the 
backdrop our interest, its complexity, the very tragic history 
of the United Nations in Somalia. And I can assure you that we 
will give that very, very careful consideration.
    Senator Feingold.  Thank you, Dr. Rice. You have a long 
record of working on genocide and conflict prevention. In 2001, 
while discussing the Clinton administration's position on the 
1994 Rwanda genocide, you said that if you ever face such a 
crisis again, you would come down on the side of dramatic 
action, going down in flames if that was required, you said. I 
find that to be an important and remarkable statement. So I 
would like to ask specifically what lessons you have learned 
from Rwanda that you would consider applicable to your work, if 
confirmed, as the Obama administration's Ambassador to the 
United Nations.
    Dr. Rice. Well, Senator, in December 1994, 6 months after 
the genocide in Rwanda ended, I traveled there with other 
officials of the U.S. Government, the National Security Adviser 
at the time, and colleagues from various agencies. And I saw 
firsthand the horrors of the genocide. It was a time when the 
hundreds of thousands of bodies of innocents were still 
littered everywhere, in churchyards and schoolyards. It is an 
experience I will never forget. Among other things, it has made 
me passionate about the issue of preventing genocide and crimes 
against humanity.
    The specific lessons I have learned are several. First and 
foremost, we need to ensure that we have adequate information 
and early warning so that we are better able to distinguish 
between a recurrent spasm of violence and something of a far 
greater magnitude that is or can become massive crimes or 
genocide.
    Second, we need to be more adept with the United Nations 
and others in the international community at preventing 
conflict in the first place and preventing conflict that exists 
from evolving into something much worse. Too often our 
prevention has been belated, haphazard, unsustained, and has 
not recognized that we not only have a diplomatic challenge at 
hand in prevention but a long-term economic challenge because 
there is a strong relationship between persistent and deep 
poverty and the outbreak of civil conflict.
    I have also learned that when best efforts fail and it is 
necessary to act, that we have more than one means of doing so. 
It is not only a question of the U.S. acting alone or not at 
all. There are multilateral opportunities, and the U.S. cannot 
act in the face of crimes and atrocities in every instance. But 
we can never rule out such action, and we need to be prepared 
to build the sort of international support and consensus that 
is necessary to challenge the international community so that 
we see no more Rwandas and no more Darfurs and, God forbid, 
what may come in the future.
    Senator Feingold.  Thank you, Doctor.
    Thank you, Mr. Chairman.
    The Chairman.  Thanks very much, Senator Feingold.
    Senator DeMint?
    Senator DeMint.  Thank you, Mr. Chairman, and I have some 
questions I would like to submit for the record.
    The Chairman.  Absolutely. They will be submitted.
    Senator DeMint.  Dr. Rice, I enjoyed our meeting.
    The Chairman.  Let me just say with respect to the 
questions for the record, because of the timing here, we have 
to have them in by 12:00 noon tomorrow because Monday is a 
holiday and Tuesday we want to be prepared to go forward.
    Senator DeMint.  Thank you. Sorry about that.
    Thank you for the courtesy of your meeting. I enjoyed our 
conversation.
    Your opening statement, as well as that of the chairman and 
ranking member, really drew a clear picture of what the United 
Nations needs to be, what it could be, as well as concerns 
about what it really is.
    One of the things that you said when we met that encouraged 
me the most is while certainly we want to cooperate with the 
world, help people around the world, that your job is to do 
what is best for America and serve the interests of the 
American people. And I appreciate that perspective.
    I appreciate the concerns about us being behind in our 
payments, but I do believe those payments need to be tied to 
reforms that everyone has agreed to. We cannot be obligated to 
comply with the U.N. when they are not complying with their own 
rules, resolutions, and their commitments to reform.
    As I expressed to you, the perception of the United Nations 
maybe that I have and many of my constituents is more that they 
are ineffective, they have been wasteful, there is corruption. 
And there is deep concern that there is a lot of anti-American 
sentiment within the United Nations, which I think undermines 
the trust and confidence that many Americans have with the 
United Nations and our role there.
    And I appreciated what Senator Lugar said that not only do 
we hope that you can help to shape the United Nations in a way 
that will work for the world, but also be an advocate to 
Congress and the American people about those things that are 
working and that we are changing and the improvements that are 
being made because if the American people do not trust the 
United Nations, then it is going to be increasingly difficult 
for Congress to make the commitments it needs to be supportive 
there.
    As you know, many nations that belong to the United Nations 
do not share our values. They are not democratic, and human 
rights are not respected in their own countries. There is not 
religious freedom, freedom of speech, of the press. Yet, many 
times these countries are pooling their votes to direct the 
actions and the resources of the United States. This is a 
concern to me, and that is why your statement that in the end 
we need to do what is best for our country is very important.
    There are many, many needs around the world, as you have 
talked about, very difficult challenges. But the United States 
is no longer the rich nation that we think of ourselves as 
being. In fact, we are a debtor nation, and if you count what 
every American family owes as part of our national debt, we owe 
more than we own. And our role in paying a disproportionate 
share of the United Nations activities is something that we 
need to consider. We are limited. We cannot continue to borrow 
money to do activities all around the world.
    There's a tendency of governments to continue to centralize 
authority. We see that here in Washington for our domestic 
issues, increasing spending, increasing taxes, and there seems 
to be--at least, in some corners in the United Nation--a move 
towards more centralization and a type of global governance 
on--and even legislating. These things are of tremendous 
concern to the Americans that call our office, and write, and 
email us that we would in somehow, in some ways, undermine our 
own national sovereignty and allow the United Nations to, in 
effect, direct our own governance in some area, whether it be 
how we deal with climate change or other issues, that's concern 
that I know a lot of people listening to today would like to 
hear you speak of.
    And I know we talked about that a little bit, so if I could 
just ask you maybe to just speak in generalities about how you 
see that role of the United Nations, and how that fits into the 
sovereignty of the United States.
    Dr. Rice. Well, Senator, I appreciate that question, 
because it does reflect the anxieties and concerns of some 
Americans. And it's important, as you acknowledged and as 
Senator Lugar acknowledged, to communicate the strengths and 
the weaknesses, but the rationale for United States' engagement 
and commitment to the United Nations.
    As I said to you when we met the other day, I will always, 
on behalf of President-elect Obama and in cooperation with 
Secretary-designate Clinton, stand up for and serve United 
States' national interest at the United Nations. As we 
discussed the other day, no U.S. administration will ever and 
could ever cede sovereignty to an international body or indeed 
to any other institution. We must do what we must, acting in 
our interests. But our interests are to a great extent served 
by the United Nations when it is operating effectively. And as 
we discussed the other day, and as I alluded to in my 
testimony, we often face a very unpleasant choice between three 
kinds of options.
    Doing nothing in the face of violence, or atrocities, or 
conflict, letting things fester, which frankly has been our 
approach since the mid-90s in Somalia, to a large extent. And 
we have seen with piracy, and terrorism, and all the 
manifestations of state collapse that what happens even in a 
very distant part of the world is not of no relevance to our 
own national security.
    We have another option, which is to act unilaterally, as we 
have done in some instances at great cost in lives and treasure 
to the American people. And sometimes, that may be necessary.
    But there is a third choice, which is also imperfect, and 
that is joining together with allies and partners in other 
nations in sharing the burden of collective action and dealing 
with these collective challenges. That is what the United 
Nations offers us: An imperfect, but indispensible vehicle to 
share those burdens.
    Yes, we do pay a great deal to the United Nations. We are 
the largest contributor, at 22 percent of the regular budget 
and 27 percent of the peacekeeping budget; but know, and the 
American people need to know, that it costs the United Nations 
12 cents for every dollar that we would spend if we acted 
unilaterally in a peacekeeping context. And while 12 cents can 
add up if you spend enough dollars, in fact that is a pretty 
good deal.
    And given that the costs of inaction or unilateral action 
are so high, it is in our national security interest, Senator, 
I would submit, for us to strengthen and work to make more 
effective this tool to share burdens and share costs of 
collective global challenges.
    Senator DeMint.  Excellent. Well, I'll do something very 
unusual and yield back my time before it's over. Thank you, Mr. 
Chairman.
    The Chairman.  Thank you very much. That is unusual and 
welcome. Senator Menendez?
    Senator Menendez.  Thank you, Mr. Chairman. Dr. Rice, 
congratulations on your nomination, and I look forward to 
supporting you and this nomination.
    I want to applaud your stand that you have taken concerning 
genocide in the Darfur region of the Sudan, and I want you to 
know that, as one Senator, we're looking forward to working 
with you to try to change the course of events there. It's one 
of the top priorities I have. It's what--outside of Iraq and 
Afghanistan--what I hear most from my constituency about. I 
feel very passionately about this, and I think we should. And 
if we are to have any meaning to never again being something of 
import, then we must do more than just simply stand by the 
sidelines and look as things unfold in a way in which we have 
the ability to make a difference.
    In this case, that ability is not by direct intervention of 
the United States, but by assisting the hybrid African Union-
U.N. forces that will do the critical work to make sure that 
more people aren't slaughtered at the end of the day. So I know 
that in the paper you wrote for the Brookings Institution, you 
said that the U.S. responses, quote ``coupled your generous 
humanitarian assistance with unfulfilled threats and feckless 
diplomacy.''
    And I am wondering, with that in mind, how do we go beyond 
the words? How do we get the U.N. to move forward in a more 
significant way? What are the major obstacles to transforming 
the U.N. resolutions into effective protection for innocent 
civilians in Darfur? You know, this area well, and you have a 
passion for it, but now you will more than passion; you will 
have power. And the question is: How are you going to use that 
power to make a difference?
    Dr. Rice. Thank you very much, Senator Menendez. You have 
been outspoken in championing, as so many on this committee 
have, far more effective and robust action on Darfur, and I 
applaud your leadership on this.
    Senator, as you pointed out, we are at a point in time 
where the approximate challenge is in fact somewhat different 
than when I wrote that piece and I last testified before this 
committee on Darfur. We do now have authorized the United 
Nations/African Union hybrid peacekeeping force known as 
UNAMID.
    It's supposed to get up to a strength of 26,000 troops. 
More than a year after it was authorized, it's barely at half-
strength and is still lacking the equipment, and the 
helicopters, and the mobility it needs to be maximally 
effective. That is the most proximate way that we can increase 
protection for vulnerable civilians. And so, in my mind, 
Senator, the most urgent task is to get that force swiftly up 
to full strength, and to ensure with other member states of the 
United Nations that the peacekeeping force has the equipment, 
the mobility, and the night capability that it needs to be able 
to effectively protect civilians.
    Now, within the last couple of weeks, the administration, 
after much internal deliberation and back and forth with the 
United Nations, moved to try to lift in equipment and support 
for an incoming African battalion. That's important, but it's 
not sufficient. There is more we can and should do to press the 
United Nations to move as swiftly as it can, to support their 
efforts as best we can, and to clear out what has been, 
frankly, bureaucratic blockage in both New York and Washington 
on this issue. We can do more to actively recruit, train, 
prepare, and equip troops that have expressed a willingness to 
go into Darfur and serve in UNAMID.
    And we need to be absolutely clear with the Government of 
Sudan that the United Nations and the international community 
will not stand for its continued obstructing, delaying, and 
prevaricating about the deployment of the U.N. The Government 
needs to make its facilities available, allow equipment to 
move, and basically get out of the way of effective deployment.
    If it requires further sanctions or pressure of other means 
to make that happen, then that is what we must contemplate. And 
most importantly, we need to put adequate collective pressure 
on the Government of Sudan to stop killing civilians. It is 
continuing aerial bombardments, and support for Janjuweed raids 
of internally-displaced camps. This genocide continues.
    And so, it is time to look at the kinds of robust action 
that you and others, such as the President-elect, have long 
suggested; for example, economic pressure, and contemplation of 
other mechanisms, such as preventing continued aerial 
bombardments and flights that are designed to attack civilians. 
We will look at the full range of steps that we can take to 
strengthen UNAMID, to ensure that the Government of Sudan is 
not in a position to block its effective operation, and to 
press for a negotiated resolution of the underlying conflicts, 
which are at the base of this fighting and these atrocities.
    There will be, I am quite certain, and early close look 
inside the new administration at this whole set of issues. And 
we will give due consideration to the full range of steps that 
we can take, because President-elect Obama, Vice President-
elect Biden, Security-Designate Clinton, and many others, 
including myself, feel passionately that we can and we must do 
more to end the genocide in Darfur.
    Senator Menendez.  Thank you for your answer. I really look 
for a proactive effort, and I have the expectation that we will 
see that with the President-elect, upon taking office. Let me 
ask you about Iran. It poses a major challenge for the United 
States and its allies. It is a leading state sponsor of 
terrorism. It openly threatens the existence of U.N. member 
states. And it is working to achieve a nuclear weapons 
capability.
    And even though the Security Council has passed a series of 
resolutions imposing sanctions on Iran for its refusal to 
suspend its enrichment activity, these resolutions have not 
dissuaded the Iranians, and efforts to move it along have been 
delayed or watered down by Russia and China. Given the current 
circumstances, what course of action should the U.S. take of 
the Security Council regarding the Iranian nuclear threat, and 
what approach would you take to Russia and China to gain better 
cooperation from them in this process?
    Dr. Rice. Senator, this is an urgent and pressing 
challenge. As the President-elect has said on numerous 
occasions, it is unacceptable that Iran acquire a nuclear 
weapon. And international efforts to date have not prevented 
progress in that regard. And thus, we face a very serious 
threat to our own national security, to the security of Israel, 
and indeed to the security of the broader region.
    The President-elect has been clear that we need to forge a 
different approach, one that combines tough, direct, and 
effective diplomacy with incentives and increased pressure on 
the regime in Iran, to give up its nuclear weapons activities, 
its nuclear weapons program, and indeed to halt its efforts to 
destabilize neighboring states and support terrorism. What we 
do in the United Nations Security Council will be designed to 
complement that strategy. It's a strategy that we will finalize 
and begin to implement in the early stages of the 
administration. It would be premature for me to speculate on 
what the elements of additional sanctions and pressures might 
be, or the elements of an incentives package.
    But the principles are clear: we must work urgently to 
prevent Iran from acquiring a nuclear weapon, and indeed we 
must inject into those efforts tough, direct, and sustained 
diplomacy backed by pressure as needed.
    Now, with respect to Russia and China, this is a crucial 
part of the challenge, and the irony is that both Russia and 
China have stated that they do not want to see Iran become a 
nuclear weapons state, and have taken some initial steps 
somewhat grudgingly. But the fact is, we need to work to 
highlight our areas of common interest with respect to Russia 
and China on the Iranian challenge, as well as other 
challenges, rather than allow ourselves to be bogged down in 
those differences.
    It's not going to be easy. They have their interests and we 
have ours, but the President-elect's view and my view is that 
we need to work to test the proposition of whether we can't 
bring them, and their interests, along with us in designing a 
more effective approach to the Iranians that brings both 
pressures and diplomacy together in service of our shared 
objectives.
    Senator Menendez.  My time is expired. I just want to note 
two others things. We've talked about it, so I won't belabor it 
here, but certainly the question of human rights, and how that 
council works, and what role we're taking, and I'd like to 
continue to work with you on that after you're confirmed. And 
also, the U.N. process on the Reunification of Cyprus is 
something that is very important to me, as well, so I look 
forward to working with you. And thank you, Mr. Chairman, for--
    Dr. Rice. Thank you.
    The Chairman.  Thanks a lot, Senator Menendez. I appreciate 
it. Thank you. Senator Isakson?
    Senator Isakson.  Thank you, Mr. Chairman. Dr. Rice, 
welcome. You know, I was just sitting here thinking, you'll be 
the second woman with the last name of Rice to represent the 
United States on the world stage.
    Condoleezza Rice, with whom I have been tremendously 
impressed of her capacity and ability and knowledge, but having 
sat with you for about an hour the other day and talked, I'm 
equally impressed with the depth and breadth of your knowledge, 
and I know you will represent the United States well, and I 
know your parents are over there beaming. I met them earlier 
today, and your father hasn't stopped grinning since he got in 
the room, so he's very proud of you.
    But one--two things. One thing Georgians are very concerned 
about, when you bring up the subject of the U.N., the first 
thing that comes up is what appears to be the disproportionate 
investment of U.S. money in the U.N. versus many of the 
countries that are participating members, and you and I had 
talked about that. You brought up one aspect of the benefit 
that comes back from that investment in the form of the 
peacekeeping missions that the U.N. has around the world, 
making the point I think that if it weren't for that investment 
and the U.N. doing it, we'd probably have most of the burden on 
our back as the Leader of the Free World. Would you expand on 
that for a second?
    Dr. Rice. Yes. Thank you, Senator, and thank you for our 
meeting. I enjoyed it, and want to say, for the record, that I 
had the great privilege to leave with a nice big bag of Georgia 
peanuts which were widely shared back at Transition 
Headquarters.
    Senator Isakson.  Good.
    Dr. Rice. We face a world in which there are so many 
complex and dangerous challenges and threats--terrorism, the 
spread of weapons of mass destruction, conflict, climate 
change, disease--all of which have the potential to do great 
damage to our nation and our people. We have to make choices, 
even with our comparatively wealthy resources, as to what we 
can do.
    We can't do everything by ourselves. And even if we had the 
resources to do it, we don't have the ability to do it, because 
by definition, these are challenges that often transcend 
national borders and that require maximum effective cooperation 
by as many states as possible.
    The cost to the U.S. of inaction by us or others can often 
be enormous. Where there is the potential for a deadly pathogen 
to create a pandemic, and there's no capacity to stop it, 
that's our problem. This we can't solve alone. Where there are 
terrorist havens in various countries around the world, we need 
the cooperation of others to root them out and secure their 
borders.
    And when there is deadly conflict of the sort that not only 
steals innocent lives, but can spill over and destabilize whole 
regions, if there is no action, that ultimately becomes our 
problem, as well.
    So we pay a cost from inaction. And we pay a cost if we 
have to act alone. And so, the challenge is to seek 
alternatives to doing nothing or doing it by ourselves. And 
that is the essential benefit of institutions like the United 
Nations, which are global in scope, and through which the 
burdens and costs are shared.
    As I said to Senator DeMint, yes, indeed we do contribute 
the largest share, 22 percent of the U.N. regular budget, and 
27 percent of the peacekeeping budget. Yet, most days, that's a 
deal, because compared to what it would cost us if we acted 
alone, the U.N. can do the same job in peacekeeping for about 
12 cents on the dollar. And given that binary choice between 
inaction and doing it ourselves, that often is an imperfect but 
preferred outcome to the alternatives.
    And so, our challenge now, and my commitment if I am 
confirmed as U.S. Ambassador to the United Nations, is to work 
with other member states to increase the efficiency, the 
management, and the accountability of the United Nations, but 
also to increase its effectiveness in performing the tasks that 
we ask of it. It's not enough for every dollar to be spent 
cleanly and without corruption; it has to be spent well, so 
that it serves the purpose for which it's intended.
    I'm particularly interested, as I mentioned in my opening 
statement, in playing a leadership role in partnership with 
other member states, to help the U.N. as it takes on this 
extraordinary set of challenges with more than 90,000 
peacekeepers in the field, to build its own capacity to do 
those missions more effectively, and more swiftly, and to 
improve our own capacity and that of other countries to support 
the United Nations when it undertakes these efforts.
    Senator Isakson.  I think you make a good case and a good 
point. I do hope you will do--I think I heard at the end of 
Senator DeMint's question, you affirmed a willingness to 
leverage what we contribute to the U.N. to be a leader of 
reform in the U.N., because there are some areas of U.N. reform 
that are important in its operation and in its structure.
    Second, I really respect the amount of knowledge you have 
on Africa and the engagement that you have had there, and I 
share the concern I've heard expressed by other members with 
regard to Darfur and what has happened there, and I am ready, 
as the ranking member of the Africa Subcommittee, to work with 
you in any way possible. What's going on in Darfur is 
unacceptable, and we need to get from UN--is it UNMUS?
    Dr. Rice. UNAMID.
    Senator Isakson.  UNAMID. We need to get that fully 
operational and working, or we're going to have a disaster of 
immense proportion on our hands. Former U.N. Ambassador Andy 
Young is a close, personal friend of mine, and a neighbor in 
Atlanta, so we talk all the time. He has opened an operation 
called Good Works International, which is an outreach onto that 
continent. I think that continent will be in the 21st century, 
in terms of U.S. engagement, what the continent of Asia was in 
the 20th century, and I think it's very important that we focus 
on that, and focus clearly on it.
    Lastly, we are sort of the only, or at the least the last 
spokesman, for the State of Israel at the U.N. oftentimes when 
resolutions come forward to the Security Council in some of the 
conflicts that we are in, and I really appreciate what past 
administrations have done to use either the right to abstain or 
the right to veto resolutions when they are disproportionately 
weighted to the disinterest of the State of Israel and the 
Israeli people.
    As much as I worry about is happening in Gaza now, and 
what's happening with missiles coming both out of Lebanon and 
from Hezbollah, and out of Gaza from Hamas. Hopefully, this may 
be the opportunity that the U.N. can be strong in forging a 
meaningful cease fire, with consequential commitments in 
advance on behalf of Hamas, and Hezbollah, and Iran. So we stop 
the flow of weaponry and all the things that go through the 
Philadelphia corridor out of Egypt, into Gaza, and into Lebanon 
that are fueling the tragedies that are taking place on the 
Israeli people.
    So I hope you will--you will, as past administrations have, 
remain committed to ensuring that the Palestinian state we are 
willing to recognize, we will recognize right after the State 
of Israel is recognized and we have a lasting commitment, and 
an enforceable commitment, to see to it the violence ends 
against those people.
    Dr. Rice. Thank you.
    Senator Isakson.  I know that was more of a speech than a 
question, but we have got--
    Dr. Rice. An eloquent speech.
    Senator Isakson.  No. I know better than that.
    Dr. Rice. No, Senator, thank you. First of all, I want to 
commend you for your leadership on Africa. I very much enjoyed 
our conversation the other day about Africa. We share a deep 
belief in its potential, and its importance to the United 
States. I do very much look forward to working with you on 
those issues.
    With respect to the United States and support for Israel, 
as the President-elect has said on many occasions, Israel is a 
stalwart ally and friend of the United States, and we will, as 
we have in the past, act in our interests in recognition of and 
support of that relationship. And at the same time, I certainly 
share your deep concern about the ongoing situation. In Gaza, 
it's something the President-elect and Secretary-designate 
Clinton have each spoken about.
    There needs to be a durable cease fire, but a durable cease 
fire has to entail the halting of Hamas rocket attacks against 
Israel and the Israeli people. It has to entail effective 
efforts to halt the smuggling of weapons and supplies, and very 
effective border control mechanisms. And when that durable 
cease fire is achieved, which we all hope will be very soon, we 
in the international community need to mount a very swift and 
robust effort to attend to the dire humanitarian needs inside 
Gaza. The President-elect has spoken to that, as well, and to 
look longer-term at ways to support reconstruction, and longer-
term development in support of the legitimate Palestinian 
authorities.
    The President-elect has also said that he is deeply 
committed and will act from the earliest days of his 
administration to support the diplomacy that's necessary to 
help to try to bring about a two-state solution with the Jewish 
State of Israel living side-by-side in peace and security with 
a viable Palestinian state. That very much remains our 
objective.
    Senator Isakson.  Well, I appreciate very much your 
commitment on that, and I wish you the very best, and pledge my 
support and help if I can ever be of help to you.
    Dr. Rice. Thank you very much.
    The Chairman.  Thank you, Senator Isakson. We appreciate 
that. Senator Boxer?
    Senator Boxer.  Thank you. Let me apologize for my absence. 
I wanted to hear Senator Biden, our former chairman, give his 
farewell address to the Senate, our former chairman, and it was 
quite beautiful, but I missed being here. So I hope I'm not 
treading on ground that's been covered, but I will be brief, 
Mr. Chairman.
    I am strongly supporting your nomination. You're ready for 
this. There's a lot of debate about the U.N. It falls short in 
so many ways. But clearly, we need to make it stronger, make it 
better, make it more relevant, make it a place that's fair. It 
is better for us to debate our differences with other nations 
than to tackle problems alone. Look at what happened: We really 
abandoned the United Nations route when we went into Iraq.
    We were on that course with the inspectors, and I've long 
believed that was the turning point. We decided to go it alone, 
a disastrous decision, and one I probably voted against because 
I felt the opportunity was there to work with the world. That's 
the past, and now here we sit.
    There are so many issues. We went over them with Senator 
Clinton, our future Secretary of State, we all hope, so I'm not 
going to repeat them all, because the list is long and 
depressing. I do want to pick up on the question of Israel and 
Gaza. I think we're all heartbroken, and frightened, and 
disturbed about what has happened, and what the situation is on 
the ground. Personally, I don't think any nation--I don't care 
how large or small, weak, strong, or rich you are--could live 
with rockets coming across. That's just not possible.
    So until the decision is made to stop the rockets, this is 
going to go on, and that is very unfortunate. So naturally, my 
plea for today, which probably won't fall on anyone's ears, is 
that we can have not just a 24-hour cease fire, or a two-day, 
or a 4-day cease fire--although every hour of quiet is good--
we'd want a seriously long cease fire that leads us somewhere, 
not leads us around the corner to more rocket attacks and more 
responses.
    I am sure you share that view. I guess what I want to ask 
you is: How do you convince people at the U.N. to open their 
eyes to these rocket attacks from Hamas? The Human Rights 
Commission writes a resolution but doesn't even mention the 
fact that all of this trouble, I believe, started with the 
rockets or certainly continues because of the rockets. How do 
you reach out to people? I--you have so much going for you. 
What tools will you use to say to the U.N., ``You're not fair 
if you're not looking at the whole picture?''
    Dr. Rice. Thank you, Senator Boxer, and thank you for the 
passion with which you speak on this issue. I was privileged to 
travel Sderot last summer with President-elect Obama, with 
Foreign Minister Livni and Defense Minister Barack. We flew 
from Jerusalem out over, as you know, the very narrow territory 
that is between Jerusalem and the coast, and down in close 
proximity to Gaza. I stood in the house of a family that had 
lost everything due to a Hamas rocket attack. And I saw the 
empty Qassam shells in the police station there in Sderot, 
scores and scores and scores of shells that had fallen on the 
heads of innocents. And it was there that the President-elect 
said very plainly that any American--any human being--would not 
be able to sleep with rockets raining down on their children's 
heads.
    So we all understand that threat and that risk to civilians 
every day, and we're all clear that the end to rocket attacks 
by Hamas into Israel is an absolute necessity for any durable 
cease fire. As I said earlier, we also are gravely concerned 
about the suffering now of innocents in Gaza.
    Senator Boxer.  Of course.
    Dr. Rice. And so, that only redoubles our desire to end the 
suffering in both Israel and of the Palestinians to see this 
durable cease fire and to ensure that any cease fire has the 
elements that will make it sustainable: preventing the rocket 
fire, preventing additional smuggling, ensuring real border 
patrols.
    Senator Boxer.  Let me just say, my question to you was--
    The Chairman.  Senator, could I just interrupt you for once 
second.
    Senator Boxer.  Yes.
    The Chairman.  Dr. Rice, will you excuse me, because I need 
to go to the floor to speak about Senator Biden for a minute.
    Dr. Rice. Yes.
    The Chairman.  I'm going to try and get back, depending on 
the timeframe. Senator Lugar is going to just show you the 
bipartisanship of this committee. He's going to preside in my 
absence, and I think we only have two other questions at this 
point, so we're really moving very expeditiously and 
positively. So if you will forgive me, and I am sorry because I 
wanted to say ``hello'' to your parents personally, and I hope 
to get back here to be able to do that, but thank you so much.
    Dr. Rice. Thank you, Mr. Chairman. Senator Boxer, you were 
going to remind me that--
    Senator Boxer.  Yes, I--
    Dr. Rice:--you wanted to ask how--
    Senator Boxer.  Well, I'm not going to ask it again. I 
just-- I guess I'm going to make it in the form of some advice, 
unsolicited though it may be. I'm very interested in the U.N., 
and I was a representative from this committee and the Senate 
to the U.N. I traveled to New York several times, and I think 
one of the things that Joe Biden was saying on the floor, which 
was so interesting, Senators, is that the personal 
relationships that he was able to garner in the United States 
Senate changed the course of many issues.
    And I'm looking to you as someone who is very dynamic. So 
rather than ask you the question, I hope you will use that 
dynamic personality, your intelligence, and your experience, to 
get people to understand that in order to have a long-range 
solution, not only in this part of the world but in any part of 
the world where we need to work together and bring people 
together, and not approach problems in a way that isn't fair, 
because if you approach them that way, it will never work. So I 
want you to do that.
    Now, I have a couple of quick questions. Two days ago, I 
had an amazing exchange with Senator Clinton, our future 
Secretary of State, we all hope, about the plight of women in 
the world and their struggle against violence. And, you know, I 
held up some photos that I will not show again today, and I was 
very pleased with her commitment. And I think that, again, this 
is where personal relationships come in. I'll never forget when 
I went in to see the Ambassador to the U.N. from Sudan, that 
was not pleasant. But the fact that I was able to look in his 
eyes and say, ``You're just not saying the truth,'' it is very 
powerful.
    There are countries all over the world that are closing 
their eyes to what is happening to women--I don't care if it's 
Cambodia or Afghanistan, You name it, it's all over the world. 
I hope that not just because of your gender, but because of 
your passion for equality, that you will take this task on. 
Now, this committee, this Senate, we haven't passed or ratified 
the Convention on the Elimination of All Forms of 
Discriminiation Against Women (CEDAW). Let me say it again, 
because I just butchered it.
    CEDAW, the Convention on the Elimination of All Forms of 
Discrimination Against Women. I am so embarrassed, Senator 
Lugar, that we have not done that. Now, when we raise the issue 
of CEDAW, some of the people who were very ideological said, 
``Well, does that mean that women will have a right to an 
abortion?'' No, of course not. It had nothing to do with it. 
But it was used as an excuse to stop us from passing this.
    Now, it's embarrassing, I would think for anyone doing 
diplomacy, seeing some of the things that are done to women. 
How can you go up to these countries and say, ``This is 
criminal activity; go after these people,'' when we haven't 
ratified CEDAW? And the irony is some of them have ratified 
CEDAW, and they are completely ignoring CEDAW. So I hope that 
this committee will move, and I hope that this administration 
supports the ratification of CEDAW, so I would like to ask you 
that question.
    Dr. Rice. Yes, indeed, Senator. Thank you for your 
leadership on this issue and on behalf of women and children 
here and the world over. I share your passion and commitment to 
the broad set of issues, but in particular I share your passion 
for the ratification of CEDAW, and it will be an important 
priority for this administration.
    Senator Boxer.  Excellent.
    Dr. Rice. It's past time.
    Senator Boxer.  Excellent. And what--
    Dr. Rice. And may I just also say--
    Senator Boxer.  Yes?
    Dr. Rice. You spoke about the importance of personal 
relationships and engaging with those with whom we agree and 
disagree in service of our shared values and interests. I will 
be very energetic in doing so.
    Senator Boxer.  Good.
    Dr. Rice. And I take very much to heart your advice in that 
regard.
    Senator Boxer.  Yes. I mean, I see it here in the Senate 
all the time, and people are people. And they like to have 
attention paid. And they can be convinced.
    My last question is on the Convention on the Rights of the 
Child, again, a treaty the United States has failed to ratify--
the United Nations Convention on the Rights of the Child. And 
like the Convention on the Elimination of All Forms of 
Discrimination Against Women, how can we be proud of our 
country when we haven't ratified it? In this case, the only 
other country, as I understand it, that hasn't ratified is 
Somalia. Okay? Excuse me. This is America. We're standing with 
Somalia? What is happening? What has happened?
    And, you know, in my capacity as chairman of the Committee 
on Environment and Public Works (EPW), I said that the 
Environmental Protection Agency (EPA) reminds me of the case of 
Sleeping Beauty. They have such a great set of laws, they have 
such a great mandate to protect the health of people, and 
they've been sleeping for eight years. And we need to wake them 
up.
    And I just feel that, in this case, children deserve basic 
human rights, the right to survive, to develop to the fullest, 
to be protect from harmful influences and from abuse and 
exploitation, to participate in family, cultural, and social 
life. And the Convention protects children's rights by setting 
some standards here so that the most vulnerable people of 
society will be protected.
    Now, all you have to do is look around the world and see 
that young girls are having acid thrown in their faces. They're 
children. Why are they being attacked for going to school where 
adults say, ``Go to school?'' You know, why are children being 
recruited for wars and learning how to kill, and shoot, and be 
killed, and be disfigured? It's beyond belief that we would 
stand with Somalia.
    So here's this hardball question: Do you agree with 
organizations, such as the American Bar Association, the 
American Psychological Association, the American Academy of 
Pediatrics, the Girl Scouts of the United States of America, 
Save the Children, and Mercy Corps International that the 
United States should ratify the Convention on the Rights of the 
Child?
    Dr. Rice. Senator, I certainly agree with you that this is 
a very important treaty and a noble cause, having been ratified 
by 193 countries, and it is a shame-- there's no other word for 
it--when the only country with which we're keeping company is 
Somalia, which is not even capable of ratifying anything. So we 
will review this treaty and others to ensure that the United 
States resumes its global leadership role in human rights. I 
look forward to working to that end on this particularly 
important set of issues.
    This is a complicated treaty in many respects, more than 
some others given our system of federalism, and so we need to 
take a close look at how we manage the challenges of domestic 
implementation and what reservations and understandings might 
be appropriate in the context of ratification. But there can be 
no doubt that the President-elect and Secretary Clinton and I 
share a commitment to the objectives of this treaty and will 
take it up as an early question.
    Senator Boxer.  Mr. Chairman, just in 20 seconds of 
conclusion, thank you. Can I have your commitment that within, 
let's just say 60 days, you could let us know either through 
the chairman, the ranking member, what reservations might be 
appropriate because I don't object to that. Clearly, a document 
has to go along with everything we believe in this country. I'm 
not asking us to give up any rights in order to protect 
children, but if you could get back to us.
    You said CEDAW is something there wasn't any qualification 
on, so I'm going to take you at your word and talk to the 
chairman about moving that. But on the rights of the child, if 
you would get back to us within 60 days with whatever 
reservations you might have.
    Dr. Rice. Senator, I'd like to be able to give you that 
ironclad commitment, but I can't, because I don't have a sense 
of how long it will take us, in light of the many different 
things on our plate, to do that legal review, which will 
inevitably be an interagency review, and will come under the 
purview of the Secretary of State. And I really need to--
    Senator Boxer.  Is there a timeframe--
    Dr. Rice:--confer with her on that.
    Senator Boxer. --that--a timeframe you could put forward?
    Dr. Rice. I honestly must--
    Senator Boxer.  Okay.
    Dr. Rice:--defer to the Secretary of State designate on 
that.
    Senator Boxer.  I--we will take it up with the new 
Secretary of State, but thank you very much. I strongly support 
you.
    Dr. Rice. Thank you.
    The Chairman.  Uh-huh.
    Dr. Rice. I appreciate your support.
    The Chairman.  The Chair did not want to interfere with 
this important dialogue, but we are probably 12 minutes from a 
roll call vote, and we have three Senators, so I'm going to 
recognize Senator Barrasso, and I know each of you will be 
respectful of the time. You've been waiting for a long time, 
and we may be delayed with the vote, but I make that point that 
we still have the ten-minute rule, and Senator Barrasso, you're 
recognized.
    Senator Barrasso.  Thank you very much, Mr. Chairman. And 
thank you, and congratulations, Dr. Rice. You had wonderful 
introductions by Senator Bayh and Senator Collins. It must be 
just wonderful to have your parents here, and your family, Jake 
and Maris have been very patient. And Jake is still here; 
Maris--
    Dr. Rice. Maris, I think, decided to go back to school.
    Senator Barrasso.  Well, Jake has been very patient. I have 
heard people extend great compliments about your critical 
thinking, you're always learning, your strong intellect, and 
your collegiality. Senator Boxer talked about the importance of 
working with others earlier. It appears that with the personal 
relationships that you have, that you're going to do very well 
at this endeavor.
    There are a couple of issues that I'd like to address 
briefly, because there are also principles that come into play 
beyond the collegiality and working with others. The people of 
my home state in Wyoming, they have concerns about the United 
Nations, and putting our troops in harm's way. Do you support 
ever placing U.S. troops under U.N. control?
    Dr. Rice. Senator, as you probably know, this is something 
of a technical issue. In the past, U.S. presidents have decided 
in certain circumstances when it serves our interest not to 
cede command authority to the United Nations, but has placed 
U.S. forces under the operational control of international and 
sometimes U.N. commanders. Most of the time we've done that has 
been in small quantities--military observers, small units--and 
while this is not a subject that we have had the opportunity to 
consider in any depth or with any specific contingency in mind, 
I imagine that President-elect Obama will follow the same 
policy as his predecessors and reserve that right to place U.S. 
forces or U.S. personnel more likely under the temporary 
operational control of a United Nations commander if and when 
he determines that serves our interests.
    Senator Barrasso.  There was an United Nations arms trade 
treaty this past year, that passed 145 to 2. We were one of the 
two that voted against it. In the buildup to the vote and the 
discussions documented in a lengthy paper, the report indicated 
that if such a treaty comes about, there is a need to respect 
any State's constitutional protections for people in terms of 
their right to bear arms.
    When the treaty was brought forward and approved by 145 to 
2 with us opposing, they left all of those important parts of 
protecting our own rights to bear arms and our Second Amendment 
out of the treaty. So my question would be: Would you support 
our position for that vote, even though 145 nations voted one 
way and only two of us voted to protect our rights as American 
citizens to own and bear arms consistent with the Second 
Amendment?
    Dr. Rice. Senator, the right to bear arms, as you know very 
well, is embedded in our Constitution. And the actions and 
decisions of an international body will never and do never 
override our own Constitution and national law. So while it's 
unfortunate that we persist in this kind of debate and 
discussion at the U.N. where we are voting as we are in a small 
minority on an issue which is, I think, primarily intended to 
deal with the challenge of illicit weapons traffic that is a 
problem in many conflict zones around the country, we will not 
find ourselves in a situation where we are allowing 
international prerogatives to ever override our Constitution.
    Senator Barrasso.  And keeping along the same lines with 
our own sovereignty, in the past there's been talk of the 
United Nations wanting to implement global taxes to raise 
revenue to use for a number of different things. The authority 
to tax, again, is not a sovereign right of an international 
body. Taxation is a function of our sovereign Nation. Will the 
Obama administration oppose any attempt by the United Nations 
to tax U.S. citizens?
    Dr. Rice. I'm going to take that question and get back to 
you on it as we submit our other questions, but my 
understanding is I don't think the United Nations can tax 
American citizens without the consent of Congress, who has the 
constitutional authority to tax.


    [Dr. Rice's response to Senator Barrasso's question 
follows:]


    The United States has in the past opposed proposals for global 
taxation. Any such future proposal would require the consent of 
Congress, which has the Consititutional authority to tax American 
citizens.


    Senator Barrasso.  Mr. Chairman, in light of the upcoming 
vote, let me just relinquish back the rest of my time to the 
other members of the panel. Thank you.
    The Chairman.  All right, thank you.
    Senator Barrasso.  Thank you very much, and 
congratulations--
    Dr. Rice. Thank you.
    Senator Barrasso. --Dr. Rice.
    Mr. Chairman: I thank the Senator for his questions, and 
likewise for his thoughtfulness with regard to colleagues. 
Senator Nelson?
    Senator Nelson.  Dr. Rice, we've talked about Haiti. What 
do you think the U.N. can do to help Haiti on some of these 
natural disasters, and develop economically, and continue to 
struggle toward a democracy? And I say this with the backdrop 
that earlier this year there was a callout for $100 million to 
assist Haiti in the international community after it got hit by 
four hurricanes. And the international community has only 
responded with half that amount.
    Dr. Rice. Well, Senator, I share your deep concern about 
the grave humanitarian situation in Haiti, made worse only in 
recent months by natural disasters which have pounded the 
island repeatedly.
    The United States has a very significant interest in 
helping Haiti to become a more stable democracy that can 
provide more effectively for its people, and to ensure that 
Haiti is a place in the future where Haitians choose to stay 
and build their nation, rather than leave, often in dangerous 
circumstances.
    After many fits and starts, the United Nations has built up 
a substantial peacekeeping presence in Haiti, in the form of 
MINUSTAH, which I know you've seen firsthand, and it is doing 
an important task not only in helping to bolster peace and 
security, and assist in counter-narcotics efforts, but also to 
support improved governance in Haiti. But, frankly, it's a 
challenge that will persist.
    Our effort and attention in the United States, and that of 
others in the hemisphere who have played a leadership role in 
MINUSTAH, will need to be intensified and sustained, because as 
you well know, the challenges in Haiti are not new, and they're 
not going to be easily met. It's going to require a significant 
and sustained effort on the part of us and others.
    Senator Nelson.  And President Preval is really trying. I 
want to give plenty of time for my colleagues here, the Senator 
from Maryland. Let me just ask you, what do you think, in your 
position in the U.N., you can do to pressure Russia and China 
to stop the arm shipments to Sudan?
    Dr. Rice. Senator, thank you. We need more effective 
sanctions, and we need more effective enforcement. And where we 
have robust and effective sanctions regimes, we at least have 
the ability through sanctions monitoring committees to 
investigate and document evidence of violations. In the case of 
Sudan, that mechanism is not well-developed, and indeed, we're 
not in a position, as we should be, to place under the 
spotlight those in various countries who are fueling this 
conflict and supporting those committing genocide.
    I think that's an important element of what we must look at 
in the context as we review our policy towards Darfur and seek 
a range of more effective mechanisms, to act with real efficacy 
to address the genocide in Darfur.
    Senator Nelson.  Thank you, Mr. Chairman.
    The Chairman.  Thank you. And let me just say, Senator, 
because I think this is going to be your last appearance the 
Foreign Relations Committee, how much we have appreciated your 
work here. He's going over to the Finance Committee, and we're 
going to lose his services to this committee. But as a member 
of the Finance Committee, I understand the tension on eight 
committees, it's difficult. But we want to thank you for your 
service to this committee. You've been a terrific member of the 
committee. You've contributed a lot of thinking on a lot of 
different topics, and I know you've been very passionate about 
many of them.
    So I am confident that just as a Senator you're going to 
continue to be part of this committee and follow its work and 
be a contributor to it, and we thank you.
    Senator Lugar.  And I want to join you, Mr. Chairman, in 
thanking Senator Nelson. A real contributor.
    Mr. Chairman: Thank you. Senator Cardin, you've been very 
patient. Thank you, sir.
    Senator Cardin.  And I also wanted to say--
    The Chairman.  Can I just give you all a head's up that 
there is a vote that's going to start at 12:10?
    Senator Cardin.  Yeah.
    The Chairman.  But we ought to be able to fit everybody in.
    Senator Cardin.  I also wanted to thank Senator Nelson. 
Because he's leaving, I'm going to move up one more in 
seniority, so we just want to point that out.
    The Chairman.  I want you to know, though, Senator--
    Senator Cardin.  I'll get the question earlier next time, 
so the--
    The Chairman.  I just want to warn you, it was not so long 
ago that at these particular hearings in Hart, I sat on that 
corner, and it's really dangerous.
    Senator Cardin.  I could see. Dr. Rice, thank you for being 
willing to serve our country in this very important position, 
and I thank your family for the sacrifices that they make for 
your public service. I just want to follow up on some of the 
comments that have been made.
    I fully support and appreciate the importance of 
cooperating and working with the international community. The 
United Nations should be a very important part of our foreign 
policy, and I strongly support your mission. I wanted to just 
follow up on a point that Senator Boxer made, and Senator 
Menendez was going to get to but didn't have the time, and that 
is the effectiveness of the United Nations as it relates to the 
human rights agenda.
    In my office, you and I talked about the fact that I have 
spent a lot of time in the House now, in the Senate, and on the 
Helsinki Commission, which deals with a lot of issues. Human 
rights, however, is one of our principal objectives. There are 
a lot of common areas of concern between the United Nations and 
OSCE as it relates to trafficking of women and girls, and as it 
relates to the refugees issues. But I want to talk about the 
Human Rights Council. Senator Boxer mentioned the vote just 
three days ago in the Human Rights Council that was anything 
but helpful in dealing with the human rights issues in the 
Middle East. We've seen it over and over again, such as how the 
Durban Conference got sidetracked on attacking Israel rather 
than dealing with human rights.
    So I want to hear from you as to what the United States 
position is going to be within the United Nations. I want the 
Human Rights Council to succeed. I want the United Nations to 
be effective in dealing with human rights. But if it becomes a 
tool to beat up on one of our allies, or if it becomes an 
objective to undermine U.S. policy, I think we have to be 
prepared to take necessary steps in regards to the United 
States' participation in the United Nations.
    Dr. Rice. Thank you, Senator. I share your passion for 
human rights and your dismay and anger at the failure of some 
of the U.N.'s human rights instruments to live up to their 
expectations and requirements. And the example you just raised 
of the resolution passed in the Human Rights Council just a few 
days ago on Gaza is a classic example of the utterly imbalanced 
and reprehensible kinds of resolutions that have too often 
emerged from the Human Rights Council. There was no mention in 
that resolution of Hamas attacks on Israel; it was entirely 
one-sided.
    It was interesting to note the breakdown of the vote on 
that resolution. There was one country that voted against it: 
Canada. There were almost 20 or so countries, many of whom are 
our close allies in Europe and Asia, who abstained, which I 
find curious, at best. And while I want to be clear that there 
has been no decision taken by the incoming administration yet 
as to whether or when to seek membership of the Human Rights 
Council, President-elect Obama, and Secretary-designate 
Clinton, and I, and others share a deep commitment to seeing 
United Nations human rights instruments be effective and live 
up to the principles enshrined in the Universal Declaration of 
Human Rights and other seminal documents.
    This particular resolution and the breakdown of the vote, 
begs the question regarding what might have been different with 
U.S. participation and leadership? It seems to me hard to 
imagine that we would not have sought to work with, and indeed 
prevail upon, many of our allies to stand with Canada and with 
us in opposition to such a resolution. But that's an issue that 
we will take up in the early days of the administration, and we 
will give consideration as to how best the United States can 
play a leadership role so that the instruments for 
international human rights are strengthened and we see fewer of 
the frustrating outcomes that we witnessed over the last few 
days.
    Senator Cardin.  I thank you for that answer, and it's 
comforting to hear those comments. I want to mention one other 
area. Many of my colleagues have talked about Sudan and the 
problems in Sudan. I want to add just one additional part to 
that. I strongly support the statements that you've made in 
regards to ending that genocide, but there are also war crimes 
that have been committed. The United States has been one of the 
leaders in making sure that those who commit war crimes are 
held accountable. We have not yet finished the international 
tribunal for the former Yugoslavia. We still have an indicted 
war criminal who has yet to be apprehended.
    I would hope that you will be a strong voice within the 
United Nations for completing the work of the current tribunal, 
and looking at whether it is appropriate to hold those who have 
committed genocidal acts in Sudan responsible for their actions 
criminally.
    Dr. Rice. Thank you, Senator. I certainly fully share your 
desire to see the existing tribunals and international 
mechanisms that are dealing with atrocities complete their 
work, and do so credibly. Sudan obviously is a place where the 
atrocities and crimes against humanity are manifest every day, 
and President-elect Obama and Vice President-elect Biden have 
been very clear about the absolute importance of there being 
accountability and justice for those crimes.
    Senator Cardin.  Thank you. Mr. Chairman, I will yield back 
the balance of my time.
    The Chairman.  Thank you very much, Senator. Appreciate it. 
Senator Casey?
    Senator Casey.  Mr. Chairman, thank you. And I thank you 
for the way you've conducted this hearing. It's been a busy 
morning for us, and we appreciate the way this has transpired. 
I know I'm the only thing standing between most people and a 
break or lunch right now, so I want to be cognizant of that. 
But, Dr. Rice, I want to first of all to commend you and to 
salute you for what you've already done up to this point in 
your life. It's been already a life of service, a life of 
scholarship and achievement, and I think it's a good forecaster 
of the kind of administration that we're about to see. And 
we're grateful for that service.
    I was looking at your stellar, sterling--there are probably 
other adjectives--academic record, and I have great respect for 
that. And we have, I think, the opportunity now to change the 
course of American history on a lot of fronts, and I'm just 
grateful that President-elect Obama and Vice President-elect 
Biden have the kind of talent that people like you bring to 
that team. So we're grateful for your service.
    I wanted to explore a couple of areas, one which I know you 
addressed, beginning on page 5 of your prepared statement. And 
I wasn't here for your opening statement, so this may be an 
area you've covered, but I wanted to reiterate some points of 
it, which is the gravest threat that we face, and that's the 
threat of nuclear terrorism. I, and others, and many before me, 
including the ranking member, Senator Lugar, have worked on 
this issue for many, any years, and we've made progress, but 
there's much more to do.
    I'm noting that in 2004, with the passage of U.N. Security 
Council Resolution 1540, we've made progress, but the concern 
now with that is the follow-up. And I, and others, and I think 
you understand this better than I do, have seen little in the 
way of enforcement and steps to ensure that member states are 
in compliance with that resolution. The recent report by the 
Commission on Prevention of WMD Proliferation and Terrorism 
only highlights the urgency of this problem.
    So I wanted to have you just address that not only from the 
perspective of the administration, but also in your role at the 
United Nations, because I think you're going to be there, 
certainly with the support of this committee and the Senate. 
But just how you see that as a priority and what kind of 
progress you think we can make.
    Dr. Rice. Well, thank you, Senator. Thank you for your 
leadership on this issue and, of course, thank you to Senator 
Lugar, who also has led with great distinction on this for many 
years.
    President-elect Obama, as you know, has from his earliest 
days in the Senate taken a great interest in the challenges of 
nonproliferation and arms control. As I mentioned in my opening 
statement, this is a priority area that I will work on to 
support the larger objectives of the administration with 
respect to nonproliferation. Resolution 1540 is an important 
milestone in international law to set a bar for member states 
regarding their own responsibilities to act effectively within 
their territory to prevent the proliferation of weapons of mass 
destruction, whether nuclear, chemical, or biological.
    The practical challenge, though, as you know, is that many 
of these United Nations member states lack the capacity and the 
wherewithal to be able to implement the resolution effectively. 
These are fragile states that lack adequate law enforcement 
capacity, adequate resources, or are struggling with poor and 
corrupt governance. And even good governance and good 
intentions, some lack the resources and the capacity to take on 
this and other critical challenges of statehood. Therefore, we 
in the international community face a continuing problem.
    And so, part of the challenge, and indeed part of our 
responsibility, along with other U.N. member states, is to seek 
and to build mechanisms that can help to grow the capacity of 
these more vulnerable states to be able to take on these 
responsibilities not only in name, but in fact. I'm very 
interested in exploring, if confirmed, what we and other states 
can do to set up support and mechanisms that can be meaningful 
in building that capacity, not only to deal with the challenges 
of nonproliferation, but frankly, many of these things--border 
security, adequate law enforcement--that are essential to these 
more fragile states to being effective partners in a whole 
range of transnational security challenges, including 
countering terrorism, controlling disease, and many of the 
other things that matter to all of us in the 21st century.
    Senator Casey.  Thank you very much, and I will pose some 
more questions in written form, but I do want to get to at 
least one more issue, and maybe two. This is something we've 
talked about briefly when you came by my office to talk about 
your confirmation hearing.
    In December, the U.N. General Assembly voted on a 
nonbinding resolution to condemn discrimination and persecution 
based upon sexual orientation and gender identity. The 
resolution aimed to encourage U.N. member states to outlaw 
violence, hate crimes, and discrimination by ending the use of 
the death penalty or extra judicial executions in arbitrary 
arrests of individuals on those grounds.
    As you know, the resolution failed, and the United States 
voted ``no'' at that time. I just wanted to get your 
perspective on that resolution. And were it to come before the 
United Nations again, how would you approach it, as the 
permanent representative to the U.N.?
    Dr. Rice. Thank you, Senator. I think it's important to 
highlight the process behind this declaration in the general 
assembly. It's not actually a formal resolution, but one that 
sought to give voice to something that is very fundamental to 
President-elect Obama's worldview, and indeed to all of us in 
his incoming administration, and that is the absolute necessity 
to prevent discrimination in any and all forms against any 
person or people on the basis of race, gender, sexual 
orientation, or any other basis.
    The President-elect has spoken frequently and eloquently 
about his profoundly-held view that we are all human beings of 
equal worth and equal value, and the corollary to that is that, 
therefore, discrimination in any form is absolutely 
unacceptable. While I can't comment on what resolutions might 
come before the general assembly in the future, I am confident 
that we will bring this principle to bear in our contemplation 
and deliberation of any such declaration that comes before the 
general assembly.
    Senator Casey.  Thank you. And I know--I'm going to wrap 
up, even though I have some more time. We have a vote. And 
Senator Shaheen, former governor of state, is waiting to ask 
her questions, and I always defer to governors. But let me just 
say this in conclusion, Dr. Rice. There's a statement 
attributed to Martin Luther King on service, where he said 
``everyone can be great, because everyone can serve.'' And I 
think, in your own life, up to this point, and certainly I know 
it'll be true in the future, as well, if that is the measure of 
a kind of greatness, you've achieved a good bit of that 
already, and we're grateful for your service.
    Dr. Rice. That's very kind.
    Senator Casey.  Thank you.
    Dr. Rice. Thank you, Senator.
    The Chairman.  Thank you, Senator Casey. Senator Shaheen, 
we're anticipating the vote, but the floor is yours.
    Senator Shaheen.  Thank you, Mr. Chairman and Senator 
Casey. If only everyone held the sentiments and deferred to 
governors, we would be very lucky. I want to add my 
congratulations, Dr. Rice, to everyone's this morning on your 
nomination. And also, my sentiments that have been expressed by 
so many this morning about how important I think it is that 
President-elect Obama is planning to elevate the post of 
ambassador to the U.N. to a cabinet-level post within his 
administration. I think that's an indication of the high regard 
with which he holds you, and it shows how important he thinks 
it is to reengage with the international community in a new 
way, and also the potential role that the U.N. can play in 
doing that.
    In past years, the United States, along with a few others, 
has had to publicly oppose the activities of certain U.N. 
agencies because of their agendas, we're clearly distasteful, 
and in some cases unwise, or they were led by individuals who 
were opposed to legitimate and widely-respected values.
    I think an example of that is the UNESCO, which for a time 
seemed dedicated to justifying the ending of press freedoms and 
other important principles. In more recent years, the U.N. 
Commission on Human Rights has been chaired by nations that 
have had very questionable human rights records. So my question 
is, how should the United States respond when a nation is voted 
into a U.N. leadership position that has internal practices 
that are incompatible with the role of that U.N. position and 
the widely-respected international values that we would hope 
every nation would hold?
    Dr. Rice. Senator, first of all, congratulations on joining 
this committee. It's very nice to see you here.
    You ask an important question, and I think that we ought to 
start in dealing with the challenge that you pose, and it does 
arise from time to time, to need to work energetically in 
diplomatic channels to prevent the ascension of candidates 
whose orientations or values or perspectives would actually 
undermine the institution to which they are seeking service.
    We have done this with some success in the past. I recall 
that during the Clinton administration working with Secretary 
Albright, Ambassador Holbrook, and others from many African 
nations, to effectively prevent Sudan from attaining a seat on 
the United Nations Security Council, because they and we 
understood that Africa would not be well-represented by the 
most egregious abuser of human rights on the continent.
    There is an opportunity and a role for diplomacy to get 
ahead of such outcomes, but it's hard to do so if we're not 
engaged, and if we're not operating effectively, and firing on 
all cylinders from within. While there will be times when we 
must simply say, ``We cannot abide a particular outcome,'' my 
strong preference, and I believe that of the President-elect 
and the Secretary of State-designate, will be for the United 
States to work energetically using all of the elements in our 
power, in particular active and effective diplomacy, to support 
candidates who we believe will serve these institutions well, 
and where necessary to oppose the candidacies who would 
undermine these institutions.
    That's the day-to-day elbow grease of diplomacy, and I look 
forward to doing my utmost in service of those objectives if 
I'm confirmed.
    Senator Shaheen.  Thank you.
    The Chairman.  Thank you very much Senator Shaheen. Dr. 
Rice, that was pretty easy, wasn't it?
    Dr. Rice. No, Senator.
    The Chairman.  You did a great job.
    Dr. Rice. It was an honor, though.
    The Chairman.  Let me just take advantage of the moment 
before the vote starts to say one thing as we close up, and I 
want the people who are at the United Nations following this, 
and those who follow United Nations activities closely, to hear 
this. A number of colleagues raised the issue of reform at the 
U.N. In the 25 years that I've now had the privilege of serving 
on this committee, and Senator Lugar has been here longer than 
that, we've both seen the ebb and flow in this committee of 
reform efforts at the U.N.
    I led some of them at one point, and together with Senator 
Pressler we put in place some very strict requirements for dues 
and reform. And subsequently, as we fell behind, and other 
problems arose, we made a different judgment about the wisdom 
of trying to get up to speed on the money, because it was 
becoming self-defeating; we were undoing the ability of the 
institution to do what we wanted it to, and reform became even 
more complicated.
    But I think it's really important for the folks involved in 
the leadership with the U.N. to recognize that this is a new 
moment with a new administration. And the excuses that I have 
heard over 25 years for some people's behavior, which they 
choose over reform, sort of to stick it in the eye of the U.S. 
or to kind of send a message, has got to change. And I am 
convinced that your--this administration, that you, Dr. Rice, 
and your initiatives at the U.N., and Secretary Clinton, and 
the president are going to present a very different foreign 
policy, and a very different level of diplomacy and listening, 
and outreach, and give people ample opportunity to be heard and 
to be part of the formation of many of these global efforts.
    That said, there's going to be a lot less patience, and 
they need to know this, with the procrastination and the 
excuses, and the using of some of these very valuable 
institutions as a means of somehow sending a message. The 
United Nations is too valuable. Our time is too urgent now. The 
issues are too pressing. And we need to come together, and I 
want to emphasize that as chairman of the committee, I will do 
everything in my power to leverage a bipartisan effort here to 
hold that process accountable.
    We want it to succeed, but we want to be met fairly in the 
middle in the effort to have it succeed. And too many lives are 
lost, and too many dangers are augmented, and too many 
opportunities are bypassed because of that sort of business as 
usual attitude. We just can't afford it.
    And so, Senator DeMint's questions, and the other concerns 
expressed by members of the committee are going to be taken 
seriously by the committee as a whole, and we look forward to 
really pressuring, cajoling, working, and nobody's going to 
come in there with an arrogant overbearing, do this or else, my 
way or the highway attitude. But we are going to look for 
legitimate cooperative, rational, commonsense ways of trying to 
do these things better.
    And I hope the folks who you're going to work with are on 
notice about that. Senator Lugar?
    Senator Lugar.  The vote has begun. Dr. Rice, you're being 
saved by the Senate even as you're being grilled by the Senate. 
Thanks so much. I think you've acquitted yourself splendidly 
today. we really look forward to working with you. Our hope is 
to proceed forward on your nomination in a business meeting on 
Wednesday morning, at the latest, Thursday, and have you on the 
job and hopefully sworn in by the end of that day.
    Dr. Rice. Thank you very much. Thank you both, Mr. 
Chairman.
    The Chairman.  Thank you.
    Dr. Rice. Senator Lugar, I'm grateful.
    The Chairman.  With that, the record is open until 12 noon 
tomorrow. We expect any questions and answers to have been 
submitted appropriately so that we can do the filing. And we 
thank you very much. We stand adjourned. Thank you.


    [Whereupon, at 12:23 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              



 Responses to Additional Questions Submitted for the Record by Members 
                   of the Committee to Susan E. Rice

           Responses to Questions Submitted to Susan E. Rice 
                        by Senator John F. Kerry


    Question. Please describe your thoughts on the appropriate role of 
the United Nations (U.N.) in world affairs. What should be the main 
priorities of the U.N.? How would you like to see those roles evolve? 
What comparative advantages do you believe the U.N. provides? In what 
instances is it preferable to work through the U.N. instead of through 
a regional organization or bilateral channels?

    Answer. The President-elect believes that the United Nations is an 
indispensable, if imperfect, global mechanism in which to advance our 
interests in combating common threats and meeting global challenges 
ranging from global terrorism to proliferation, poverty, climate 
change, and disease. These are matters that directly affect the 
security and prosperity of the United States and they are matters that 
can only be effectively resolved by acting collectively. The United 
Nations offers an important vehicle for doing so and renewed American 
leadership will be critical to achieving progress.
    It is in our interests to make the U.N. maximally effective in this 
regard. That means not only an agenda of management reform but also 
investing to strengthen its program capacities and effectiveness, most 
notably in the realm of peacekeeping where we are asking the United 
Nations now to do more then ever and yet we have not aligned resources 
and capabilities with the mandates that we have given U.N. missions. 
There may be other instances when we will want to make use of other 
mechanisms, or mechanisms that are regionally based, and which 
complement efforts of the U.N. or other existing institutions. We have 
to look at this on a case-by-case basis. Different approaches can be 
mutually reinforcing, not mutually exclusive.


    Question. U.N. member-states hold differing views on its role in 
world affairs. Developed countries, for example, often view the U.N. as 
an organization whose role is to foster international peace and 
security. Conversely, many developing countries maintain that the 
primary role of the U.N. should be enhancing and facilitating 
international development efforts. How would you address these 
diverging perspectives?

    Answer. The President-elect and I believe that the defining 21st 
century challenges of today require common action based on a common 
purpose and vision of shared security. Differences in perspective are a 
reality that we must recognize as a starting point of multilateral 
diplomacy at the United Nations and all multilateral fora. Differences 
in perspectives do not mean that interests of different U.N. member 
states are therefore mutually exclusive. One of the core challenges of 
multilateral diplomacy, particularly at the U.N., is to identify the 
shared interests and use them as the basis to build a basis for 
consultation and cooperation. It is also important to recognize that 
the principle threats of the 21st century are global and that the 
United States has a national security interest in alleviating poverty, 
disease, and hunger in developing states. Programs and policies that 
enhance the security, stability, and prosperity of developing states 
are in the self-interest of the United States, as well as the 
developing countries themselves.


    Question.  Some observers view the U.N. as a forum in which to 
facilitate collective action in response to shared problems and codify 
salutary norms of international behavior, while others view it as 
unduly constraining the U.S.'s ability to act and a forum in which 
other countries can frustrate U.S. objectives. What is your view of the 
relationship between the U.N. and our national interests? How might the 
United States work to advance our national interests more effectively 
through the United Nations?

    Answer. The President-elect has said that the United Nations is an 
indispensable, if imperfect, institution for advancing America's 
security. In the 21st century, our goal should be to make the United 
Nations a more effective mechanism to effectively address our most 
pressing challenges. From preventing terrorist attacks and the spread 
of weapons of mass destruction to halting climate change, reducing 
poverty, and eradicating deadly disease, these are shared challenges 
that no single nation can tackle alone. They require common action 
based on a common purpose and vision of shared security. The task of 
diplomacy is to expand the will and ability of the international 
community to respond effectively to the great challenges of our time. 
At the United Nations, the United States must carry out sustained, 
concerted, and strategic multilateral diplomacy. We need to be prepared 
to listen, to understand, and to recognize different perspectives. We 
must convey the depth and breadth of the challenges that we face in the 
21st century even as we appreciate and are willing to act on those 
threats most pressing to others.


    Question. Some past U.S. representatives to the U.N. adopted a 
vocal and forceful style in order to foster reforms and achieve policy 
objectives. While this approach had certain benefits, at times it also 
isolated the United States during key votes and meetings. How will the 
new administration engage differently with the U.N. than the past one? 
What type of approach would you bring to the job? What do you believe 
is the appropriate balance between strongly advocating for U.S. 
interests while acknowledging the necessity of building consensus?

    Answer. The task of our diplomacy at the U.N. will be to expand the 
will and ability of the international community to respond effectively 
to the great challenges of our time. This will require sustained, 
concerted, and strategic multilateral diplomacy. We need to be prepared 
to listen, to consult, to understand, and to recognize different 
perspectives. If confirmed, I will be a staunch advocate and defender 
of our principles, ideals and interests, even as I seek to maximize 
cooperation on the most serious global problems the world now 
confronts. I will go to the U.N. with the perspective that the U.N. has 
great current value, great potential, and still great need for 
improvement. And, I will welcome the advice and counsel of Members of 
this Committee, who have deep experience regarding international 
affairs, America's interests, and multilateral institutions.


    Question.  What is your assessment of the ability of the U.N. 
Security Council (UNSC) to fulfill its mandate under the U.N. Charter 
to ``maintain international peace and security?'' What, if any, 
additional steps should the United States take to enable the UNC to 
more effectively fulfill this mandate? What suggestions would you make 
to the U.N. Secretary-General and member-states to improve the work of 
the U.N. in maintaining international peace and security?

    Answer. The President-elect and I believe that it is important for 
the United States to lead in strengthening the effectiveness of the 
United Nations, in modernizing it, so that it can be more capable of 
meeting the challenges of the 21st Century. We believe that in light of 
the global challenges we face in the new century, the value and 
potential of the U.N. is as great if not more so today, than at its 
founding 60 years ago. Clearly, cooperation at the Security Council to 
strengthen its central mission of maintaining international peace and 
security must be at the center of our efforts.
    That is why working intensively and aggressively to secure Security 
Council cooperation is critical. We must both build pragmatic working 
relationships, while making our priorities clear. If confirmed, I look 
forward to working on the basis of the principle that the Security 
Council should help to advance critical foreign policy goals and 
interests, and not be an obstacle to meeting its core objectives. In 
this regard, I look forward to working with Secretary-designate 
Clinton, who I know shares the same goals. For me to be successful, it 
will be essential that our efforts in New York are reinforced by the 
full weight of American diplomacy, including the support of my 
colleagues at the Department of State in Washington and our Missions 
overseas.


    Question.  The UNC has taken a number of steps to improve its work 
procedures, thereby enabling non-Council member states access to the 
Council and its work. What role has the United States played in 
promoting a more open, accessible, and transparent UNC? What additional 
steps should be taken?

    Answer. The United States should play an important role in a number 
of initiatives to improve the efficiency and transparency of Security 
Council operations. The U.S. has actively participated in the informal 
working group which reviews and implements proposals for improving 
Security Council working methods. These efforts have included:


   Intensified efforts to publicize Security Council decisions and 
        other relevant Council information (reports are circulated to 
        all Council members and participants in Council meetings at 
        least 4 days prior to their consideration);

   Enhanced use of informal consultations with interested member 
        states, where appropriate. For example, the Council President 
        has facilitated interaction by inviting any participant in 
        consultations to speak at any time during meeting; and

   Reaffirmed commitment to the use of open meetings, particularly 
        during the early stages of consideration of an issue.


    If confirmed, I will pursue active consultation with a broad range 
of other member states. Promoting sustained, informal engagement with 
non-Council members can be as important as pursuing more formal 
proposals to improve this process. I will also work with the U.S. 
Mission to consider appropriate additional measures to promote greater 
Council efficiency consistent with our broader foreign policy 
objectives.


    Question.  One of the most discussed issues in the U.N. reform 
debate is the possibility of modifying the composition and size of the 
Security Council so that it more adequately reflects present-day 
political and economic realities. What is the status of negotiations 
within the U.N. General Assembly toward enlargement of the membership 
of the UNC? Under what circumstances, if any, would the United States 
support expanding the number of permanent members on the Security 
Council? What criteria will you consider when determining which 
countries should qualify under a potential Security Council expansion? 
Will Security Council reform be a high priority during your tenure?

    Answer. For more than ten years, informal discussions have taken 
place at the U.N. in the Open-Ended Working Group, which includes all 
member states. In September 2008, the General Assembly agreed to 
commence a process of ``intergovernmental negotiations'' that might 
reach agreement on a framework and modalities for enlargement. These 
negotiations will commence by the end of February 2009 in informal 
plenary sessions of the U.N. General Assembly.
    The President-elect and I recognize that the Security Council was 
created many years ago at a time when there were very different 
international realities and that there is a strongly felt sentiment 
among many member states that the Security Council should better 
reflect 21st century circumstances. The administration will support 
expansion of the Security Council in ways that would not impede its 
effectiveness and its efficiency. We would also consider how to enhance 
the standing of the Council in the eyes of those nations that seek a 
greater voice in international fora. The Obama administration will need 
to make a serious, deliberate effort, consulting closely with key 
allies and capitals to find a way forward. This will not happen 
overnight.


    Question.  Since the U.N. was established, the role of U.N. 
peacekeeping has evolved significantly. While traditionally conceived 
as unarmed military observers who monitor and report on adherence to 
truces or cease-fire arrangements, U.N. peacekeeping personnel have, in 
recent years, been asked to protect delivery of humanitarian 
assistance, enforce zones of protection, and disarm combatants. What 
are your views on the purposes and possibilities of U.N. peacekeeping 
operations? In general, how would you assess the effectiveness of U.N. 
peacekeeping operations? What specific reforms would you advocate?

    Answer. United Nations peace operations play an important role in 
promoting peace and stability, preventing and resolving conflict, and 
stabilizing conflict zones once war has ended. The United Nations has 
approximately 90,000 troops and police deployed worldwide, including in 
such critical hotspots as Haiti, Kosovo, Lebanon, Liberia, the 
Democratic Republic of Congo and Sudan. These missions serve the 
interests of the United States. As a case in point, the General 
Accounting Office has cited U.N. peacekeeping as costing 12 cents on 
the dollar compared to unilateral U.S. military intervention. At the 
same time, however, the international community is asking the United 
Nations to do more than ever and yet has not aligned resources and 
capabilities with the mandates that U.N. missions have been given.
    Though steps have been taken to strengthen U.N. peacekeeping 
capacity, more needs to be done. For example, we should consider 
greater focus on improving the efficiency and effectiveness of the 
peacekeeping deployment process, including expanded training, improved 
information and communications systems, and additional resources.


    Question.  The United States continues to rely upon the U.N. to 
implement a robust peacekeeping program, especially from executive 
branch commitments made in the UNC. Will you urge Congress to ensure 
the United States pays its peacekeeping assessments in full and on 
time?

    Answer. Yes, the President-elect, Secretary-designate Clinton and I 
believe that the United States should pay its peacekeeping assessments 
on time and in full. When we fail to do so, we undermine the efforts of 
the United Nations to undertake tasks that we want to see performed. 
Furthermore, we undermine our credibility and effectiveness to work 
with other Member States to achieve our objectives at the U.N. If 
confirmed, I intend to work within the administration to ensure that 
funding requests for the U.N. are consistent with our obligations and 
with Congress to appropriate funds so that the United States pays its 
dues to the U.N. on time and in full.


    Question.  In May 1994, the UNC issued a Presidential Statement 
listing a number of factors the Council might consider when deciding to 
establish a new peacekeeping operation. Examples of factors include: 
whether a situation is a threat to international peace and security; if 
regional entities are ready and able to assist; if there is a cease-
fire among parties who are committed to a peace process; and if there 
are clear political goals reflected in a mandate. What are your views 
on this Presidential Statement? How, if at all, would you like these 
criteria to be amended?

    Answer. The May 1994 Presidential Statement in the Security Council 
was based largely on the criteria developed by the Clinton 
administration in Presidential Decision Directive 25 (PDD-25)--an issue 
I worked on extensively during my time on the National Security 
Council. PDD-25 was the result of more than year-long interagency 
policy review and extensive consultations with the U.S. Congress to 
focus on greater selectivity and effectiveness of U.N. peacekeeping. It 
marked the first comprehensive framework for U.S. decision-making on 
issues of U.N. peacekeeping. Fifteen years later, the U.S. still has an 
enduring interest in ensuring that the U.N. peacekeeping capacity is 
improved and sustained, in the context of the even more complex demands 
on that capacity in the 21st century.


    Question.  A major area of concern for the United States and many 
other member-states has been the continuing disclosure of allegations 
of sexual exploitation and abuse committed by U.N. peacekeepers. The 
U.N. has taken a number of steps aimed at preventing this activity, 
providing for the investigation of allegations, and securing 
prosecutions by troop-contributing countries. Ultimately, however, 
troop-contributing countries are responsible for the conduct of their 
U.N. peacekeeping personnel. What can be done to ensure that troop-
contributing countries take the necessary measures to screen and to 
train personnel and, if an individual does engage in improper conduct, 
to prosecute those personnel?

    Answer. These abuses are totally reprehensible and unacceptable. 
These scandals strike at the heart of the purpose and value of the 
United Nations. I believe the U.N.'s top leaders understand the 
magnitude of this threat. They are right to adopt a policy of zero 
tolerance. A range of steps have been taken, including disciplinary 
measures, a new model Memorandum of Understanding between the U.N. and 
troop-contributing countries covering standards, and the waiving of 
immunity, but more needs to be done. The U.S. will continue to work 
with other member states to follow up on actions taken by troop- or 
police-contributing governments against personnel dismissed from U.N. 
missions for engaging in inappropriate or abusive behavior. As a woman 
and a mother, I take this issue personally and will follow it closely, 
if confirmed. Unless we make every effort to end this problem, the 
legitimacy and credibility of the United Nations in the eyes of the 
very peoples that the U.N. is supposed to protect will erode 
dangerously.


    Question.  In 2007, in response to recommendations made by U.N. 
Secretary-General Ban Ki-moon, the U.N. General Assembly (UNGA) 
approved the creation of a new Department of Field Support and the 
reorganization of the Department of Peacekeeping Operations. What are 
your views on this restructuring? Is there a timetable for completing 
this restructuring? How long will it take to see any results in 
improved capacities?

    Answer. Secretary-General Ban Ki-moon's efforts to reorient and 
restructure the Department of Peacekeeping Operations were intended to 
strengthen the Secretariat's capacity to manage and support U.N. peace 
operations. I support these goals. The task now is to continue efforts 
to improve planning, deployment and the support of the many U.N. 
peacekeepers in the field.
    The General Assembly (GA) in 2007 responded to Secretary-General 
Ban's proposals by approving 284 new positions and 137 new contract 
positions, as well as revisions in contracting and procurement 
procedures designed to streamline work, improve performance, and reduce 
the need for further additional positions. In June 2008, the Fifth 
(Budget) Committee approved an additional 45 positions for the 
Department of Peacekeeping Operations' Office of Military Affairs 
(OMA), in order to improve its capacity for planning operations. Both 
the positions approved in 2007 and those approved in 2008 are being 
filled as rapidly as possible.
    The restructuring has moved administrative and logistic support 
into the newly-created Department of Field Support (DFS), with 
military, police and stabilization planning done by DPKO. The goal is 
to improve communications between missions in the field and 
headquarters to produce faster and more effective deployments. DPKO and 
DFS are now working in integrated teams.
    Improving the efficiency and effectiveness of the peacekeeping 
deployment process as well as the peacekeeping missions themselves has 
only become more vital as the number of scope of peacekeeping 
operations has increased. Key issues include expanded training, 
improved information and communications systems, and additional 
resources.


    Question.  Recent controversies, such as corruption of the Iraq 
Oil-For-Food Program, allegations of sexual abuse by U.N. peacekeepers, 
and instances of waste, fraud and abuse by U.N. staff, have focused 
renewed attention on the need for change and improvement at the U.N. 
The past administration pushed a rigorous reform agenda, often with 
mixed results. In what areas has the U.N. successfully implemented 
reforms, and what areas have not been successfully addressed? What 
would you identify as the top priorities for U.N. reform going forward? 
How would you embark on this reform program and solicit support for the 
effort? Do you think that linking payment of U.S. assessments to 
progress on U.N. reform is an effective way to promote necessary 
reforms?

    Answer. If I am confirmed, I will be committed to working to ensure 
that the U.N. is maximally effective and efficient. The United Nations 
has made some notable progress on reform, beginning in 1994 with the 
establishment of the Office of Internal Oversight Services to 
strengthen its capacity to ensure that money being spent is being well 
accounted for. To date, OIOS recommendations have saved the U.N. and 
the taxpayer an estimated $200 million. The U.N. has developed an 
internal audit and an inspector general capability, strengthened 
whistleblower protections, and enhanced financial disclosure 
requirements for U.N. staff. More recently we have seen efforts to 
reorient and restructure the Department of Peacekeeping Operations and 
to establish a Peacebuilding Commission to deal with the challenges of 
post-conflict stabilization and reconstruction. The procurement task 
force has substantially improved the U.N.'s procurement operations. So 
there have been important steps taken. But more must be done.
    My top priorities for U.N. reform would be financial 
accountability, management efficiency, transparency, ethics and 
internal oversight, and program effectiveness in areas such as 
peacekeeping, conflict prevention, and mediation. A key challenge now 
is ensuring effective implementation of ongoing initiatives and 
preventing them from being watered down or weakened, even as we 
consider what further steps should be taken to improve U.N. 
effectiveness and accountability.
    I do not believe that the U.S. should, as a general practice, 
condition its dues to the U.N. on specific reforms. The United States 
should pay its dues on time and in full.


    Question.  U.N. member-states have been unable to achieve consensus 
on how to implement certain elements of management reform. These 
disagreements have emerged in the U.N. A and other fora--particularly 
between developing countries and developed countries. Please discuss 
how these disagreements impact U.N. reform efforts. What steps can be 
taken to overcome these differences and achieve the reforms agreed to 
at the 2005 U.N. World Summit?

    Answer. As with many issues related to the U.N., the ability to 
achieve U.N. management reform objectives depends on agreement among 
many member states. When there are divisions among member states, as 
there have been on some reform issues, this has limited the ability of 
the U.N. to move forward on reform objectives. Sustained, intensive 
diplomacy by the U.S. and like-minded member states will continue to 
essential in pursuit of U.N. reform objectives as well as our broader 
set of policy interests at the U.N. It will be important to reach out 
to the broadest possible range of countries to actively expand the base 
of support. It is in the interests of all U.N. member states to ensure 
that the U.N. is as effective, efficient, and transparent as possible.


    Question.  A significant area of concern for Congress has been 
reform of the U.N. internal oversight system. What has the United 
Nations done to improve oversight, particularly in the U.N. Office of 
Internal Oversight Services? What has the United States done to 
facilitate these improvements?

    Answer. The creation of the Office of Internal Oversight Services 
(OIOS) continues to be one of the most important U.N. management 
reforms. In previous years, the U.S. has pressed for the release OIOS' 
audits to U.N. members upon request--a reform that has made it possible 
to have greater insight into the management of U.N. resources. The U.S. 
has pushed for the creation of the independent U.N. Ethics Office and a 
strengthened financial disclosure program administered by the Ethics 
Office. The U.S. was a leading advocate of the creation of the 
Independent Audit Advisory Committee (IAAC), which advises Member 
States on oversight issues and helps ensure the operational 
independence of OIOS. Finally, the United States strongly supported the 
efforts by the OIOS Procurement Task Force to uncover fraud, 
misconduct, and corruption. To date, OIOS efforts have helped save the 
U.N. over $200 million.


    Question.  Do you think the U.N. has taken appropriate steps to 
reform its procurement practices? What steps, if any, can it take to 
further improve the U.N. procurement system?

    Answer. The United States is a leading advocate for efforts to 
strengthen and improve the U.N.'s procurement practices. Working with 
the U.S., the U.N. established a procurement task force and an Ethics 
Office. The steps have yielded results, including identifying over $600 
million in faulty contracts. These efforts should continue, and it will 
be important to ensure that budget support for this work remains. There 
may also be opportunities to expand the mandate of these oversight 
entities to a broader range of U.N. organizations. The U.S. will 
continue to encourage transparency in contracting.


    Question.  Since the terrorist attacks of September 11, 2001, 
threats to international peace and security have come from some of the 
world's weakest states. You have written extensively on the correlation 
between poverty and terror and created an index that ranks the world's 
developing nations to measure how they meet the core functions of 
statehood. According to that index, 60 U.N. member-countries fail to 
meet the basic requirements of statehood. What role do you see for the 
U.N. in strengthening these weak and failing states?

    Answer. A common characteristic of the world's weak states is lack 
of the capacity to fulfill essential government functions, particularly 
providing security from violent conflict, basic human needs of their 
population, and legitimate governance with the acceptance of the 
majority of their population. These are the areas that require the 
world's focus and attention in these states. The United Nations can be 
an invaluable contributor in this regard. The U.N. can help mobilize 
global resources and capacity in ways that no single country can. The 
U.N. can elevate the focus and attention on the challenges and threats 
that are manifest in these states. And, the U.N. has developed, over 
the last six decades, substantial expertise in governance, conflict 
prevention and resolution, poverty reduction, peacebuilding, and many 
other critical areas. This body of U.N. knowledge and expertise can and 
should be applied to the most fragile states.


    Question.  The UNC and U.N. A established the U.N. Peacebuilding 
Commission in 2005 to advise and propose integrated strategies for 
post-conflict recovery. What is the position of the United States on 
the work of the Peacebuilding Commission thus far? Does the United 
States plan to make a contribution to the Peacebuilding Fund?

    Answer. The United States is a member of the U.N. Peacebuilding 
Commission and supports its work-as well as the work of Assistant-
Secretary-General Jane Holl Lute. The U.N. Peacebuilding Commission 
(PBC) is an important pillar of U.N. reform that will enhance the 
U.N.'s capacity to address post-conflict stability, reconstruction, and 
governance challenges. The issue of a U.S. contribution to the 
Peacebuilding Fund is part of a larger discussion that will take place 
with respect to budget matters and funding priorities. As a general 
matter, the U.S. maximizes its influence and leverage when it leads by 
example.


    Question.  More generally, what are your views of the U.N. role in 
post-conflict reconstruction and stabilization? What lessons have you 
taken away from the U.N. role in Afghanistan and Iraq?

    Answer. The United Nations can play an important, instrumental, 
and, in some cases indispensable, role in post-conflict reconstruction 
and stabilization. A U.N. presence is a key mechanism to employ 
resources from around the world that, in the absence of the United 
Nations, would not otherwise be available to assist in such 
circumstances. The U.N. can provide a mechanism for prioritization, 
coordination, and rationalization of resources. The U.N. can also apply 
decades of experience in operating in post-conflict situations to 
pursue reconstruction, stabilization, development and establishment of 
governance institutions.
    In this regard, and in light of the ongoing U.N. role in both Iraq 
and Afghanistan, a key factor in the effectiveness and ability of the 
United Nations in these circumstances is ensuring that member states 
provide the U.N. the mandate, resources, and leadership appropriate to 
the task at hand. The lack of a consensus among U.N. member states 
regarding the purpose, methods, and resources for a U.N. role can 
substantially constrain the U.N.'s capacity under most circumstances.


    Question.  In your view, should the UNC more consistently address 
the health impacts of conflict situations, especially those involving 
cholera, measles, and malaria that may be exacerbated by conflict? 
Please explain.

    Answer. In 2000, the Security Council held an unprecedented meeting 
on the impact of AIDS on peace and security in Africa, and this 
represented important recognition by the Council that health issues can 
be the appropriate focus of Council concern and action. While the 
Council cannot and should not replace the role of U.N. agencies focused 
on delivery of humanitarian assistance and heath care, appropriate 
Council recognition of the connections between health and security can 
help to focus attention and resources on interventions that will be 
most effective in both addressing critical health requirements and 
preventing conflict.


    Question.  The Intergovernmental Panel On Climate Change (IPCC), a 
scientific intergovernmental body, was created to provide policymakers 
with an objective, fact-based source of information about climate 
change. IPCC has released four Assessment Reports that describe the 
state of knowledge on climate change. What have you taken away from 
those reports?

    Answer. The Fourth Assessment Report of the IPCC, released in 2007, 
states that warming of the climate system is ``unequivocal'' and that 
this increase in observed temperatures is ``very likely'' due to human 
activities. The IPCC projects that global average temperatures during 
the next century will increase from 2 to 11.5 degrees F, accompanied by 
sea level rise, more heat waves, more severe storms and the spread of 
tropical disease. The IPCC said that ``The last time the polar regions 
were significantly warmer than present for an extended period (about 
125,000 years ago), reductions in polar ice volume lead to 4 to 6 
meters of sea level rise.'' Beyond these conclusions, the IPCC has 
consistently provided policymakers with peer-reviewed information about 
climate science, impacts and mitigation.
    In my view, the science is beyond dispute and the facts are clear. 
Few, if any, challenges facing the world are more urgent or important 
than combating climate change.


    Question.  UNC Resolution 1540 obliges all states to refrain from 
``supporting by any means non-State actors that attempt to develop, 
acquire, manufacture, possess, transport, transfer or use nuclear, 
chemical or biological weapons and their means of delivery.'' It 
imposes a binding obligation on all states to establish ``appropriate 
effective'' controls to prevent the proliferation of nuclear, chemical, 
and biological weapons, including by establishing controls over related 
materials. In April 2008, the UNC extended for three years the mandate 
of a committee established to monitor implementation of this 
resolution. At that time the UNC also encouraged all states to prepare 
summary action plans to map out their priorities and plans for 
implementing key provisions of the resolution. Should the UNC be doing 
more to ensure that the obligations imposed on states by Resolution 
1540 are being carried out? What steps do you envision taking to ensure 
that all states introduce and enforce ``appropriate effective'' 
controls of materials that could enable the use by non-state actors of 
nuclear, biological, or chemical weapons? Should the United States do 
more to detail minimum standards to meet the ``appropriate effective'' 
obligation set out in Resolution 1540?

    Answer. U.N. Security Council Resolution 1540 is a potentially 
powerful tool to fight the spread of weapons of mass destruction. The 
President-elect has expressed support for a comprehensive strategy to 
seek agreement among all countries that possess nuclear weapons or 
weapons-usable material on a set of global nuclear security standards, 
consistent with their obligation to comply with United Nations Security 
Council Resolution 1540. He has also indicated that the United States 
should play a leadership role in mobilizing international financial 
support to help states meet their obligations. The 1540 Committee is an 
important forum in which to develop such global standards, measure 
progress toward implementation and, where necessary, identify areas 
where assistance is appropriate. In particular as we move toward the 
2010 Review Conference of the Nuclear Nonproliferation Treaty, 
strengthening the international consensus for global adherence to the 
international non-proliferation regime, including implementation of 
Resolution 1540, will be a key priority of mine, should I be confirmed.


    Question.  How would you characterize ongoing counterterrorism 
efforts at the U.N.? To what degree, and in what manner, is the 
Counter-terrorism Committee (CTC) fulfilling its mandates set forth in 
UNC Resolution 1373? What steps will you take to leverage the efforts 
of the CTC through effective coordination with the State Department's 
Office of the Coordinator on Counterterrorism?

    Answer. The General Assembly and the Security Council have taken 
action both to require States to enact and implement measures to deter 
the activities and to constrain the mobility of terrorists and their 
supporters. A resolution adopted in the wake of 9/11 requires all U.N. 
Member States to implement a sweeping range of counter-terrorism 
measures against terrorists and their supporters, including asset 
freezes and measures to prevent the movement of terrorists across 
international borders and to eliminate the supply of weapons to 
terrorists. A key challenge is sustaining this effort, including by 
ensuring that the U.N.'s consolidated al-Qaida/Taliban list of 
sanctioned individuals and entities remains up to date, as well as by 
improving coordination of U.N. counterterrorism programs to reduce 
redundancy.
    The Security Council's actions also created the Counter-Terrorism 
Committee (CTC) to monitor States' compliance with the resolution. The 
CTC should be a forum where the countries can provide as well as 
receive assistance to improve implementation of U.N. resolutions. The 
United States should look to help strengthen them.


    Question.  Why do you believe that U.N. member-states have been 
unable to reach agreement on a final text for a comprehensive 
convention on international terrorism? Do you think that the entry into 
force of such a convention would significantly impact international 
efforts to address terrorism?

    Answer. I understand that since 2001, the negotiations have focused 
on two important questions: (1) whether actions by state military 
forces, which are governed by other branches of international law, 
constitute ``terrorism,'' and (2) whether violent actions of ``national 
liberation movements'' constitute ``terrorism.'' Our goal for the 
Comprehensive Convention on International Terrorism is to strengthen 
the international legal framework for counterterrorism, which can 
improve international efforts to combat terrorism.


    Question.  What is your position on the concept of the 
responsibility to protect (R2P), as it was set forth in the 2005 World 
Summit Outcome Document? What do you consider to be its principal 
strengths and weaknesses? What obligations, if any, did U.N. member-
states accept when they agreed to the R2P paragraphs?

    Answer. The Responsibility to Protect is a norm that was supported 
by the United States, by the 2005 U.N. General Assembly World Summit, 
and subsequently by the United Nations Security Council. I support the 
``R2P'' doctrine. However, there has been a gap between the 
expectations that the norm created and the realities on the ground. R2P 
is a multi-faceted doctrine that begins with prevention and encompasses 
the entire range of policy options up to, and including, the use of 
force, to encourage and enable countries to act in a fashion that 
protects their citizens and prevent them from being attacked and 
harmed. The core issue is--for each particular circumstance--what does 
the international community actually do? This is not a simple question 
of whether to use military means or not, though we cannot rule out the 
use of force, if other options fail. In many instances, there is far 
greater scope for preventive diplomacy, sanctions than often has been 
employed to date as well as far greater scope for collective and 
regional action to change their behavior and fulfill the responsibility 
to protect.


    Question.  What is the likelihood that the Chapter VII language 
regarding the R2P, as set forth in the World Summit Outcome Document, 
will ever be applied by the UNC? What criteria should U.S. policymakers 
apply in determining possible UNC action?

    Answer. The Responsibility to Protect (R2P) doctrine does encompass 
the full range of policy options, including and up to the use of force. 
As a general principle, all other policy options should be explored and 
exhausted before the use of military force is contemplated. Beyond this 
principle, it is difficult to enumerate all possible, hypothetical 
scenarios, which might constitute grounds to consider possible action 
by the U.N. Security Council. In more immediate terms, a key focus of 
the U.N. Security Council should be on building global capacity for 
peacekeeping, which is one of the key policy tools necessary for an 
effective international response to protect civilians from mass 
atrocities.


    Question.  Do you believe the R2P concept should apply to victims 
of natural disasters, and specifically, do you think the situation in 
Burma triggered a responsibility to protect? Would it have been 
productive for the United States to press the UNC to intervene with an 
international response in the areas affected by Cyclone Nargis, with or 
without the approval of the Burmese authorities? Do you support the 
adoption of such an interventionist approach in the Darfur region of 
Sudan and/or in Zimbabwe?

    Answer. In the face of natural disasters, stolen elections, or mass 
atrocities, the United States has a range of tools to draw upon. There 
is no ``one size fits all'' solution to preventing human suffering, and 
we should not reduce our choice to one between doing nothing and using 
unilateral U.S. military force. There may be circumstances when 
diplomatic action fails to secure consensus at the U.N. Security 
Council, but where the limited use of military power could be effective 
in saving a large number of lives. In any set of circumstances, we must 
also evaluate the collateral costs of war and the likely consequences 
of military action--on the victims or country in question and on U.S. 
interests. I do not want to speculate about which circumstances might 
warrant such action.


    Question.  The U.N. has a broad range of mechanisms available to 
address human rights violations. In your view, how important is the 
U.N. in the overall effort to protect human rights? What are its main 
strengths and weaknesses in addressing human rights issues?

    Answer. Promoting and encouraging respect for human rights is among 
the core principles of the United Nations, and has been a priority for 
both the United States and other member states since the founding of 
the organization. The body of international human rights standards that 
are now widely acknowledged (if not always respected) by nearly all the 
governments were in great measure developed within the United Nations 
system. For example, the Universal Declaration of Human Rights and the 
International Covenant on Civil and Political Rights, to which the 
United States is a party, were developed by the Human Rights 
Commission. These and other instruments have been important tools used 
to press for an end to violations of human dignity and for the 
promotion of civil and political rights. Similarly, the United Nations 
has played a key role in the development of treaties signed or ratified 
by the United States and relating to labor rights, the rights of women, 
racial discrimination, the rights of children in conflict, and many 
other issues.
    In addition, the U.N. plays an important role in the promotion and 
protection of human rights in the field, including through human rights 
monitoring and electoral assistance. Beyond that, the Office of the 
High Commissioner for Human Rights deploys several different kinds of 
standing human rights missions that help to ensure respect for human 
rights and the rule of law: these include human rights country offices 
and/or advisors providing advice and assistance to governments and 
civil society; human rights advisors in United Nations peace 
operations; and regional offices and centers providing advice and 
assistance in Asia, Latin America, the Middle East and Africa.
    Of course, this good work of the Secretariat has not been matched 
by the intergovernmental human rights organs of the U.N. In the new 
Human Rights Council, for example, some member states have sought to 
shield from scrutiny the worst perpetrators of abuses, while providing 
distorted and disproportionate criticisms on Israel. The challenge for 
the United States and its partners, friends, and allies is to bring the 
full weight of sustained diplomacy, shared values, and power to improve 
the Human Rights Council by building broad and deep coalitions in 
support of universal human rights at the United Nations.


    Question.  The U.N. Human Rights Council (the Council) was formed 
in 2006 to replace the U.N. Human Rights Commission, which had been 
criticized for not holding its members accountable for human rights 
abuses. Since its creation, the Bush administration has declined to be 
named to the 47-seat Council, citing in part its disproportionate focus 
on Israel. How do you approach the Council? How might the United 
States' presence or absence on the Council influence its effectiveness? 
Do you think the United States should seek to become a member?

    Answer. We have a deep interest in ensuring strong global 
mechanisms to uphold the respect for human rights. The President-elect 
is committed to enforcing respect for human rights. There is no 
question that the U.N. Human Rights Council (HRC) has been seriously 
flawed and a major disappointment. Rather than focus on its efforts and 
energies on most egregious instances of human rights abuses around the 
world, in places like Burma, Zimbabwe, Sudan and elsewhere, the HRC has 
devoted an inordinate amount of attention, and a very counterproductive 
focus, on Israel, one of our closest allies.
    The Obama administration intends to work to strengthen the United 
Nations human rights mechanisms so that they focus on the world's most 
egregious human rights abusers. If confirmed, I look forward to working 
with the President-elect--and consulting with this Committee--as we 
review whether and when to run for election to a seat on the Council. 
Whether or not we seek election, our basic orientation will be that our 
ability to effect change is far greater if we are engaged 
diplomatically with friends and partners around the world to build a 
broad-based understanding of the need to use these mechanisms for the 
purpose they were designed, and not allow them to be hijacked for other 
purposes.


    Question.  If the United States decided to run for membership on 
the Council and was elected, what challenges do you think it would face 
as a new Council member, and how would you work to overcome these 
challenges? If the United States decides not to run, how will it pursue 
its human rights agenda in U.N. fora?

    Answer. No decision has been made yet about whether and when to 
pursue membership in the Human Rights Council. Whether or not the 
United States is a member of Human Rights Council, the U.S. will use 
all available policy tools at its disposal and the full weight of its 
diplomacy to defend and advocate for broader and stronger support for 
human rights around the world. The Obama administration will undertake 
early consideration of how the United States can achieve this objective 
most effectively and with the widest possible international support.


    Question.  The recently released report of the Genocide Prevention 
Task Force, co-chaired by former Secretaries Albright and Cohen, 
concluded that preventing genocide must be a national priority. The 
task force concluded that the United States and the international 
community currently lack critical tools to identify the early warning 
signs of impending mass atrocities and respond to them to prevent the 
escalation of violence: ``Gaps remain.in the strategic understanding of 
the challenges that genocide and mass atrocities pose and in developing 
appropriate ways to anticipate and address civilian protection.'' What 
steps do you believe the United States and U.N. should take to prevent 
or stop acts of mass atrocity or genocide?

    Answer. President-elect Obama has spoken often of the importance of 
drawing on a range of US foreign policy tools to prevent genocide. I 
have also been outspoken on this issue. The President-elect has already 
sent strong political signals to his incoming administration, to the 
American people of his commitment to combat genocide. In terms of the 
bureaucratic and operational steps that need to be taken, I look 
forward, if confirmed, to working with my colleagues in the White 
House, the Pentagon, the CIA and State Department to review these 
issues, including the report prepared by the genocide task force, and 
deciding how best to operationalize the President-elect's objective. 
And I look forward to consulting with the Committee and other Members 
of Congress as we consider how best to organize to address this 
challenge so that there is a process in place to anticipate and address 
any concerns as early as possible.


    Question.  In April 2009, U.N. member-states will convene in 
Geneva, Switzerland for the U.N. Durban Review Conference Against 
Racism (Review Conference) to examine possible progress made since the 
2001 U.N. World Conference Against Racism (WCAR) held in Durban, South 
Africa. The United States withdrew from WCAR because of what was 
appropriately deemed to be a disproportionate focus on Israel as an 
alleged perpetrator of racism and intolerance in the Middle East. Do 
you think the United States should participate in the upcoming Durban 
Review Conference? Why or why not?

    Answer. Racism is and remains a serious global challenge that 
merits our sustained effort, attention, and involvement. It is 
appropriate to convene an international conference on this subject. The 
problem is that in the past, and potentially now as we head towards the 
conference in April, rather than focus on racism, some member states 
and some non-governmental organizations have instead sought to equate 
Israel's actions with racism and promote an atmosphere of hate and 
anti-Semitism. This is highly offensive and a distortion of the meaning 
of the term racism. It merits our strongest objections.
    The question is how to proceed. The President-elect believes that 
we should make early and significant efforts to determine whether our 
efforts could enable the upcoming conference and its draft document to 
be improved, refocused on racism, and stripped of the offensive 
language that we find abhorrent. If this is not possible, then we--as 
well as other member states that respect basic principles of justice 
and equity--should not participate in April and dignify that gathering 
with our presence.


    Question.  In recent years, there have been some signs that the 
U.N. is getting serious about tackling anti-Semitism. However, it is 
not yet close to achieving a fair and balanced approach towards Israel. 
For example, at least three bureaucracies created several decades ago 
with the mandate of singling out Israel as a violator of human rights 
continue to receive regular U.N. funding. Between 2001 and 2006, more 
than 120 U.N. A plenary and committee resolutions were adopted against 
Israel, compared with just ten during the same period against North 
Korea, Burma, and Sudan. What, if anything, can be done to address the 
anti-Israeli bias at the United Nations? What other countries are 
committed to addressing this imbalance?

    Answer. The United Nations at its best is a forum where all nations 
and people are treated with respect in the spirit of working together 
to solve the world's problems. Unfortunately, we know that some have 
used various forums at the United Nations to espouse various forms of 
prejudice, and in particular, harsh and unfair sentiments against the 
State of Israel. Anti-Israel bias, anti-Semitism, and discrimination of 
any kind denigrate the integrity of the U.N. and will be not be 
tolerated by the Obama administration. Whenever they arise, the United 
States needs to speak out forcefully against them, and encourage all 
others to do the same. And as part of our efforts to improve the United 
Nations, we need to work to ensure that its forums are not used or 
hijacked for this unacceptable agenda. We have support for these 
efforts from many countries, particularly, but not exclusively, in 
Europe and Canada. But we need to expand the ranks of those countries 
willing to stand up with us to end these practices.


    Question.  More than four years after then-Secretary of State 
Powell's declaration that genocide was taking place in Darfur, the 
death toll has climbed still higher, the camps for displaced persons 
have grown more crowded, and humanitarian access to help people in need 
has diminished in many areas. The United Nations has pledged to send 
26,000 peacekeepers to Darfur, but has sent barely 60 percent of that 
number and has not provided them with the helicopters, vehicles, and 
other tools to fulfill their mission. Why has this process been so slow 
to date? In recent months, Khartoum's obstruction has significantly 
diminished, but that change has only highlighted the U.N.'s own 
difficulties in equipping and deploying the UNMID force. What can be 
done both in Darfur and generally to address these insufficiencies?

    Answer. President-elect Obama, Vice President-elect Biden, 
Secretary-designate Clinton and I have been very clear and forceful in 
their condemnation of the genocide in Sudan and in their commitment to 
far more robust actions to try and end it. The pace of UNMID's 
deployment needs to be accelerated, combined with sufficient logistical 
support to protect civilians on the ground. We need to send a clear 
message to Khartoum that they must end obstruction of the U.N. force 
(UNAMID), including through endless bureaucratic hurdles and delays. We 
also need to address some of the U.N.'s own requirements that have 
inadvertently slowed UNMID's deployment thus far. The Obama 
administration will take steps to help move needed troops and equipment 
into place on an urgent basis.


    Question.  One of the critical gaps that peacekeepers face is the 
lack of attack and utility helicopters that are desperately needed to 
cover vast stretches of roadless territory in Darfur. What would you do 
to help secure these badly needed helicopters?

    Answer. If I am confirmed, I will work to support the Secretary-
General's efforts to secure the helicopters necessary for UNMID. As to 
whether the U.S. may provide some helicopters, I look forward to 
considering this question in the context of an early policy review. We 
will look at all of the steps that can most effectively and urgently 
maximize protection for civilians.


    Question.  In April 2008, President-elect Obama said that ``the 
U.S. needs to work with the International Criminal Court (ICC) to ramp 
up the pace of indictments of those responsible for war crimes and 
crimes against humanity, while Khartoum must feel increased pressure to 
hand over those individuals already indicted by the Court.'' On July 
14, 2008, the ICC requested a warrant for the arrest of Sudanese 
President Omar Hassan al-Bashir for his role in the genocide in Darfur. 
Many observers expect the ICC to formally indict President Bashir on 
genocide and possibly other charges in early 2009. Does the 
administration intend to support the ICC's efforts to hold Bashir and 
others in Sudan accountable for genocide and other heinous crimes, and, 
if so, how?

    Answer. Yes. Without prejudging the outcome of the ICC prosecutor's 
recommendation to indict President Bashir, the President-elect 
believes, as do I, that we should support the ICC's investigations, 
including its pursuit of perpetrators of genocide in Darfur. The Bush 
administration has indicated publicly a willingness to cooperate with 
the ICC in the Darfur investigation. I commend them for this position, 
which we also support. We can provide assistance in the investigation; 
we can and should work with our allies, in this effort. This is 
important because it would send a sign of seriousness about Darfur and 
our determination to end the killings and bring those responsible for 
war crimes to justice.


    Question.  Many in the Bush administration and elsewhere have 
called for a U.N. peacekeeping mission in Somalia. What is your 
position on such a mission? How many peacekeepers would be needed and 
what would their mission be in such a violent setting? With the U.N. so 
overtaxed, as recently spelled out in a GAO report, from where would 
these additional peacekeeping forces come?

    Answer. This issue is very important and complicated, and there are 
no good solutions. It is not clear that a U.N. peacekeeping operation 
can address the problems in Somalia and we will need to consider very 
carefully the risks and benefits of any potential U.N. mission before 
authorizing its deployment.


    Question.  On December 31, 2008, the UNC mandate authorizing the 
multinational force in Iraq will end. How will the United Nations 
Assistance Mission to Iraq (UNAMI) change at the mandate's conclusion? 
What role do you see for the U.N. in Iraq in 2009 and beyond?

    Answer. The United Nations has been playing an important role to 
develop and promote a stable political process in Iraq. The importance 
of this U.N. role should increase as the United States draws down its 
presence in Iraq. The U.N. Security Council has authorized UNMI's 
current mandate until August 10, 2009. In particular, the U.N. will 
continue its significant work to support preparations for national and 
provincial elections in Iraq in 2009, assist Iraqis in helping to 
resolve the status of disputed territories, including Kirkuk, 
strengthen institutions for representative government, and provide 
assistance to internally displaced Iraqis. The United Nations can play 
a more active role in support of a regional diplomatic process that is 
needed to stabilize Iraq for the long term.


    Question.  The U.N. is one of the partners in the International 
Compact with Iraq. What have been the main accomplishments of the 
compact since its launch in 2007? What are the biggest impediments to 
progress?

    Answer. The International Compact with Iraq (ICI) has sought to 
provide a framework for Iraq's political and economic development with 
the assistance and support of the international community. Since the 
adoption of the ICI, the U.N. has served as a co-chair of the Executive 
Committee charged with the ICI's implementation. The role of the U.N. 
in this process is an example of the significant assistance and support 
that the U.N. has applied through its efforts in Iraq. Regionally, 
under the ICI's framework, many of Iraq's international partners have 
taken steps to reduce Iraq's Saddam-era debts by more than $25 billion, 
committed more than $2.4 billion in new soft loan assistance, and 
provided extensive programs to help combat corruption, assist refugees 
and displaced persons, foster the rule of law, and build the 
capabilities and effectiveness of Iraq's ministries and provinces. 
Additional efforts remain to address Iraq's debt with its regional 
neighbors. Several of the key challenges that Iraq faces today, many of 
which are integrated in the goals and objectives of the ICI, call for 
significantly enhanced Iraqi governance capacity and decision-making 
that has not yet been achieved. That is why the U.N. also continues to 
provide technical, humanitarian, and other expertise to the Iraqi 
Government.


    Question.  President-elect Obama has made clear his intention to 
engage in tough, direct diplomacy with Iran over its nuclear program 
and has emphasized the need for a stronger package of incentive and 
disincentives. What do assess as the prospects for the UNC imposing 
tougher sanctions against Iran? How should the United States proceed if 
Iran continues its illicit nuclear activities and consensus in favor of 
tougher UNC sanctions continues to prove elusive? Under what 
circumstances, if any, would you be willing to engage with Iran's 
permanent representative to the U.N., Mohammad Khazaee?

    Answer. The President-elect has said that the prospect of an Iran 
armed with nuclear weapons poses a great threat to our national 
security, and to the security and stability of the region and the 
world. The President-elect believes that the U.S. should pursue a 
strategy that employs all policy tools at our disposal, first and 
foremost direct, vigorous, and principled diplomacy integrated with 
effective pressure, including sanctions, and close cooperation with our 
``P-5 plus 1'' partners, other members of the U.N. Security Council, 
the International Atomic Energy Agency and other partners around the 
world. It is this kind of comprehensive, integrated strategy that will 
improve the prospects of more unified action by the U.N. Security 
Council to enforce existing resolutions on Iran and consider additional 
sanctions favorably. Direct, bilateral diplomacy with Iran could 
include a range of channels for dialogue, including possibly at the 
United Nations. The Obama administration will consider its preferred 
diplomatic mechanisms in the context of an early policy review.


    Question.  President-elect Obama has urged the Southern African 
Development Community, the African Union, and the U.N. to implement ``a 
carefully crafted regime of targeted sanctions against Zimbabwean 
officials who continue to thwart democracy and undermine the rule of 
law.'' Last July, China and Russia vetoed a U.S.-sponsored UNC 
resolution proposing sanctions against Robert Mugabe and thirteen 
officials. Some of Zimbabwe's neighbors, including South Africa, have 
also opted against a forceful response to the political violence. While 
the international community temporizes, conditions in Zimbabwe continue 
to deteriorate. The power-sharing deal negotiated in September has 
stalled with the United States and Britain now saying that Mugabe must 
go. What steps should the United States take to rally meaningful 
international pressure against Mugabe at the U.N. and through 
influential regional organizations?

    Answer. Zimbabwe continues to be gripped by a man-made catastrophe 
that has all but destroyed the country economically and politically. 
President Mugabe lost the election last March and has no legitimate 
claim to power. But he continues to rule the country through violence, 
intimidation, and corruption. The spill-over effects of Zimbabwe's 
crisis have long been apparent in the vast numbers of desperate 
citizens pouring across Zimbabwe's borders, and the potential of this 
implosion to affect the region has been made plain most recently and 
tragically by a cholera outbreak.
    We must continue to speak the truth about Zimbabwe, and to support 
those in the region and elsewhere who do the same. The inaction at U.N. 
on the matter of Zimbabwe illustrates the reality that the U.N. is only 
as strong and capable as its member states. More needs to be done. 
Widened U.S. sanctions are appropriate. It was the right policy to have 
supported a U.N. Security Council resolution calling for targeted 
sanctions and an arms embargo. The United States should continue to 
work diplomatically at the U.N., the AU, and SADC not only to encourage 
more multilateral pressure on the Mugabe regime, including an arms 
embargo and greater participation in a regime of targeted sanctions, 
but also to ensure that humanitarian assistance is available to 
suffering Zimbabweans and to plan for a well-coordinated recovery 
effort once sound governance is in place in Harare.


    Question.  The U.N. is reportedly considering a new approach in 
Burma given that existing strategies have not led Burma's generals to 
ease their repression. U.N. special envoy Ibrahim Gambari has allegedly 
proposed that member countries offer Burma financial incentives to 
release political prisoners and open the country to democratic reform. 
Critics consider such a strategy to be a desperate attempt to salvage a 
deteriorating diplomatic process. What are your views on this 
reportedly new U.N. approach?

    Answer. I have not seen the specific strategy U.N. Special Envoy 
Gambari outlined in a confidential paper he presented last month to 
U.N. Secretary General Ban Ki-moon. Based on press reports, it is my 
understanding that Mr. Gambari proposes building on the relations Burma 
established with the outside world after Cyclone Nargis struck the 
country in May. He also reportedly calls for an increase in development 
assistance to Burma and proposes that wealthy countries expand the 
nation's access to foreign investment. If confirmed, I will examine 
this proposal closely.
    Burma, and its reclusive and repressive regime, may represent one 
of the most intractable challenges for the global community. While I 
strongly believe that democratic reforms and freedoms must come to 
Burma, it is far from clear that financial incentives such as 
development aid and foreign investment will provide the leverage 
necessary to force the Burmese government to change.
    This is as much, if not more, a challenge for key regional 
countries particularly China, India, Russia and the ASEAN countries, 
several of whom sit on the U.N. Security Council and have in the past 
limited the U.N.'s ability to do more. I believe that there is scope 
for greater regional and international action to pressure Burma's 
dictators, including by ASEAN countries.
    I do agree with Mr. Gambari who believes in urging countries with 
influence over Burma, especially China and India, to lean on the 
Burmese government to release political prisoners and to provide a 
political opening for the opposition in upcoming elections.
    If confirmed, I look forward to working with the Committee and 
other interested Members to develop initiatives and strategies to 
address the situation in Burma.


    Question.  President-elect Obama has said the United States should 
support the implementation of UNC resolutions that reinforce Lebanon's 
sovereignty, in particular resolution 1701 banning provision of arms to 
Hezbollah, which is violated by Iran and Syria. What steps would you 
take, if confirmed, to support the implementation of applicable UNC 
resolutions with respect to Lebanon?

    Answer. President-elect Obama is committed to implementing U.N. 
Security Council Resolutions that reinforce Lebanon's sovereignty. 
Syria and Iran are in flagrant violation of Resolution 1701, as they 
continue to supply advanced weaponry to Hezbollah in Lebanon, which 
undermines Lebanese sovereignty and threatens to drag the region into 
another round of violence. We need to work with our partners on the 
Security Council to consider additional measures to toughen penalties 
for violators, and strengthen enforcement tools. Additionally, the 
United States and others should work to strengthen the institutions of 
the Lebanese government to help it exercise its sovereignty throughout 
the country.


    Question.  The Secretary General of the U.N., Ban Ki-Moon, recently 
announced that the Special Tribunal for Lebanon, which was established 
by the U.N. to try suspects in the assassinations of former Lebanese 
Prime Minister Rafiq Hariri and other Lebanese politicians, would begin 
operations on March 1, 2009. What role do you see for the United States 
in supporting the work of the tribunal? How much funding has been 
pledged and how much has been received? How much funding has the United 
States provided to date?

    Answer. I am encouraged to see that the Tribunal will officially 
begin operations on March 1st, but as the head prosecutor recently 
stated, it is unclear when the Tribunal will bring indictments. The 
Security Council established various safeguards to ensure an objective 
and expeditious judicial process. First, it includes provisions on 
enhanced powers, so the Tribunal may take independent measures prevent 
unreasonable delays. Second, it mandated a transparent appointment 
process of international officials, including the judges and 
prosecutor. Third, it includes provisions on the rights of victims to 
present their views. The Security Council explicitly requested that the 
Tribunal be based on ``the highest international standards of criminal 
justice,'' and I will work with our international allies to ensure this 
pledge is fulfilled. The Tribunal has sufficient funding, approximately 
$51 million, for its first year of operation, and additional funds will 
need to be raised for years two and three.


    Question.  President-elect Obama has said that the United States 
should cooperate with the International Criminal Court (ICC) on many 
activities. He has not, however, indicated that he will sign the Rome 
Treaty and join the ICC. Questions linger over the scope of the ICC's 
activities and, in particular, whether U.S. service members would have 
the necessary legal protections given their disproportionate burden in 
preserving international peace and security. What concerns, if any, 
need to be resolved before the administration would consider supporting 
ratification of the Rome Statute?

    Answer. The President-elect believes strongly that it is in the 
U.S. national interest to have effective mechanisms of international 
justice. Now that the ICC has been operational for some years, we are 
learning more about how the ICC functions. Thus far, the ICC has acted 
with professionalism and fairness, pursing perpetrators of truly 
serious crimes, like genocide in Darfur, and atrocities in the Congo 
and Uganda.
    The President-elect intends for the United States to continue to 
support the ICC's investigations of perpetrators of genocide in Darfur 
and, working with our allies, to shape the court. The United States 
will be a leader in bringing war criminals to justice, consistent with 
U.S. policy interests and with U.S. law.
    The United States has more troops deployed overseas than any 
nation. As commander in chief, the President-elect will want to make 
sure that they have maximum protection. We intend to consult thoroughly 
with military commanders and other experts, and examine full track 
record of the ICC, before reaching a decision on joining the ICC.
    How we move forward from here is a key issue that the President-
elect and his national security team will address--and, if confirmed, I 
look forward to participating in those discussions. And a very 
important element of this evaluation will be engaging with, and 
understanding the views of, Congress, particularly this Committee.


    Question.  Many members are pushing for a renewed focus, led by the 
United States, on achieving the U.N. Millennium Development Goals 
(MDGs). At the same time, there is broad acknowledgement that 
fulfilling the MDGs by the stated timeframe of 2015 is becoming 
increasingly difficult, especially given the global financial 
environment. How should we approach the MDGs? Should they become an 
integral part of the U.S. development platform? Do we need to revise 
their timeframe? What role can they play for U.S. policy?

    Answer. The President-elect has made clear that the United States 
will embrace the Millennium Development Goals, which provide a 
framework for global action on economic empowerment and advancing human 
well-being. They imbed important concepts such as private-public 
partnerships in global development strategies. Last September, a mix of 
public and private donors pledged $16 billion towards meeting the MDGs.
    The President-elect has articulated goals that are consistent with 
the global effort to meet the MDGS including ending malaria deaths by 
2015 and closing the gap in primary education. Some development efforts 
need funding, but some need sound organization and international 
commitment by many countries, not just the U.S.
    The administration must be mindful of today's harsh economic 
realities, but should be creative in pursuing worthy goals in a time of 
budget constraints.


    Question.  In 2006, a high-level panel convened by former U.N. 
Secretary General Kofi Annan issued a report providing reform 
recommendations for development, humanitarian assistance and the 
environment. Which of these reforms do you feel are the most important 
to prioritize? Do you feel progress has been made towards some of the 
reforms laid out in the report? What do you consider to be the 
appropriate U.N. role in development and humanitarian assistance?

    Answer. In the development and humanitarian assistance realm, some 
progress has been made in streamlining U.N. missions. This initiative 
appears to have reduced duplication and reinforced the importance of 
national ownership and leadership ``One U.N.'' programs have been 
consolidated in such countries as Albania, Pakistan, and Rwanda.
    The effective administration of humanitarian and development aid is 
an important priority of the Obama administration, and we will study 
the lessons learned and continuing concerns within the U.N. Along with 
bilateral donors, the U.N. has an essential role to play in emergency 
and long-term development situations, and, in consultation with 
Congress, I look forward to developing and advancing constructive 
proposals for further reform. I applaud the panel's recommendation to 
the SG that he commission an independent assessment of international 
environmental governance within the U.N. system and hope that this can 
be undertaken. Working with our allies to forge an international 
agreement on climate change is a matter of great strategic urgency and 
import.


    Question.  The inability or failure of the U.N. to take, and/or 
authorize, whatever action may be necessary in natural or man-made 
disasters has raised questions about the degree to which it can respond 
to developments that may require immediate action. What do you see as 
the major successes and weaknesses of the U.N. response in humanitarian 
assistance? What can be done to improve these capabilities?

    Answer. In general, the United Nations and its agencies--UNHCR, the 
World Food Program, UNCEF and many others--respond effectively to 
humanitarian emergencies caused by natural hazards and man-made 
conflict, though there are several areas for improvement. Over the past 
decade or so, the U.N.'s Office for the Coordination of Humanitarian 
Affairs has enhanced its capacity to coordinate rapid responses to 
emergencies. OCHA's management of flash appeals, as well as the Central 
Emergency Response Fund, has been important in promoting coherence in 
humanitarian response. Moreover, in recent years, the U.N. has 
implemented the so-called ``cluster approach'' to humanitarian 
assistance, in which specific agencies have standing responsibilities 
for functional areas (such as health and shelter) in the case of 
humanitarian emergencies. To be sure, the cluster approach is still a 
work in progress, but this kind of coordination effort is a step in the 
right direction. Finally, the existence of U.N. country teams 
throughout regions that are prone to disasters has further enhanced 
response capabilities. There are several areas for possible 
improvement; allow me to mention three:
    First, the U.N., other international organizations, and member 
states must increase the focus on disaster risk reduction, by 
supporting efforts to build national and local government capabilities 
in this critical area. We have witnessed an increase in death and 
destruction from natural hazards in recent years, caused largely by 
environmental degradation, poverty, urban growth, conflict and 
migration of populations to coastal areas. And while the 2004 Asian 
tsunami helped to put risk reduction on the agenda, much more needs to 
be done. We must ensure that an adequate share of humanitarian 
assistance monies are devoted to risk reduction, and must also 
encourage disaster prevention and mitigation in development planning, 
including through incentives for insurance, strong building codes and 
community education.
    Second, progress in international disaster response has not been 
matched by the effective management of the transition between relief 
and development. Supporting more effective and better resourced 
transition assistance--through UNP, through the Peacebuilding 
Commission, or other mechanisms--is a critical objective, and one to 
which I will be strongly committed.
    Third, and perhaps most importantly, we must remember that delivery 
of humanitarian assistance and recovery and reconstruction efforts are 
most effective when there is a modicum of political stability. This 
means that our commitment to improve the U.N.'s capacity to deliver 
humanitarian assistance must be matched by a commitment to strengthen 
the conflict prevention and mediation functions of the organization.


    Question.  What is your assessment of the U.N. Central Emergency 
Response Fund (CERF)? What is the status of U.S. contributions already 
pledged to the CERF? How do you assess decision-making regarding the 
use of funds? Have they been effective? Has there been adequate 
transparency and oversight? How would you assess the U.S. government's 
ability to help coordinate humanitarian efforts through this kind of 
mechanism? Should the United States take a lead role in its further 
development?

    Answer. The CERF has received contributions from more than 55 
donors and has exceeded the $1 billion mark in pledges. While the U.S. 
financial contribution to the Central Emergency Response Fund is 
relatively modest ($15 million to date), it has supported the CERF's 
creation and continuing development. The CERF serves as a timely and 
flexible mechanism for funding international aid organizations when 
global emergencies strike. The CERF has been effective in two main 
ways: it facilitates the quick mobilization of funds for U.N. agencies' 
rapid response to sudden onset disasters, and it assists in directing 
funds to interventions linked to long-term complex emergencies.
    In 2007, USAID participated on the CERF Advisory Board and may do 
so again in the future. Whether the United States will increase its 
contribution will depend on the Obama administration's review of U.S 
humanitarian assistance, where the U.S. remains the world's largest 
donor through its contributions to WFP and UNCR.


    Question.  What do you see as the U.N. High Commissioner for 
Refugees' major successes and weaknesses? What do you see as the major 
weaknesses of the overall U.N. response in the area of refugee and 
internally displaced person assistance?

    Answer. The United Nations High Commission for Refugees operates in 
challenging environments and performs critical work to aid vulnerable 
refugees. The U.S. has traditionally been-and will continue to be-a 
strong partner of the organization. UNCR has recently undertaken 
various structural and management reforms with the goals of increasing 
the efficiency and improving the services of the organization. I 
support these goals, and I believe that UNCR has done important work in 
such areas as seeking to increase its protection efforts on behalf of 
stateless persons and working to increase access to third-country 
resettlement. All member States need to work with UNCR to build on the 
organization's strengths and continue to improve the organization's 
efficiency. If confirmed, I would work to have a productive dialogue on 
these issues with High Commissioner Ant"nio Guterres.


    Question.  What role should the U.N. play in combating violence 
against women overseas? What steps has the United States taken to 
address this issue at the U.N.?

    Answer. The U.N. should play an important role to elevate the issue 
of violence against women in order to encourage countries to combat 
these horrific abuses. The U.N. can provide a powerful voice and a 
unique forum in this regard, and there have been recent developments in 
this regard. Last spring, the U.N. Secretary-General commenced a 
campaign with the aim of mobilizing public opinion to ensure that 
senior policy makers work to prevent and eradicate violence against 
women. Violence against women has come up repeatedly as a topic at the 
U.N. General Assembly (UNGA), Commission on the Status of Women (CSW), 
Human Rights Council (HRC), and Security Council. U.N. resolutions, 
formal debates, and side events have focused on violence against women 
in general and during armed conflict, as well as specific forms of 
violence including female genital mutilation, honour crimes, and the 
spread of HIV/AIDS among women and girls because of sexual violence. 
And, the U.N. has an official policy of zero tolerance of sexual 
exploitation and abuse by peacekeeping personnel and has taken measures 
to prevent such abuse.
    The United States has and will continue to assume a leadership 
position across the venues and mechanisms at the U.N. The Obama 
administration will look actively for opportunities to ensure a 
sustained focus on combating violence against women, including by 
building on U.N. Security Council resolution 1820, which emphasized the 
integral importance of this issue, including as it relates to 
international peace and security.

                               __________

           Responses to Questions Submitted to Susan E. Rice 
                      by Senator Richard G. Lugar

Osama Bin Laden/Sudan
    Question. Please comment on various articles in the press that 
suggest that, during your time in the Clinton administration, the 
government of Sudan offered to provide the U.S. with information 
regarding Bin Laden. Were there in fact such offers and, if so, what 
was the Clinton administration's response?

    Answer. No. This is a false suggestion, and there is no truth to 
it. The Clinton administration, including and up to the cabinet level, 
regularly met with officials from the government of Sudan. At no time 
was there an offer for documents or information, nor were documents or 
information provided. The 9/11 Commission investigated this allegation, 
which originated with the Sudanese and those sympathetic to the 
Sudanese. The Congressional investigation of the 9/11 attack did the 
same. Both concluded there is no basis for this allegation.
Sierra Leone in the 1990s
    Question. Please explain your comment in a November 21, 2001, 
interview with Charles Cobb of AllAfrica.com, regarding press 
criticisms of the Clinton administration's handling of Sierra Leone.


          Q: The other region for which there has been specific 
        criticism of the Clinton administration is Sierra Leone in West 
        Africa. You're familiar with that New Republic article that 
        came out a year or so ago.

          A: I think there was more than one, and they were 
        distinguished by being a pack of lies, most of them.


    Answer. My comments reflected my view that this article did not 
accurately represent the facts on the ground in Sierra Leone and the 
context within which decisions were made. The Lome Agreement was the 
result of regional peace negotiations sponsored by the Economic 
Community of West African States (ECOWAS) and received broad 
international support, including from the U.N. and the Organization of 
African Unity. The accord is emblematic of the difficult task of 
balancing lasting peace and security with accountability and justice in 
post-conflict situations.
Rwandan Genocide
    Question. Based on the quote below from the September 2001 Atlantic 
Monthly magazine, please comment on what lessons and conclusions you 
drew from the events in Rwanda in 1994, as well as how you believe the 
United States and the international community could have acted 
differently.
    There was such a huge disconnect between the logic of each of the 
decisions we took along the way during the genocide and the moral 
consequences of the decisions taken collectively. I swore to myself 
that if I ever faced such a crisis again, I would come down on the side 
of dramatic action, going down in flames if that was required.''

    Answer. In December 1994, I went to Rwanda, and saw firsthand what 
happens when the international community fails to act to prevent 
genocide. I will never forget the horror I witnessed.
    I believe that our nation and the international community have a 
strong security interest and a moral obligation to work to prevent 
genocide. If we stand by in the face of genocide, we are all 
diminished. At the same time, we are not going to be able to be 
everywhere all the time. That's why it's so important for us to be able 
to work in concert with other nations and to strengthen multinational 
and international capacities both to prevent and, if that fails, 
respond to halt genocide.
    In retrospect, I believe that the failure to prevent genocide in 
Rwanda came less from a considered decision not to act, but more from a 
failure to seriously contemplate the question about whether action 
should be taken. The United States had just removed remaining forces 
from Somalia. It's possible that our experience in Somalia narrowed our 
collective capacity to contemplate robust action in Rwanda.
    I was a director at the NSC during the Rwandan genocide. My 
responsibilities were the U.N. and peacekeeping. In that position, I 
was not involved in high-level decision-making, but I did learn 
valuable lessons that I carry with me today: the importance of having 
accurate information about what is happening on the ground so a move 
toward genocide isn't misconstrued as a spasm of violence; the 
importance of engaging before a situation becomes a crisis; the 
importance of the United States and the international community having 
a reliable process for assessing risk and providing early warning; and 
the importance of direct action to prevent or halt genocide. That 
direct action can take many forms. I do not believe that the United 
States can and should intervene directly in every situation but we 
should take no option off the table. Our power as a nation can be 
deployed in many ways--through our leadership at the United Nations, 
through our work with other multilateral organizations, and through our 
work with allies and other nations to intervene to prevent, and if that 
fails, to halt genocide.
    President-elect Obama is committed to strengthening the capacity of 
the U.N. and regional organizations to prevent and respond to deadly 
violence by:


   Strengthening United Nations and regional peace operations, to help 
        bring stable peace to war-torn regions; to establish the rule 
        of law and to help prevent state failure; to address threats 
        that are not easily contained by borders and boundaries; and to 
        halt atrocities and genocide. It is essential to provide the 
        political leadership so that U.N. missions are backed by 
        workable political strategies. Our expectations of the U.N. 
        have often not been met--because obstructionist member states 
        have blocked timely action (as on Darfur and in the U.N. Human 
        Rights Council) and because corruption and management failures 
        have undermined the U.N.'s effectiveness.

   Working with other multinational actors that deploy peacekeeping 
        forces like the African Union, the European Union, the Economic 
        Community of West African States, and North Atlantic Treaty 
        Organization (NATO) to help strengthen their capacity to 
        conduct such missions.

   Strengthening the U.S. government's capacity to assess the risk of 
        conflict in developing countries, to act quickly to prevent and 
        forestall violence, and to spear-head efforts to stabilize 
        countries in the aftermath of conflict.
Somalia 1993
    Question. In 2007 you wrote that, ``Somalia's legacy in the 
American consciousness was to raise a crippling caution against the 
armed defense of human rights abroad.'' Some fifteen and a half years 
after these incidents took place; do you believe that U.S. foreign 
policy is still afflicted by a ``crippling caution?'' If this is no 
longer the case, to what do you attribute the change?

    Answer. Caution in the use of military force is entirely 
appropriate. I do believe there are occasions when human rights abuses 
abroad may require a military response--because injustice can breed 
extremely destabilizing resentment and lead to insecurity, and because 
we become less than the country we wish to be when we turn away in the 
face of genocide or other extreme abuses. The United States will 
proceed with prudence in this regard. Generally, all policies, 
including the question of human rights, evolve over time--witness the 
adoption by the world community in 2005 of the ``Responsibility to 
Protect'' concept regarding the protection of populations around the 
world.
Sudan-NATO
    In a 2007 Brookings Institution paper entitled ``The Genocide in 
Darfur: America must do more to fulfill the responsibility to protect'' 
you made a series of recommendations for U.S. policy on Darfur. As one 
of five recommendations you wrote:


          ``The United States and NATO should immediately impose and 
        enforce a no-fly zone over Darfur. This will have the immediate 
        impact of providing innocent civilians in the area with 
        protection from Sudanese Air Force attacks. It will also 
        demonstrate to the Sudanese government that the international 
        community is resolved to take tough action. To protect the no-
        fly area would require disabling or shooting down any aircraft 
        that take off in the zone. It would mean shutting down Sudanese 
        airfields in and near Darfur to all but humanitarian traffic.
          ``The administration should also signal its readiness to 
        strike Sudanese military and intelligence assets, including 
        aircraft and airfields, if the government of Sudan continues to 
        attack civilians before, during, or after the U.N.-AU force 
        deploys or if its deployment or operations are thwarted. In the 
        likely event that Khartoum reneges on its acquiescence to the 
        hybrid force or harasses the international forces as they 
        deploy, the United States must be prepared to respond quickly 
        and credibly by striking the country's high-value military and 
        intelligence targets.''


    Question. Is it the position of the Obama administration that the 
United States and NATO should immediately impose and enforce a no-fly 
zone over Darfur?

    Answer. President-elect Obama, Vice President-elect Biden, 
Secretary-designate Clinton and I have advocated the implementation of 
a no-fly zone as well as far more robust sanctions on the government of 
Sudan, both of which Congress has also endorsed. The Obama 
administration has made no final decision with respect to seeking to 
establish a no-fly zone over Darfur or on the possibility of NATO 
deployments to Darfur. I anticipate that the questions of Sudan and 
Darfur would be subject to early policy review of all steps to most 
effectively and urgently maximize protection for civilians.


    Question. Does the Obama administration believe that U.S. and NATO 
forces could play such a role without diminishing the effectiveness of 
ongoing U.S. and NATO operations in Iraq and Afghanistan?

    Answer. The Obama administration has made no final decision with 
respect to seeking to establish a no-fly zone over Darfur or on the 
possibility of NATO deployments to Darfur. I would anticipate that the 
questions of Sudan and Darfur would be subject to early policy review 
of all steps to most effectively and urgently maximize protection for 
civilians. This policy review would include consideration of the 
broader implications of policy options for Darfur, including the 
potential impact on the U.S. efforts in Iraq, Afghanistan, and 
elsewhere.


    Question. Does the Obama administration intend to seek legislation 
from Congress authorizing U.S. military action in Darfur?

    Answer. The Obama administration has made no final decision with 
respect to seeking to establish a no-fly zone over Darfur or other 
policy options for Darfur. I would anticipate that the questions of 
Sudan and Darfur would be subject to early policy review of all steps 
to most effectively and urgently maximize protection for civilians.


    Question. Does the Obama administration intend to seek a U.N. 
Security Council resolution authorizing the United States and NATO to 
impose a no-fly zone and take other military action in Darfur? Do you 
believe that the other permanent members of the Security Council will 
support such a resolution?

    Answer. The Obama administration has made no final decision with 
respect to seeking to establish a no-fly zone over Darfur. I would 
anticipate that the questions of Sudan and Darfur would be subject to 
early policy review of all steps to most effectively and urgently 
maximize protection for civilians. The U.S. will seek to build the 
maximum international support for any foreign policy strategy, 
including as it related to matters such as Darfur.


    Question. In the same article, you advocated that the United States 
should ``Couple unilateral sanctions with a sustained push for 
[additional] U.N. sanctions, daring China or Russia to veto effective 
action to halt genocide. The United States should stop allowing the 
possibility of a veto to suspend U.N. deliberations.''
    If confirmed, what specific steps would you take to gain Chinese 
and Russian support for more effective action in Darfur?

    Answer. The President-elect and I believe that it is important for 
the United States to lead in strengthening the effectiveness of the 
United Nations, in modernizing it, so that it can be more capable of 
meeting the challenges of the 21st Century. We believe that in light of 
the global challenges we face in the new century, the value and 
potential of the U.N. is as great if not more so today, than at its 
founding 60 years ago. Cooperation in the Security Council must be at 
the center of our efforts to build an effective and responsive U.N. The 
Council's capacity to effectively address key issues derives directly 
from the ability of its members to identify shared objectives and build 
pragmatic working relationships, particularly among the Security 
Council's Permanent Members. Prospects for such collaboration on the 
Council improve when there are effective, sustained, direct, and 
serious consultations and negotiations among the Council Members. This 
will be particularly true with respect to China and Russia. There are, 
and will continue to be, instances when, despite best efforts, 
effective Council action is not possible.


    Question. What effect do you believe ``daring'' other permanent 
members of the Security Council to veto measures related to Sudan will 
have on the likelihood of passing such measures and on the ability of 
the United States to gain cooperation on other matters of priority in 
the Council?

    Answer. This article expressed my personal view in 2007 in an 
academic context and does not reflect the view of the Obama 
administration. Cooperation in the Security Council must be at the 
center of our efforts to build an effective and responsive U.N. If 
confirmed, I will pursue effective, pragmatic working relationships 
with other members of the Security Council, particularly with Russia 
and China. Developing shared objectives and common strategies requires 
sustained, direct and serious dialogue. This means ensuring that other 
countries understand the objectives of the United States and that we do 
not shy from pressing our positions and challenging those of others 
when we believe they run counter to our interests and values.
Responsibility to Protect
    You have advocated greater action by the international community to 
implement the doctrine of the ``Responsibility to Protect'' which was 
endorsed at the 2005 U.N. World Summit. As endorsed by the World 
Summit, that doctrine provides, inter alia, that--


          The international community, through the United Nations, . 
        has the responsibility to use appropriate diplomatic, 
        humanitarian and other peaceful means, in accordance with 
        Chapters VI and VIII of the Charter, to help to protect 
        populations from genocide, war crimes, ethnic cleansing and 
        crimes against humanity. In this context, we are prepared to 
        take collective action, in a timely and decisive manner, 
        through the Security Council, in accordance with the Charter, 
        including Chapter VII, on a case-by-case basis and in 
        cooperation with relevant regional organizations as 
        appropriate, should peaceful means be inadequate and national 
        authorities are manifestly failing to protect their populations 
        from genocide, war crimes, ethnic cleansing and crimes against 
        humanity.


    Question. Please indicate in what countries you believe national 
authorities are currently ``manifestly failing'' to protect their 
populations from genocide, war crimes, ethnic cleansing or crimes 
against humanity. Please indicate what steps you would advocate the 
international community taking in each case, and what actions you 
intend to take in this regard at the United Nations, if confirmed.

    Answer. Action at the World Summit was an important reaffirmation 
that the international community should act to protect populations at 
risk of grave and widespread violations of human rights. The most 
prominent case that raises concerns about genocide, war crimes and 
crimes against humanity is Sudan, and the Security Council has referred 
the situation in Darfur to the International Criminal Court (ICC) for 
investigation, which the Obama administration supports. In addition, 
the United States should continue to take active measures to increase 
the capacity of the African Union-United Nations Hybrid Mission in 
Darfur, so that it can better safeguard the lives of those at risk. 
Finally, the United States and the international community must 
continue to bring strong pressure to bear on Sudanese authorities to 
put an end to atrocities. The new administration will be actively 
considering appropriate actions in the days and weeks following the 
inauguration, which could include additional measures through the 
United Nations. There are other cases around the world where genocide, 
war crimes, or crimes against humanity have merited international 
concern and action, including cases in which the authorities themselves 
have sought the assistance of the international community--and, in 
particular, the ICC--such as in Uganda, the Central African Republic 
and the Democratic Republic of the Congo. Finally, there are cases of 
grave and widespread abuses of human rights that have not been referred 
to the ICC or other tribunals, but which also should be of utmost 
concern to the United States and the international community, such as 
the human rights situations in Burma, Zimbabwe, and North Korea. In all 
such cases, the specific actions taken by the administration will vary, 
but we will remain steadfast in our overall commitment to safeguard 
human lives and bring an end to abuses of human rights.
The Evolution of Humanitarian Intervention and the Responsibility to 
        Protect
    You co-authored a chapter entitled ``The Evolution of Humanitarian 
Intervention and the Responsibility to Protect'' in a book entitled 
Beyond Preemption, (Ivo Daalder, ed., 2007). Your article contains the 
following passage:


          At present the international community has no agreed 
        normative framework for halting genocide or massive crimes 
        against humanity when the Security Council fails to do so. This 
        is the case in Darfur where international action has been 
        authorized but not implemented due to lack of resolve to deploy 
        without Sudanese agreement. The following procedures and 
        alternatives should be adopted as the international standard in 
        such instances:


   The Permanent Five members of the U.N. Security Council should 
        forswear the use of the veto to halt international intervention 
        for humanitarian reasons, unless they publicly articulate a 
        compelling case that their vital national interests are at 
        stake. This is by no means a fail-safe solution since countries 
        can claim that their vital interests are at stake, and no 
        multilateral body has the authority to rule on the validity of 
        those claims. However, it would raise the political bar, help 
        dissipate the constant but ambiguous cloud of a veto threat 
        against humanitarian interventions, open recalcitrant nations 
        to international scrutiny, and increase transparency.

   The U.N. General Assembly could be convoked in emergency session to 
        vote on ``Uniting for Peace'' action when the Security Council 
        is deadlocked.

   Decisions to support intervention by relevant or concerned regional 
        bodies should be deemed sufficient to legitimize action by 
        their members when Security Council authorization is sought but 
        not forthcoming.

   When all else fails, a member state or coalition of members may 
        intervene to save lives at their own risk and expense and seek 
        retroactive U.N. or regional support. In this instance the 
        gravity of the humanitarian crisis, the purity of humanitarian 
        motives, and the efficacy and proportionality of the military 
        action should be critical considerations in the achievement of 
        ex post facto legitimization. Member states that take such 
        action should be prepared to have their intervention formally 
        condemned and penalties assessed if it fails to meet the above 
        criteria. In addition, member states that take such action 
        should be prepared to shoulder the costs of the post-
        intervention responsibilities.''


    I have the following questions in connection with this passage:


    Question. If confirmed, would you support a policy of forswearing 
the use of the United States veto in the Security Council in some 
category of future cases involving proposals for humanitarian 
intervention?

    Answer. This article expressed my personal opinion in 2007 in an 
academic context. The Obama administration has not taken a position on 
this issue. In general, our clear preference is to obtain Security 
Council approval for an action. I believe that Security Council members 
should ensure that responsible efforts to end the killings are not 
obstructed.


    Question. If so, would such a position preclude the United States 
from vetoing a hypothetical proposal for intervention in Gaza if some 
Council members asserted that such intervention was required for 
humanitarian reasons?

    Answer. No. The United States maintains an unwavering commitment to 
Israel and will exercise its right and authority as a Permanent Member 
of the U.N. Security Council based on our national interests and 
objectives.


    Question. Are there any other categories of cases for which you 
intend, if confirmed, to announce a policy of forswearing the use of 
the United States veto in the Security Council? If so, please specify 
them.

    Answer. It is unrealistic to attempt to identify all possible 
future hypothetical scenarios in an evaluation of the use of the 
Security Council veto.


    Question. If confirmed, do you intend to advocate for an expanded 
role for the General Assembly in authorizing humanitarian interventions 
or other uses of force?

    Answer. President-elect Obama's overarching objective is to advance 
America's interests, protect our security, and ensure our prosperity. I 
believe the United States should pursue those avenues, opportunities, 
and strategies that represent the best possibility of achieving our 
national objectives. While the Security Council is the principal U.N. 
organ for matters relating to international peace and security, I would 
not rule out using the General Assembly if that is in the U.S. national 
interest. The U.S. has done so in the past when others blocked 
effective UNC action--including authorizing the Korean War.


    Question. Do you believe generally that United States interests 
would be well served by greater involvement by the General Assembly in 
matters of peace and security?

    Answer. No. Under the U.N. Charter, the U.N. Security Council is 
the U.N. entity with primary responsibility for the maintenance of 
international peace and security. I believe that this structure remains 
the most appropriate.


    Question. If confirmed, do you intend to pursue an international 
agreement on a ``normative framework for halting genocide or massive 
crimes against humanity when the Security Council fails to do so?'' Do 
you believe implementing such a framework would require amending the 
U.N. Charter?

    Answer. When genocide or other massive crimes against civilians are 
taking place, I believe that Security Council members should ensure 
that responsible efforts to end the killings are not obstructed. The 
new administration would have to consider how to translate this and 
related objectives into expressions of policy. I do not think that 
movement toward this kind of goal would require a Charter Amendment.


    Question. Do you believe that each of the other permanent members 
of the Security Council would agree with the framework proposed in the 
quoted passage? What impact do you believe pursuit of such a framework 
by the United States would have on your working relationships with your 
P-5 colleagues, and the ability of the United States to achieve P-5 
consensus on other pressing matters?

    Answer. Our clear preference is to obtain Security Council approval 
for an action because such approval enhances our ability to bring 
others along with us, shares the cost of the burdens, and increases 
legitimacy. If confirmed, I will work toward developing constructive 
and pragmatic working relationships with my U.N. Security Council 
colleagues. I would not want to speculate regarding the views of other 
Security Council member on decision that the U.S. has not taken.
United Nations--General
    Question. How will the Obama administration differentiate its 
policies toward the United Nations from those of the Bush 
administration?

    Answer. First, it is important to note that there are important 
views shared by both the outgoing Bush administration and the incoming 
Obama administration about the importance, and the valuable 
contributions, of the United Nations. As Ambassador Khalilzad indicated 
in his confirmation hearings in 2007, ``[n]o other such organization 
has been able to undertake peace enforcement actions comparable to the 
one in Korea in 1950, to lead scores of peacekeeping missions over the 
course of decades, to achieve consensus on endorsing such strong 
actions as the liberation of Kuwait in 1991 or the toppling of the 
Taliban regime in Afghanistan in 2001.'' And I agree with the current 
administration's statement, expressed by Ambassador Khalilzad, that it 
is ``vital for the United States to enable this institution to make the 
greatest possible contribution to advance those founding objectives.'' 
We will continue and deepen efforts to enhance U.N. capacity in a range 
of areas. At the same time, there will also be changes of direction. On 
many key policy issues, from climate change, to non-proliferation, to 
development issues and the role of the Millennium Development Goals, to 
human rights and the rule of law, President-elect Obama has articulated 
policy perspectives that are different from those of Bush 
administration, and our efforts in the U.N.--which serves as a critical 
forum for the development of common approaches on these and other 
issues--will reflect the new administration's perspectives and 
priorities.


    Question. What do you see as the most crucial role for the United 
Nations in the 21st century? How would you enhance U.N. effectiveness 
in that role?

    Answer. The President-elect believes the United Nations is an 
indispensable, if imperfect, global mechanism by which to advance our 
interests in combating common threats and meeting global challenges 
ranging from global terrorism to proliferation, poverty, climate 
change, and disease. These are matters that directly affect the 
security and prosperity of the United States, and they are matters that 
can be effectively resolved only by acting collectively. The United 
Nations offers an important vehicle for doing so and renewed American 
leadership will be critical to achieving progress.
    It is in our interests to make the U.N. maximally effective in this 
regard. That means not only an agenda of management reform, but also 
investing to strengthen its program capacities and effectiveness, most 
notably in the realm of peacekeeping, where we are asking the United 
Nations now to do more then ever and yet we have not aligned resources 
and capabilities with the mandates that we have given U.N. missions.


    Question. Do you believe that the Millennium Development Goals 
should be a major focus of the U.N. system?

    Answer. The United Nations system seeks to address related goals 
including international peace and security, human rights, environmental 
protection and development. The Millennium Development goals represent 
an important effort by countries around the globe to work together on 
development issues. The President-elect has made clear that the United 
States will embrace the Millennium Development Goals, which provide a 
framework for global action on economic empowerment and advancing human 
well-being. They imbed important concepts such as private-public 
partnerships in global development strategies. Advancing development 
goals is in the U.S. national interest. The President-elect has 
articulated goals consistent with the global effort to meet the MDGs 
including ending malaria deaths by 2015 and closing the gap in primary 
education.


    Question. What steps would you take to improve the standing of the 
United States in the General Assembly and decrease the frequency with 
which the majority of the General Assembly votes against the U.S. 
position?

    Answer. If confirmed, I intend to reach out to other U.N. member 
states to listen, to understand, and to appreciate different 
perspectives, even as I defend and promote U.S. interests and values. I 
will focus on building pragmatic working relationships across the full 
range of U.N. member states. I will also direct the U.S. Mission to 
approach diplomacy at the U.N. in a similar fashion so that, at all 
levels, the United States pursues its interests at the U.N. in a 
sustained and focused manner, working within the U.N. with our 
partners, friends, and allies to build a broader and deeper shared 
understanding of our common interests.
Security Council Issues
    Question. What do you believe are the most pressing matters 
currently on the agenda of the Security Council and what will be your 
highest priorities in the Council, if confirmed?

    Answer. As the worldwide body charged with addressing international 
peace and security issues, the Council has no shortage of matters that 
are very pressing, from Africa to the Middle East to South Asia. If 
confirmed, I will certainly actively attend to those issues, but also 
seek Council action in other areas where there are strong benefits to 
common approaches, such as non-proliferation and counter-terrorism. In 
terms of direct influence on peace and security issues, the Council's 
most important role may be in the authorization and monitoring of the 
nearly 20 U.N. peace operations around the world. I am concerned about 
accountability of the Council in this area, particularly ensuring that 
Council mandates in this area are matched by the resources and 
political will to realize critical policy objectives. I expect to 
devote much of my energy to this issue in the months and years to come.


    Question. What issues not currently on the Council's agenda do you 
believe merit attention by the Council?

    Answer. In recent years, the Council has expanded its focus, for 
example, by recognizing the role of HIV/AIDS on security in Africa, and 
the impact of repression in Burma on regional peace and security 
issues. I welcome this willingness to consider security issues 
expansively, and will be prepared to involve the Council in these and 
other non-traditional areas if such involvement might provide a means 
for progress.


    Question. The U.N. Security Council has, over the past several 
years, taken a number of steps to improve its work procedures, thereby 
enabling non-Council member States access to the Council and its work. 
What role has the United States played in promoting a more open, 
accessible, and transparent Council? What additional steps should be 
taken?

    Answer. The United States should play an important role in a number 
of initiatives to improve the efficiency and transparency of Security 
Council operations. The U.S. has actively participated in the informal 
working group which reviews and implements proposals for improving 
Security Council working methods. These efforts have included:


   Intensified efforts to publicize Security Council decisions and 
        other relevant Council information (reports are circulated to 
        all Council members and participants in Council meetings at 
        least 4 days prior to their consideration);

   Enhanced use of informal consultations with interested member 
        states, where appropriate. For example, the Council President 
        has facilitated interaction by inviting any participant in 
        consultations to speak at any time during meeting; and

   Reaffirmed commitment to the use of open meetings, particularly 
        during the early stages of consideration of an issue.


    If confirmed, I will pursue active consultation with a broad range 
of other member states. Promoting sustained, informal engagement with 
non-Council members can be as important as pursuing more formal 
proposals to improve this process. I will also work with the U.S. 
Mission to consider appropriate additional measures to promote greater 
Council efficiency consistent with our broader foreign policy 
objectives.


    Question. There have been a number of proposals to increase the 
size of the U.N. Security Council and to expand the number of permanent 
members of the Council.
    How do you believe U.S. interests would be affected by the 
expansion of the Council's size or by the addition of more permanent 
members?

    Answer. Long-term legitimacy of the UNC depends on it representing 
the full membership of the U.N. We recognize that the Council was 
created many years ago at a time when there were very different 
international realities and that there is a strongly felt sentiment 
among many member states that the Security Council should better 
reflect 21st century circumstances. Our administration will make a 
serious, deliberate effort, consulting with key allies and capitals, to 
find a way forward that enhances the ability of the Security Council to 
carry out its mandate and effectively meet the challenges of the new 
century. Obviously, this will not happen over night.


    Question. What factors do you believe most important in evaluating 
any such proposals?

    Answer. The administration will support expansion of the Security 
Council in ways that would not impede its effectiveness and its 
efficiency. We would also consider how to enhance the standing of the 
Council in the eyes of those nations that seek a greater voice in 
international fora.


    Question. The Bush administration supported only Japanese 
aspirations to the Council. Will the Obama administration continue this 
policy, or will it advocate for the inclusion of other countries; if 
so, which? What criteria will the Obama administration use to promote 
other nations?

    Answer. At this stage, the Obama administration has not made a 
determination about any particular configuration of SC reform.
U.N. Sanctions
    Some countries have criticized U.N. Security Council's targeted 
sanctions regimes for failing to provide sufficient due process rights 
for individuals who are targeted for sanctions. In September, the 
European Court of Justice in the Kadi case invalidated European 
Community regulations implementing UNC sanctions against al-Qaeda and 
the Taliban as applied to two individuals on the ground that the 
process for adopting the sanctions failed to respect the individuals' 
fundamental due process rights.


    Question. Do you believe the ability to employ targeted economic 
sanctions is important to the Security Council's ability to address 
threats to international peace and security? If confirmed, will you 
work to preserve the Council's ability to employ such sanctions?

    Answer. Yes. I believe that the Council must retain the ability to 
use targeted sanctions to address such threats, and I will work to 
ensure the Council's ability to do so effectively.


    Question. Do you believe the U.N. Security Council's existing 
sanctions regimes fail to provide adequate protections for the due 
process rights of targeted individuals? Do you believe that the Council 
could afford additional due process rights to targeted individuals 
without undermining the Council's ability to employ sanctions 
effectively?

    Answer. I believe that there is no incompatibility between 
sanctions regimes and appropriate due process safeguards. There will 
inevitably be challenging issues relating to implementation of 
international sanctions in a manner that is compatible with regional 
and national procedures, but those need not frustrate the intent or 
implementation of sanctions.


    Question. Do you believe that decisions by individual states not to 
implement binding sanctions adopted by the U.N. Security Council would 
serve to undermine the effectiveness of such sanctions? If confirmed, 
what steps would you take to address this issue within the United 
Nations?

    Answer. To ensure their effectiveness, binding sanctions must be 
implemented by member states, and the Council and the Secretariat 
should be prepared to press governments to meet their obligations in 
this regard. In addition, Council members and the Secretariat should 
also be prepared to provide technical assistance to governments that 
are willing to put sanctions measures in place but could benefit from 
help in doing so.
ECOSOC
    Question. The 54-member United Nations Economic and Social Council 
receives scant attention in the media, and some believe it is under-
valued by our government. What have been recent ECOSOC initiatives that 
have advanced U.S. foreign policy goals? What are the most contentious 
issues confronting the United States in ECOSOC?

    Answer. ECOSOC is the principal organ charged with coordination of 
the U.N.'s work across the full range of economic, social and related 
issues. It works under the ``broad authority'' of the GA but is the 
body to which the U.N.'s 14 specialized agencies, functional 
commissions, and 5 regional commissions relate; as do also the 11 U.N. 
Funds and Programmes. ECOSOC is responsible for formulating policy 
recommendations to member states and the U.N. System, but its principal 
authority lies in being able to initiate studies and reports, and 
prepare major international conferences and their follow-up. One of 
ECOSOC's recent reforms supported by the U.S. is the inclusion of an 
Annual Ministerial Review and a Development Cooperation Forum to put 
more focused attention on the Millennium Development Goals and related 
commitments. In the upcoming year, ECOSOC is expected to focus on the 
review of the conference on Financing for Development, the impact of 
the financial crisis on development, and climate change--all of which 
will require strong U.S. engagement to ensure successful outcomes.
U.N Budget
    Question. Some have suggested that the United Nations should be 
funded solely by voluntary contributions rather than by assessed dues. 
They argue that such a mechanism would create the financial pressures 
necessary to bring about greater budgetary and personnel reforms. Does 
the Obama administration support this approach?

    Answer. No. The United States should pay its commitments to the 
United Nations on time and in full. While voluntary contributions can 
be used to leverage reforms, I do not believe that switching to a 
solely voluntary system for funding the United Nations would be an 
effective strategy. Such an action would undercut U.S. arguments for 
burden-sharing in areas where the U.S. has strong national interests, 
such as peacekeeping, and undermine the U.N.'s ability to tackle 
pressing global challenges that require support from all 192 member 
states, such as climate change, counter-terrorism, and global health.


    Question. For several years now, Congress has consistently received 
budget requests for U.N. peacekeeping operations in the Contributions 
for International Peacekeeping Activities (CIPA) account that were 
considerably lower than known requirements. For example, In FY2007, the 
administration requested $1.135B and the CIPA requirement for that 
fiscal year was approximately $1.534B. In FY2008, the administration 
requested $1.107B and the CIPA requirement for that fiscal year was 
approximately $2.34B. Missing funding was then requested as part of 
``emergency'' supplemental funding, even though most, if not all, of 
these needs were known well in advance. Funding via supplemental 
appropriations suggests an unwillingness to acknowledge the cost of 
U.N. peacekeeping operations even though the Government Accountability 
Office has documented that such operations cost our taxpayers roughly 
one-eighth of a unilateral operation ($116 million for 14 months of the 
U.N. operation in Haiti [MINUSTAH] vice $876 million for the same 
operation if the US had gone in alone).
    Does the Obama administration intend to submit CIPA requests that 
honestly reflect our international commitments to operations approved 
by the United States in the Security Council?

    Answer. Yes. The United States should pay its dues on time and in 
full. The Obama administration intends to submit funding requests to 
Congress that represent the most accurate expectation of our financial 
commitments to the United Nations. If confirmed, I look forward to 
working with Congress and this Committee to help ensure that the U.S. 
pays its U.N. dues on time and in full.


    Question. One of the biggest complaints about the United States at 
the United Nations is our failure to pay our Regular Budget dues on 
time. This is a result of a 1980s decision to shift our payments from 
the start of the U.N.'s fiscal year, which starts in January, to our 
own. As a result, and in part because of Congressional difficulty in 
passing budgets in a timely manner, our payments to the United Nations 
are often delayed till late December and sometimes not fully funded 
till the following fiscal year. As such, any attempts by our diplomats 
in New York to push for greater U.N. fiscal discipline are encumbered 
as other member states point to our own fiscal difficulties in meeting 
our obligations.
    Will the Obama administration seek to re-synchronize our payments 
over time to end this cycle? Does the Obama administration intend to 
request sufficient resources from the Congress to do so?

    Answer. Yes. It is the intent of the Obama administration to work 
to address this payment issue, within the financial constraints of our 
budget. We are actively reviewing this issue now to develop a strategy 
to resolve this issue. If confirmed, I look forward to working with 
Congress and this Committee this and other matters regarding U.S. dues 
to the United Nations.


    Question. Are there any specific steps you believe the United 
Nations should take to reduce the overall size of the U.N. peacekeeping 
budget? If so, what are they?

    Answer. Over the last several years, U.N. peacekeeping has seen its 
greatest growth both in numbers and scales. A large portion of the 
U.N.'s budget is devoted to peacekeeping. It will be important that, as 
peacekeeping mandates come up for renewal, we appropriately scrutinize 
the objectives, mandate, and deployment of these peacekeeping forces. 
Any new peacekeeping mandate must also be evaluated to ensure that the 
U.N. has the capacity and resources to fulfill the added 
responsibility.


    Question. Are there any specific U.N. peacekeeping missions that 
you believe should be downsized or terminated to reduce the costs of 
U.N. peacekeeping?

    Answer. The administration will review each peacekeeping operation 
as it comes up for renewal at the Security Council. The administration 
does not have a position about reducing supporting or terminating 
specific peacekeeping operations at this time.


    Question. U.N. General Assembly resolution 58/318 provides that the 
United Nations must be fully reimbursed for the costs of any services 
facilities, cooperation and any other support rendered by the United 
Nations to the International Criminal Court or the Assembly of States 
Parties to the Rome Statute of the International Criminal Court. If 
confirmed, will you work to ensure that this reimbursement requirement 
is fully implemented and that the United Nations provides transparency 
to member states about the assistance it provides and the 
reimbursements it receives?

    Answer. The United Nations and the International Criminal Court are 
two separate and independent institutions. As a non-party to the 
International Criminal Court, the U.S. should continue to press for 
reimbursements for costs associated with the ICC and the Assembly of 
States Parties, as well as transparency regarding any U.N. assistance. 
At the same time, we should maintain the flexibility so that 
requirements for reimbursements do not undercut ICC activities that are 
in our national interests, supported by the U.S., and endorsed by the 
Security Council, such as the ICC's ongoing investigations regarding 
genocide in Darfur.


    Question. Some in Congress believe that the only way to enact 
needed reforms at the United Nations is to enact legislation that links 
U.S. dues to various conditions or benchmarks. Does the Obama 
administration support this approach?

    Answer. No. The U.S. should not, as a general practice, condition 
its dues to the U.N. on specific reforms. The United States should pay 
its dues on time and in full. The U.S. is calling on the U.N. every day 
to undertake tasks that we want to see performed but do not wish to or 
cannot perform ourselves. When the U.S. is a nation that does not pay 
its bills, we undermine our credibility to call on other nations to 
meet their obligations. We undermine our ability to build support from 
other Member states to achieve needed changes at the U.N. We also 
deprive the institution of resources it needs to function effectively.


    Question. On December 24, 2008, the General Assembly approved an 
almost 17 percent increase in the current United Nations budget for the 
2008/2009 period to $4.87 billion from $4.17 billion, including nearly 
$500 million for the next six months for peacekeeping operations in 
Sudan's war-ravaged Darfur region. What is the impact of this action on 
our own contributions? Is the increase in funding covered in the 
current FY09 budget request; if not where will the money come from?

    Answer. Current U.S. legislation caps the U.S. peacekeeping 
contribution at 25 percent. Of the $500 million for peacekeeping 
operations in Darfur, the U.S. would be accessed $125 million. I 
understand that the existing FY 2009 budget request by the Bush 
administration falls short for the operations anticipated in 2008. The 
Obama administration will examine the FY 2010 budget closely but will 
also consider other emergency funding vehicles should UNMID require 
urgent assistance.
Human Rights
    Question. In 1994, the United States strongly supported 
establishment of a U.N. High Commissioner for Human Rights. How 
effective has the High Commissioner been in ensuring that human rights 
considerations are included in U.N. activities? Specifically what has 
the Commissioner done to further human rights? Does the Commissioner 
have the resources--financing, staffing, political clout -to carry out 
her duties?

    Answer. Since its creation, the Office of the High Commissioner for 
Human Rights (OHCHR) has advocated to provide greater integration of 
human rights into U.N. peace, security, and humanitarian activities. 
Its effectiveness has varied depending on the particular issue or 
country. Important aspects of this work include engagement with the 
Secretary-General, his Special Representatives, the U.N.'s Resident and 
Humanitarian Coordinators in the field, and the various U.N. human 
rights treaty bodies. Furthermore, OHCHR works with governments, 
national institutions, and civil society groups to strengthen capacity 
at the national level for the protection of human rights in accordance 
with international norms. While OHCHR relies heavily on voluntary 
funding--of which, the United States is a major donor--world leaders in 
2005 agreed to double its regular budget over a five-year period. This 
has allowed OHCHR to increase its field presence and improve its 
capacity to deploy human rights monitors on short notice. The High 
Commissioner's ability to carry out her mandate relies heavily on the 
cooperation of member states. To that end, the United States has 
repeatedly supported OHCHR's work to identify, highlight, and respond 
to today's human rights challenges.
Democracy Fund
    Question. In his September 2004 speech at the United Nations 
President Bush called for the establishment of a Democracy Fund at the 
United Nations. To date, some thirty-five nations have contributed more 
than $91 million, including $25 million by the United States. What have 
been the Fund's most successful efforts and what have been its greatest 
challenges? Does the Obama administration believe the Fund 
appropriately and effectively funds relevant projects, and if so, does 
it intend to seek further appropriations in FY2010?

    Answer. The U.S. has a deep interest in effective efforts to 
promote democracy worldwide. The U.N. Democracy Fund (UNDEF) is one of 
the principle ways that the U.N. supports democracy internationally. 
UNEF has helped highlight the importance of democracy to the mission of 
the U.N. If confirmed, I would review the work of UNEF as part of 
preparing recommendations for the FY2010 budget request. The Obama 
administration will work with international institutions and NGOs to 
ensure that not simply money but expertise is available to transitional 
societies in the time of their greatest promise, but also often their 
greatest vulnerability.
U.N. Peacebuilding Commission
    Question. Please provide your assessment of the Peacebuilding 
Commission's work to date. How does the Commission's work differ from 
UNP's traditional programming? According to U.N. documents, some 40 
nations have contributed $250 million to the fund. The United States 
has apparently not contributed to the Commission. Will the Obama 
administration reverse this trend?

    Answer. The United States is a member of the U.N. Peacebuilding 
Commission and supports its work-as well as the work of Assistant-
Secretary-General Jane Holl Lute. The U.N. Peacebuilding Commission 
(PBC) is an important pillar of U.N. reform that will enhance the 
U.N.'s capacity to address post-conflict stability, reconstruction, and 
governance challenges. The issue of a U.S. contribution to the 
Peacebuilding Fund is part of a larger discussion that will take place 
with respect to budget matters and funding priorities. As a general 
matter, the U.S. maximizes its influence and leverage when it leads by 
example.
Peacekeeping
    Question. As the Darfur peacekeeping mission (UNAMID) demonstrates, 
there are limits to the number of troops that nations are willing to 
send to dangerous and challenging locales. Do you believe that the 
member states of the United Nations fully appreciate the finite 
capacity of the world's militaries and the current financial 
limitations resulting from the global economic downturn? How will these 
realities impact your decisions regarding any future peacekeeping 
operations? Do you believe that there will now be greater pressure to 
close long-running operations in order to fund newer, more pressing 
needs?

    Answer. The ability of member states to provide sufficient 
resources is and will remain a key factor in the effectiveness of U.N. 
peacekeeping operations, especially at a time when the world is levying 
more requirements and mandates on the U.N. than ever before. This issue 
will figure directly in my consultations with other member states, if I 
am confirmed, as new mandates and renewal of existing mandates are 
considered. The U.S. also needs to sure that all member states, 
including the United States, meet their commitments to provide the 
needed resources to support U.N. peacekeeping operations.


    Question. A recent joint operation of the U.N. peacekeepers in 
Haiti (MINUSTAH) and the Haitian National Police broke up a major drug 
smuggling operation in the country. This is the first time that 
MINUSTAH has carried out a special operation of this magnitude. Does 
the Obama administration support a permanent expanded role for MINUSTAH 
in Haiti that includes drug interdiction activities?

    Answer. Ensuring security from violence, drugs, gang activity, and 
organized crime in Latin America and the Caribbean is critical for 
long-term peace and stability in the region. Haiti is a fragile country 
with a history of political instability. The United Nations 
peacekeeping mission is helping to achieve Haiti's security. The 
continued presence of the U.N. peacekeeping force (MINUSTAH) is 
essential to assure adequate security for reconstruction and 
development programs. MINUSTAH can help create conditions that reduce 
drug smuggling and gang violence in Haiti. The peacekeeping force 
provides police training and assists with maritime and border patrol 
activities as well as humanitarian relief and development work. The 
Obama administration would want to be sure that MINUSTAH is able to 
carry out its range of missions. The U.N. and the international 
community can help improve Haiti's economic prospects over the long-
term by providing more technical assistance and job training. And we 
must always be clear and consistent in supporting freedom and 
democracy. The U.N., U.S., and the entire international community have 
a responsibility to continue helping Haiti along a path to a better 
future.


    Question. Do you believe the consent of the parties is a necessary 
precondition to effective peacekeeping? Do you believe there are 
situations where U.N. peacekeepers should be authorized to deploy to a 
country without the consent of the host government?

    Answer. There are many different kinds of peacekeeping operations. 
The simplest and preferred circumstance is when the parties consent to 
the deployment of the peacekeeping mission. But there are times when 
the Security Council must consider authorizing the use of force under 
Chapter VII of the U.N. charter when the parties do not consent or 
oppose outside intervention, and civilians are at grave risk. One thing 
we can no longer tolerate, however, is a circumstance such as in Sudan, 
when the government, in an effort to block full deployment of the 
African Union-U.N. mission, picks and chooses which troop contributions 
it is prepared to accept.


    Question. The Bush administration has advocated the establishment 
of a U.N. peacekeeping mission in Somalia. Do you support this idea? If 
so, what do you believe the appropriate size and mandate for such a 
mission would be? Given the inability of the U.N. to staff fully the 
troops for the mission in Darfur, what confidence do we have that there 
are additional troops available for this mission?

    Answer. This issue is very important and complicated, and there are 
no good solutions. It is not clear that a U.N. peacekeeping operation 
can address the problems in Somalia, and we will need to consider very 
carefully the risks and benefits of any potential U.N. mission before 
authorizing its deployment.


    Question. Some argue that the peacekeeping operation in Morocco 
that began in 1991--the United Nations Mission for the Referendum in 
Western Sahara (MINURSO)-- has allowed both the POLISARIO and the 
government in Rabat to avoid the difficult political choices required 
to bring this conflict to a close. Others believe that the costs of the 
operation, though minor by comparison to operations in DRC and Sudan, 
are disproportionate to the benefits of the mission. Does the Obama 
administration support a continuation of MINURSO?

    Answer. MINURSO has helped maintain the ceasefire between the 
Government of Morocco and the Frente POLISARIO. The Obama 
administration will support efforts that could lead to peaceful 
resolutions of conflict. The administration will examine U.N. 
peacekeeping operations, including MINURSO, closely when considering 
mandate renewals.
Reform
    Question. On December 31, 2008, the United Nations Procurement Task 
Force expired when the General Assembly refused to extend its mandate. 
According to press reports in the Washington Post and Wall Street 
Journal, Russian diplomats also attempted to ban for three years any 
member of the Task Force from further U.N employment, apparently in 
retribution for other, un-related, U.N. investigations into corrupt 
Russian U.N. officials. There has even been speculation that the 
Secretary General is seeking to bring the investigative portion of U.N. 
Office for Internal Oversight Services (OIOS) directly under his 
office. Would the Obama administration support any attempts to either 
reduce the staffing or responsibilities of the OIOS? Would the 
administration oppose any attempts to bring any portion of the OIOS 
under the direct responsibility of the Secretary General?

    Answer. The United States strongly supports the independent 
authority of an OIOS that is fully staffed and retains its robust 
mandate. A stronger and more effective U.N. requires a greater focus on 
accountability and transparency. It is essential that OIOS have the 
capacity to undertake professional investigations. We will evaluate any 
proposals regarding OIOS based on these principles.


    Question. Please provide for the Committee a list of all companies, 
and the country where they are headquartered, that the Procurement 
Taskforce added to the U.N.'s ``Watch List'' of companies who can no 
longer do business with the U.N. What percentage of these companies are 
from G-8 nations and what percentage are from G-77 countries? Are all 
the other entities within the U.N. system bound by the List? If not, 
which are exempt and why? Please list all known cases of other U.N. 
entities signing contracts with or using List companies.

    Answer. A number of companies have been suspended from working with 
the U.N. due to the investigations into contracting irregularities. The 
U.N. maintains this list of suspended companies internally and, while 
the list is circulated among all U.N. entities, it is not a public 
document and is also not shared with member states.
    The list of vendors that are barred from conducting business (the 
so-called ``watch list'') is maintained by the U.N. Procurement 
Division, which shares this list with the principal and subsidiary 
bodies of the U.N., including the Funds and Programs (e.g., United 
Nations Development Program and United Nations Children's Fund). The 
procurement division also oversees the United Nations Global 
Marketplace, which is the primary mechanism through which the U.N., 
including the Specialized Agencies, conducts procurement activity. 
There is a single roster for approved Global Marketplace suppliers, 
from which ``watch list'' companies are precluded.


    Question. What conclusions have you drawn from the Oil-for-Food 
scandal that allowed corrupt U.N. and Iraqi officials to siphon off 
millions of dollars intended for humanitarian aid for the Iraqi people? 
What role did the United States play in allowing many of these 
contracts to be approved? Do you believe the United Nations fully 
appreciates the damage to the institution the scandal caused?

    Answer. The Oil-for-Food scandal underscored the need for 
institutional reform in the U.N. system to ensure greater transparency 
and accountability. In the aftermath of the scandal, the United States 
vigorously supported the U.N. Oil-for-Food investigation led by Paul 
Volcker and the subsequent criminal prosecution of both individuals and 
corporations. These investigations and prosecutions served as a wake up 
call across the U.N. system and prompted more robust efforts to address 
corruption and mismanagement. In 2007, the United States launched its 
United Nations Transparency and Accountability Initiative (UNTAI) in 
New York and throughout the larger U.N. system to address widespread 
management weaknesses. If I am confirmed, I intend to pursue 
improvements to U.N. transparency, oversight, effectiveness, and 
efficiency with a clear focus and purpose, and I look forward to 
working with this Committee on these important issues.


    Question. Sexual exploitation by U.N. peacekeepers and officials 
remains a stain on the U.N.'s reputation. What actions have been taken 
to combat this? Are they sufficient, and if not, what more can be done 
to prosecute the guilty and prevent future cases? How many peacekeepers 
and U.N. officials have been punished, from which missions? Which 
nations have been particularly helpful in addressing this important 
matter?

    Answer. These abuses are totally reprehensible and unacceptable. 
These scandals strike at the heart of the purpose and value of the 
United Nations. I believe the U.N.'s top leaders understand the 
magnitude of this threat. They are right to adopt a policy of zero 
tolerance. A range of steps have been taken, including disciplinary 
measures, a new model Memorandum of Understanding between the U.N. and 
troop-contributing countries covering standards, and the waiving of 
immunity, but more needs to be done. As a woman and a mother, I take 
this issue personally and will follow it closely, if confirmed. Unless 
we make every effort to end this problem, the legitimacy and 
credibility of the United Nations in the eyes of the very peoples that 
the U.N. is supposed to protect will erode dangerously.
    I understand that between January 1 and November 30, 2008 there 
were 71 allegations of sexual misconduct made against U.N. peacekeeping 
personnel. I also understand that the U.N. has limited ability to 
follow-up on cases once personnel have been repatriated. The United 
States has also followed up in a number of cases with demarches in 
capitals and meetings with Embassies in Washington to press for 
disciplinary or legal action, and have generally found governments to 
be very aware of their responsibilities to discipline personnel found 
to have engaged in sexual misconduct. The U.S. will continue to work 
with other member states to follow up on actions taken by troop- or 
police-contributing governments against personnel dismissed from U.N. 
missions for engaging in inappropriate or abusive behavior.


    Question. The 2000 U.N. Report of the Panel on United Nations Peace 
Operations--the ``Brahimi Report''--remains a guiding principle for 
much of U.N. peacekeeping. What reforms that have been enacted as a 
result of the report have been particularly useful and which suggested 
changes still require further enactment? Are there additional measures 
that you believe the U.N. should take to implement recommendations from 
the Brahimi report?

    Answer. The U.N. Report of the Panel on United Nations Peace 
Operations, known as the ``Brahimi Report,'' is a milestone in the 
development of U.N. peacekeeping policy. The careful analysis and 
thoughtful proposals underscore the important contributions that the 
U.N. makes to international peace and security. The report explained 
the need for well thought-out strategies and well-planned operations in 
U.N. peacekeeping. The report expressed the importance of conflict 
prevention and led to creation of the Peacebuilding Commission. The 
report noted the complementary role that civilian police and rule of 
law elements can play in peacekeeping operations. Among other topics, 
the report calls for adapting to the information age. Technological 
developments since 2000 may offer more options for innovation.


    Question. In June 2005 the U.S. Institute for Peace produced the so 
``Gingrich-Mitchell'' report on U.N. reform. Which of the reforms 
discussed in the document, and its December 2005 update do you feel 
have been fully and successfully implemented and which have not? Are 
there any recommendations that you disagree with; if so why?

    Answer. The U.S. Institute for Peace's report was central to the 
development of bipartisan U.S. thinking about the U.N., particularly by 
emphasizing that ``the American people want an effective United Nations 
that can fulfill the goals of its Charter in building a safer, freer, 
and more prosperous world.'' The report contains many helpful 
recommendations, among them calling on the U.N. to affirm the 
responsibility to protect. The Responsibility to Protect is a norm that 
was supported by the United States, by the 2005 World Summit, and 
subsequently by the United Nations Security Council. The President-
elect supports the ``R2P'' doctrine. The report also called for the 
replacement of the U.N. Human Rights Commission, but the successor 
Human Rights Council has performed far below expectations. The report 
also called for a range of U.N. management reforms, such as the Office 
of Personnel Ethics, a number of which have been accomplished. The 
Obama administration will consider many ways to improve the U.N. 
system. Thoughtful reports by informed groups make an important 
contribution.
Hiring of Americans in U.N. System
    Question. United States nationals have experienced difficulty 
securing jobs within the lower and middle ranks of the U.N. 
Secretariat. According to the most recent report by the State 
Department on the hiring and employment of US citizens in the United 
Nations, 328 out of 2742 positions subject to geographic distribution 
were filled by Americans--12.0 percent. While this is within the 11.7 
percent-15.8 percent range established by the U.N. Secretariat, it is 
at the low end of the range. The report concludes, ``. . . the United 
States is very close to the bottom of its desired range which is a 
concern to us.'' To what do you attribute this low percentage, and what 
steps will you take to increase it?

    Answer. A strong American presence at the U.N. serves our nation's 
best interests--it strengthens relations with the U.N., demonstrates a 
deeper U.S. commitment to the U.N., and helps to build understanding of 
American perspectives. We should want Americans in U.N. positions at 
all levels and across the range of U.N. programs and activities, both 
in New York and around the world. The U.S. Mission should play a 
critical role, providing strategic support and a sustained focus on 
ensuring a maximal American presence. If I am confirmed, this will be a 
management priority for me; I intend to evaluate closely the current 
situation of Americans employed in the U.N. system; and, I will use the 
U.S. Mission to advocate for a strong American presence at the U.N.
Capital Master Plan
    Question. What is the status of the renovation to the U.N.'s New 
York headquarters? What is the current total anticipated cost, and what 
is the U.S. portion of the cost, by percentage and total? Has the U.S. 
portion been fully funded or will this be paid over several years? Does 
the Obama administration believe this cost is justified? What savings 
are possible given the current economic downturn? New York developer 
Donald Trump has asserted that he could complete the project for less 
than the cost estimated by the U.N.; did Mr. Trump ever follow-up by 
bidding on the project?

    Answer. I understand that the United States is being assessed 22 
percent of the project costs based on our rate of assessment under the 
current U.N. scale of assessments--roughly totaling $415 million. As 
the U.N.'s largest contributor and host country, the United States has 
a direct interest in ensuring that the CMP is implemented in the most 
cost effective and transparent manner possible. The Government 
Accountability Office (GAO) has completed four reports on the CMP, 
reporting that the processes are consistent with industry best 
practices, noting that challenges remain. With regard to the impact of 
the economic downturn, as the project is being bid on in multiple 
parts, we would expect contractor proposals to reflect current economic 
conditions. To the best of our knowledge, Mr. Trump has not bid on any 
part of the project that has been competed thus far.
UNDP
    Question. Much of the last two years was devoted to the UNP's 
operation in North Korea which resulted in UNP pulling out of the DPRK 
over charges of North Korean abuse of the program. Does the Obama 
administration agree with the suspension of the program? Will it seek 
to authorize UNP to return to North Korea?

    Answer. The concerns surrounding the U.N. Development Programme 
operation in the Democratic People's Republic of Korea are serious and 
should be sufficiently addressed before contemplating any resumption of 
UNP operations in the country. Those concerns include various issues 
with respect to the management and operation of the UNP program in DPRK 
detailed last year in a Staff Report of the U.S. Senate Permanent 
Subcommittee on Investigations. Additionally, and in order to fully 
address these concerns, the DPRK would need to agree to UNP measures to 
increase the transparency and accountability of UNP programs there. If 
confirmed, I would welcome a productive dialogue with all parties 
involved, including the Group of 77 and China, which have also 
expressed views on this issue.
Iran
    Question. What additional steps do you believe the Council should 
take to address the threat posed by Iran's nuclear program? If 
confirmed, what actions do you intend to take to build greater support 
in the Council for effective action on Iran?

    Answer. The President-elect has said that the prospect of an Iran 
armed with nuclear weapons poses a great threat to our national 
security, and to the security and stability of the region and the 
world. The President-elect believes that the U.S. should pursue a 
strategy that employs all policy tools at our disposal, first and 
foremost direct, vigorous, and principled diplomacy integrated with 
effective pressure, including sanctions, and close cooperation with our 
``P-5 plus 1'' partners, other members of the U.N. Security Council, 
the International Atomic Energy Agency and other partners around the 
world. It is this kind of comprehensive, integrated strategy that will 
improve the prospects of more unified action by the U.N. Security 
Council to enforce existing resolutions on Iran and, if appropriate, 
pursue additional sanctions.
Darfur
    Question. What specific steps do you intend to take to improve the 
effectiveness of U.N. efforts to address the situation in Darfur, 
including the U.N. -AU Mission in Darfur (UNAMID)?

    Answer. President-elect Obama and Vice President-elect Biden have 
been very clear and forceful in their condemnation of the genocide in 
Sudan and in their commitment to far more robust actions to try and end 
it. The pace of UNMID's deployment needs to be accelerated, combined 
with sufficient logistical support to protect civilians on the ground. 
We need to send a clear message to Khartoum that they must end 
obstruction of the U.N. force (UNAMID), including through endless 
bureaucratic hurdles and delays. We also need to address some of the 
U.N. 's own requirements that have inadvertently slowed UNMID's 
deployment thus far. The Obama administration will evaluate what should 
be taken to help troops and equipment move into place on an urgent 
basis.


    Question. Many have been critical of China's role in the Security 
Council in opposing stronger and more effective U.N. action on Darfur. 
What specific steps do you intend to take to gain greater cooperation 
from China in efforts to address Darfur?

    Answer. Cooperation in the Security Council must be at the center 
of our efforts to build an effective and responsive U.N. With its fast 
growing economy, ever-growing global interests, and expanding 
population, China should be expected to assume a more constructive role 
on the Security Council, on Sudan and Darfur and elsewhere. The 
Council's capacity to effectively address key issues derives directly 
from the ability of its members to identify shared objectives and build 
pragmatic working relationships. This will be particularly true for the 
United States and China. Prospects for such collaboration on the 
Council improve when there are effective, sustained, direct, and 
serious consultations and negotiations among the Council Members. There 
are, and will continue to be, times when, despite best efforts, 
effective Council action is not possible.


    Question. The Prosecutor of the International Criminal Court has 
asked the court to issue an arrest warrant for Sudanese President 
Bashir on charges of genocide, war crimes, and crimes against humanity. 
The court is currently reviewing the request.
    What affect do you believe the issuance an ICC arrest warrant for 
President Bashir would have on UNMID's ability to operate in Darfur?

    Answer. It should have no affect on UNMID's ability to operate, and 
the United States and other members of the United Nations Security 
Council must continue to make this perfectly clear. There will be no 
tolerance for reprisals directed at U.N. staff, or for obstruction of 
the U.N. peacekeeping missions operating in Sudan. Regardless of the 
decision on the Bashir arrest warrant, Khartoum needs to hand over 
those already indicted by the ICC--militia leader Ali Kushayb and 
Minister Ahmad Harun immediately, stop the genocide in Darfur, 
facilitate rather an hinder humanitarian operations, and allow the AU-
UN peace keeping force to deploy without obstruction.


    Question. What affect do you believe the issuance an ICC arrest 
warrant for President Bashir would have on efforts to resolve the 
crisis in Darfur more generally?

    Answer. Injecting some accountability for grave crimes into the 
context of Darfur should help to alter the calculus of various actors 
in Darfur and discourage ongoing abuses. There is evidence to suggest 
that the ICC arrest warrant is providing new leverage to the 
international community's efforts to resolve the crisis. Peace and 
justice are not mutually exclusive.


    Question. Some have urged the U.N. Security Council to pass a 
resolution directing the ICC not to proceed further with investigation 
or prosecution of President Bashir. Would you support such a 
resolution?

    Answer. No, not at this time.
Zimbabwe
    Question. What steps do you believe the United Nations should be 
taking to address the situation in Zimbabwe? To what extent do you 
believe the Council should defer to existing African Union efforts to 
address Zimbabwe?

    Answer. Zimbabwe continues to be gripped by a man-made catastrophe 
that has all but destroyed the country economically and politically. 
President Mugabe lost the election last March and has no legitimate 
claim to power. But he continues to rule the country through violence, 
intimidation, and corruption. The spill-over effects of Zimbabwe's 
crisis have long been apparent in the vast numbers of desperate 
citizens pouring across Zimbabwe's borders, and the potential of this 
implosion to affect the region has been made plain most recently and 
tragically by a cholera outbreak.
    We must continue to speak the truth about Zimbabwe, and to support 
those in the region and elsewhere who do the same. The inaction at U.N. 
on the matter of Zimbabwe illustrates the reality that the U.N. is only 
as strong and capable as its member states. More needs to be done. 
Widened U.S. sanctions are appropriate. It was the right policy to have 
supported a U.N. Security Council resolution calling for targeted 
sanctions and an arms embargo. The United States should continue to 
work diplomatically at the U.N., the AU, and SADC not only to encourage 
more multilateral pressure on the Mugabe regime, including an arms 
embargo and greater participation in a regime of targeted sanctions, 
but also to ensure that humanitarian assistance is available to 
suffering Zimbabweans and to plan for a well-coordinated recovery 
effort once sound governance is in place in Harare.
Burma
    Question. The deteriorating situation within Burma and the 
potential consequences for regional stability have remained on the 
agenda of the United Nations in recent years largely because of U.S. 
leadership. What is your strategy to ensure continued United Nations' 
focus on matters related to Burma including its growing relationship 
with North Korea?

    Answer. Burma, and its reclusive and repressive regime, may 
represent one of the most intractable challenges for the global 
community. This is as much, if not more, a challenge for key regional 
players--Russia, China, India and the ASEAN countries--several of whom 
sit on the U.N. Security Council and have limited the U.N.'s ability to 
do more. I believe that there is scope for greater regional and 
international action to pressure Burma's dictators, including by ASEAN 
countries. Multilateral sanctions should be pursued, despite the 
opposition that such measures have faced in the past. This will require 
creative strategies that push the key regional states to support 
tougher action. I also want to recognize the important work of Members 
of Congress in highlighting abuses and keeping faith with the 
democratic opposition in Burma. If I am confirmed, I look forward to 
working with the Committee and other interested Members to develop 
initiatives and strategies.
UN Human Rights Council
    Question. Critics contend that the new U.N. Human Rights Council is 
a marginal improvement at best over the discredited U.N. Human Rights 
Commission it replaced. The Bush administration decided not to seek 
membership to the Council and in June of 2008 all but completely 
withdrew the United States from observer status, declaring that we 
would only engage with the Council when it involves ``matters of deep 
national interest.'' What is the position of the Obama administration 
regarding the U.N. Human Rights Council?

    Answer. We have a deep interest in ensuring strong global 
mechanisms to uphold the respect for human rights. The President-elect 
is committed to enforcing respect for human rights. There is no 
question that the U.N. Human Rights Council (HRC) has been seriously 
flawed and a major disappointment. Rather than focus on its efforts and 
energies on most egregious instances of human rights abuses around the 
world, in places like Burma, Zimbabwe, Sudan and elsewhere, the HRC has 
devoted an inordinate amount of attention, and a very counterproductive 
focus, on Israel, one of our closest allies.


    Question. Will the Obama administration seek to become a member of 
the Council at the next opportunity?

    Answer. The Obama administration intends to work to strengthen the 
United Nations human rights mechanisms so that they focus on the 
world's most egregious human rights abusers. If confirmed, I look 
forward to working with the President-elect--and consulting with this 
Committee--as we review whether and when to run for election to a seat 
on the Council. Whether or not we seek election, our basic orientation 
will be that our ability to effect change is far greater if we are 
engaged diplomatically with friends and partners around the world to 
build a broad-based understanding of the need to use these mechanisms 
for the purpose they were designed, and not allow them to be hijacked 
for other purposes.


    Question. Does the administration believe the Council spends a 
disproportionate amount of attention criticizing Israel while ignoring 
more pressing human rights crises? If this is the case, how will you 
seek to change this situation?

    Answer. Yes. Rather than focus on its efforts and energies on most 
egregious instances of human rights abuses around the world, in places 
like Burma, Zimbabwe, Sudan and elsewhere, the Human Rights Council has 
devoted an inordinate amount of attention, and a very counter 
productive focus, on Israel, one of our closest allies. Our basic 
orientation will be that our ability to effect change is far greater if 
the U.S. is engaged diplomatically with friends and partners around the 
world to build a broad based understanding of the need to use these 
mechanisms for the purpose they were designed, and not allow them to be 
hijacked for other purposes.


    Question. Many critics of the U.N. Human Rights Council point to 
our ability to work more effectively on human rights issues in the U.N. 
General Assembly's so-called Third Committee. Do you believe this to be 
the case and if so, how will you seek to push for greater exposure of 
human rights abuses in the Third Committee?

    Answer. The United States has strong interest in making more 
effective use of the General Assembly's Third Committee in the 
consideration of issues relating to human rights, especially given the 
relationship between the Committee and the GA, and the attention 
accorded to actions by that body. At the same time, we also have a 
strong interest in working to enhance the credibility and effectiveness 
of all human rights institutions associated with the United Nations, 
including the Human Rights Council.
UNAIDS
    Question. Zimbabwe is one of the 189 signatories to the United 
Nations General Assembly Session (UNGASS), Declaration of Commitment 
(DOC) to fighting of HIV and AIDS through a comprehensive multi-
sectoral approach. Are they living up to their commitments under UNASS? 
Due to the present political situation, how much assistance overseen by 
UNIDS is getting to the people that need it?

    Answer. The humanitarian situation in Zimbabwe is dire for all 
citizens, especially those living with HIV/AIDS. UNIDS' latest UNASS 
report paints a grim picture. Where there is sufficient data to 
evaluate progress, Zimbabwe falls far behind global averages, 
especially in antiretroviral treatment, prevention of mother to child 
transmission, and testing for HIV/AIDS. Given Zimbabwe is largely 
dependent on foreign assistance and faces severe human resource and 
supply challenges, according to UNIDS, it is unlikely that the trend of 
poor progress on their UNASS commitments will be reversed in the short 
term. It is clear that assistance from UNIDS is reaching some of those 
infected with HIV/AIDS in Zimbabwe, but not the vast majority. Donor 
assistance has increased over the past two years, yet positive progress 
has been negligible.


    Question. The Tom Lantos and Henry J. Hyde United States Global 
Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization 
Act of 2008 specifies that 10 percent of the funding is dedicated to 
programs to assist those who are orphaned or have made vulnerable by 
HIV/AIDS. Is UNIDS doing enough to help those who are in this category?

    Answer. The needs of the tens of millions of children orphaned or 
made vulnerable by HIV/AIDS are great, and this is a problem of 
enormous gravity--and personal importance--that I have seen firsthand 
during my travels in Africa. Fortunately, this issue has gained 
increased attention over the years in multilateral fora such as the 
United Nations General Assembly as well as through the actions of 
individual countries, including the United States. The simple answer is 
that this is a problem of large scale that cannot be addressed by a 
single government or institution. If confirmed, I would support 
additional U.S. action in this regard and engage with UNIDS, UNCEF, and 
other agencies, groups and governments to support and strengthen 
ongoing efforts to assist children affected by HIV/AIDS.
Middle East
    Question. In recent years, the United States has exercised its veto 
in the Security Council on a number of occasions on resolutions dealing 
with the Israeli-Palestinian conflict. What role do you believe the 
Security Council should play with respect to the Israeli-Palestinian 
conflict? Do you see any potential for tension between Security Council 
involvement in this issue and effective efforts by the United States 
and its Quartet partners to promote successful direct negotiations 
between the Israeli and Palestinian sides?

    Answer. Our goal should be to ensure that the Security Council 
plays a constructive role in every international issue in which it 
involves itself. When it is not poised to do so, the United States 
should not hesitate to ensure that the Security Council does not act, 
as we have to ensure that it does not pass resolutions that unfairly 
target the State of Israel. The United States should encourage the 
Security Council to adopt positions that are in harmony with the 
Quartet's efforts to promote Israeli-Palestinian peace efforts, and 
support them when it does.


    Question. Some have suggested that the U.N. Relief and Work Agency 
for Palestinian Refugees in the Near East (UNRWA) be disbanded for 
activities inconsistent with its mandate; do you support this view? If 
not, what is the Obama administration's position on the strengths and 
weaknesses of UNWA?

    Answer. UNRWA was founded by the United Nations in 1949 to provide 
direct relief and works to Palestinian refugees. Concerns have been 
raised because it does operate in regions where foreign terrorist 
organizations are present. U.S. law under the Foreign Assistance Act 
establishes conditions in order for UNRA to receive U.S. funding. For 
years, the State Department has conducted extensive monitoring of 
UNRA's activities, including by receiving semiannual reports from UNRA 
regarding its compliance with our laws and name checks against an 
international database of known names of terrorists. I expect that 
these monitoring efforts will continue.


    Question. Based on the latest funding chart available on the UNWA 
website, the United States is the single largest donor with over 31.0 
percent of the total funding for the years 2000-2007. The first country 
from the Organization of the Islamic Conference (OIC) listed is Saudi 
Arabia at number 10 on the donor list, having given only 2.8 percent of 
the funding to UNRA over the same year. Why do you believe the OIC has 
given so little to a cause for which it professes to have such deep 
passion? What will you do in your capacity as Permanent Representative 
to the U.N. to raise the level of OIC contributions to UNRA?

    Answer. The United States is the largest bilateral donor to the 
United Nations Relief and Works Agency for Palestine Refugees in the 
Near East (UNRWA). The United States strongly supports the mission of 
UNWA, which provides education, health, relief, and social services to 
over 4.6 million Palestinian refugees in Jordan, Syria, Lebanon, West 
Bank, and Gaza. I share your concern about insufficient support for 
UNWA by many in the international community, including among the OIC 
states. The United States will continue to engage diplomatically the 
increase the donor base of UNWA, and we will continue to use every 
available opportunity to solicit greater financial contributions from 
other member-states. The United States will also work closely with the 
Commissioner-General and others within the organization to ensure that 
UNWA has a sound strategy to meet its urgent funding needs.


    Question. As the largest single donor to UNWA, are you comfortable 
with UNWA's compliance with Section 301(c) requirements and UNWA's 
overall accountability?

    Answer. For years, the State Department has conducted extensive 
monitoring of UNRA's activities, including by receiving semiannual 
reports from UNRA regarding its compliance with our laws and name 
checks against an international database of known names of terrorists. 
I expect that these monitoring efforts will continue.
    The United Nations Relief and Works Agency for the Palestinian 
Refugees in the Near East (UNRWA) has implemented several measures to 
ensure the neutrality of its staff and comply with Section 301(c) of 
the Foreign Assistance Act of 1961. UNWA has long-standing staff 
regulations that outline the neutrality, integrity, and impartiality 
required of both international and locally hired U.N. staff. With USG 
encouragement and funding, UNWA developed a monitoring regime using 
Operations Support Officers (OSOs) in West Bank and Gaza. These 
international staff help ensure that UNWA's facilities are not being 
misused for political purposes or militant activity. The constant 
vigilance of the OSOs helps ensure the neutrality and integrity of 
these installations. Under procedures in place since 2002, the 
Commissioner General sends semi-annual reports as standing practice to 
the Department of State containing all relevant information regarding 
UNWA's compliance with the Section 301(c) condition for funding, 
including documenting any abuses, or attempted abuses, of UNWA 
facilities.
    UNRWA also vets its current and prospective partner organizations 
against the U.N. 1267 Sanctions Committee list of terrorist 
organizations. On a semi-annual basis, UNWA also checks the names of 
all persons and entities to whom or to which the Agency made payments 
against the U.N. sanctions list. From January 1-June 30, 2008, the most 
recent period, no matches were found. In late 2008, UNWA for the first 
time checked the names of all their beneficiaries against the U.N. 
sanctions list and found no matches.
    Finally, I understand that as a member of UNWA's Advisory 
Commission, the United States receives regular updates on UNWA's 
financial situation, as well as progress made against UNWA's extensive 
management reform initiative. UNWA's strong accountability and 
transparency is reflected in its active and open engagement with 
members of the Advisory Commission, including the United States.


    Question. What is the status of the U.N. sponsored investigation 
into the 2004 murder of former Lebanese Prime Minister Rafik Hariri? Is 
it proceeding unfettered in your opinion? Is it receiving appropriate 
funding and support from the US and member states?

    Answer. I am encouraged to see that the Tribunal will officially 
begin operations on March 1, but as the head prosecutor recently 
stated, it is unclear when the Tribunal will bring indictments. The 
Security Council established various safeguards to ensure an objective 
and expeditious judicial process. First, it includes provisions on 
enhanced powers, so the Tribunal may take independent measures prevent 
unreasonable delays. Second, it mandated a transparent appointment 
process of international officials, including the judges and 
prosecutor. Third, it includes provisions on the rights of victims to 
present their views. The Security Council explicitly requested that the 
Tribunal be based on ``the highest international standards of criminal 
justice,'' and I will work with our international allies to ensure this 
pledge is fulfilled. The Tribunal has sufficient funding, approximately 
$51 million, for its first year of operation, and additional funds will 
need to be raised for years two and three.


    Question. The November18, 2008, report to the Secretary General on 
the implementation on UNCR 1701 regarding the conflict between Israel 
and Hezbollah stated ``.further progress in the implementation of the 
resolution is increasingly overdue. The parties must make greater 
efforts to resolve the pending issues described in the present report 
that hinder a permanent ceasefire between Lebanon and Israel. Achieving 
this will require the determination and political will of all parties 
to the conflict, as well as continued strong international support.''
    Will implementation of UNCR 1701 (and 1759) be a priority for the 
Obama administration? What can the United States do to promote more 
effective implementation of these resolutions? Are these the most 
effective tools for pushing for Hezbollah to disarm while maintaining 
stability in Lebanon?

    Answer. Syria and Iran are in flagrant violation of Resolution 
1701, as they continue to supply advanced weaponry to Hezbollah in 
Lebanon, which undermines Lebanese sovereignty and threatens to drag 
the region into another round of violence. President-elect Obama is 
committed to implementing U.N. Security Council Resolutions that 
reinforce Lebanon's sovereignty. We need to work with our partners on 
the Security Council to consider additional measures to toughen 
penalties for violators, and strengthen enforcement tools. 
Additionally, the United States and others should work to strengthen 
the institutions of the Lebanese government to help it exercise its 
sovereignty throughout the country.


    Question. Do you believe the U.N. can be helpful in resolving the 
Shebaa Farms dispute between Lebanon and Israel? If so, how? Is the 
U.N. viewed as an impartial player in this?

    Answer. Various proposals have emerged for the United Nations to 
play a role in resolving the Shebaa Farms issue by, for example, taking 
control of the territory as a trusteeship until Lebanon and Israel 
reach a permanent peace agreement. The input of the parties is 
necessary to be able to evaluate these types of proposals. The U.N.'s 
historical role in Lebanon creates both opportunities and potential 
concerns about its involvement in the Shebaa Farms matter, so 
discussions with the parties are essential.
Iraq
    Question. Following the Oil-for-Food scandal, and the tragic 
bombing of the U.N. headquarters at the Canal Hotel in August 2003, the 
U.N. Assistance Mission to Iraq (UNAMI) has had few major successes. 
Many Iraqis, particularly the Kurds, feel that in addition to being 
complicit in undermining sanctions, U.N. agencies took credit for work 
that was never done and were selective in their criticism of human 
rights abuses under Saddam. Foreign Minister Zebari, in a speech at the 
U.N. in December 2003, stated, ``The United Nations as an organization 
failed to help rescue the Iraqi people from a murderous tyranny that 
lasted over 35 years and today we are unearthing thousands of victims 
in horrifying testament to that failure. The United Nations must not 
fail the Iraqi people again.'' What is your assessment of UNMI's work 
in Iraq? What can the U.S. do to help the U.N. and its agencies regain 
its credibility in Iraq?

    Answer. It is first worth recalling the extent of the U.N.'s 
efforts and sacrifice in Iraq during the post-war period. The U.N. sent 
its finest to Baghdad, and it was the U.N. Mission in Baghdad that 
suffered one of the first major attacks, tragically killing the U.N.'s 
envoy and noted diplomat Sergio Vieira de Mello and many other U.N. 
officials. DeMello, Lakhdar Brahimi, and others from the U.N. played 
important roles in promoting the political process in those critical 
early years, and the United Nations will continue to play a 
significant, important role to help Iraq become more secure and stable. 
The U.N. has already demonstrated its useful role in key areas, 
including preparations for multiple and critical elections scheduled in 
2009; efforts to help resolve the status of disputed territories 
(especially Kirkuk); and humanitarian assistance to internally 
displaced persons and others. The U.S. and its partners need to work 
constructively with the U.N., which will be a key component of the 
international community's contribution to Iraqi stability. A 
strengthened U.N. role in Iraq will promote governance, support 
elections, strengthen political institutions, improve coordination of 
development, and enhance regional security.


    Question. Has the U.N. mission in Iraq (UNAMI) made its final 
recommendation on how it will implement article 140 of the Iraqi 
constitution regarding the status of the disputed territories? If not, 
when can we expect it, or is something delaying the announcement?

    Answer. UNAMI has yet to make its final recommendation on article 
140 of the Iraqi constitution. It is expected to release its second and 
final set of proposals--including on Kirkuk and disputed districts in 
Al-Anbar and Al-Karbala--shortly after the January 31 provincial 
elections.


    Question. I understand that the U.N. Security Council may consider 
as soon as today a proposal to use the U.N. assessed peacekeeping 
budget to fund material support for the African Union Mission in 
Somalia (AMISOM). The Department of State notified the Committee of 
this proposal only late yesterday. I am concerned that using the U.N. 
budget to pay the expenses of non-UN peacekeeping operations will set a 
dangerous precedent that may lead regional organizations to look to the 
U.N. to fund their operations on a routine basis. It would also place 
further strain on the already stretched resources available for U.N. 
peacekeeping. In addition, I am concerned that there are not adequate 
mechanisms in place to prevent waste, fraud, and abuse of resources 
transferred from the U.N. to the AU. Do you share these concerns? Do 
you agree that there are better alternative means for the international 
community to support the efforts of regional organization peacekeeping 
operations, including through the use of foreign assistance funds? If 
confirmed, will you work to ensure that the U.N. peacekeeping budget is 
not used to pay the expenses of non-UN operations?

    Answer. On January 16, the Security Council unanimously approved 
the resolution that enabled the U.N. to use pre-commitment authority to 
provide equipment and services to support AMISOM. Given the uncertainty 
about a follow-on U.N. peacekeeping operation, this is an unusual use 
of precommitment authority. At the same time, it is important to U.S. 
national security interests that AMISOM be reinforced with equipment 
and services. I understand there will be no cash transfers. More 
generally, it is also clear that the international community must 
develop means to more reliably support critical regional peace 
operations that take place outside U.N. auspices while ensuring 
accountability.


    Question. The United Nations Mission in Afghanistan (UNAMA) headed 
by SRSG Kai Eide received a renewed annual mandate from the U.N. 
Security Council on March 20, 2008, that further defined the lead role 
for UNMA in international civilian efforts. Shortly before the mandate 
was approved by the UNC, the U.S. Ambassador to the U.N. suggested some 
priorities for the new SRSG and UNMA including:


   i. the essential bolstering of the international commitment to 
            Afghanistan;

   ii. the coordination and integration of international efforts;

   iii. providing highly motivated and capable people with the right 
            skills in Afghanistan, as well as sufficiently robust 
            funding and security assets for them.


   To what extent has UNMA and the new SRSG achieved improved 
        effectiveness in their mandate since March 2008?

   Will the Obama administration seek to bolster the UNMA role? Ifso 
        what primary purpose do you see for UNMA going forward inthe 
        near to mid-term?

   Should UNMA concentrate its efforts on one or two 
        significantprograms, such as the elections expected this year 
        and next?

    Answer. My understanding is that the Special Representative of the 
Secretary-General, Kai Eide of Norway, is working to implement the 
Council's mandate for a re-energized U.N. approach to Afghanistan. To 
that end, efforts are underway to augment UNMA staffing to enhance 
efforts on elections, institution-building, humanitarian assistance, 
and development.
    Furthermore, the General Assembly, with strong leadership and 
support from the United States, recently approved an increase in UNMA's 
budget and staffing.
    The President-elect considers Afghanistan to be one of the highest-
priority foreign policy challenges for the United States. I expect that 
the new administration will review the work of UNMA in the context of 
the broader U.S. strategy for Afghanistan, and look for ways to support 
a U.N. role that adds value to our objectives. Of particular 
significance is UNMA's support and assistance to the preparations for 
elections that are currently scheduled for later this year and 2010. 
Another major priority is better integration and coordination of the 
work of the various U.N. development agencies in the field. Any 
enhanced U.N. role should be expanded in consultation with Afghan 
counterparts and key international stakeholders.

                               __________

           Responses to Questions Submitted to Susan E. Rice 
                    by Senator Robert P. Casey, Jr.

UN Response to Iraqi Refugee Crisis
    Question. Credible reports indicate that up to two million Iraqis 
have fled to neighboring countries. The Iraqi refugee crisis is 
contributing to the largest population movement in the Middle East 
since Israel was created. My home state of Pennsylvania has directly 
been impacted by the Iraqi refugee crisis as it has been a leader in 
resettling Iraqi refugees here in America. Since the mid-1970s, more 
than 100,000 refugees have made Pennsylvania their home and I am proud 
of this tradition.
    However, as the United States looks to redeploy troops in Iraq, we 
must remember our moral responsibility to those innocent Iraqis who 
have been driven from their homes and to those who risked their lives 
to serve the United States.
    I witnessed firsthand the challenges facing Iraqi refugees last 
August when I spent time in Jordan. They have become increasingly 
desperate and have no where to turn. In the last Congress, I introduced 
the Support for Vulnerable and Displaced Iraqis Act of 2008 to require 
the State Department to formulate a comprehensive strategy to respond 
to the mass displacement of Iraqi citizens.
    Can you please outline what efforts the Obama administration is 
likely to take to assist the U.N. High Commissioner on Refugees, the 
lead agency responding to the Iraqi refugee crisis?

    Answer. The President-elect believes that the United States has a 
moral obligation and a responsibility for security that demands that we 
address Iraq's humanitarian challenge. The magnitude of this challenge 
requires a comprehensive approach developed working with the Iraqi 
government, the regional states, the United Nations and other 
institutions to address the full range of needs--humanitarian 
assistance directly to the refugees and displaced persons, assistance 
to host countries, assistance to facilitate repatriation, assistance to 
help integration, and expanded resettlement. This will require 
substantial resources. As you have noted, the U.N. High Commissioner on 
Refugees (UNHCR) is playing, and will continue to play, a leading role. 
The President-elect has committed the U.S. to expand its support to 
Iraqi refugees and displaced persons.
Sexual Abuse by U.N. Peacekeepers
    Question. In May 2008, sexual abuse allegations by U.N. 
peacekeepers in the Democratic Republic of the Congo were reported. 
Before this Committee last year, the Acting Assistant Secretary for 
International Organizations Affairs testified that allegations of 
sexual exploitation and abuse of women and children in conflict zones 
severely hampered the effectiveness of U.N. peacekeepers.
    The United Nations has recently instituted preventative and 
disciplinary action to carry out its policy of zero tolerance. Ensuring 
that those who have taken an oath to protect do not become the 
predators, what other actions do you feel are necessary to halt these 
kinds of abuses?

    Answer. The incidents of sexual exploitation are totally 
reprehensible and unacceptable. This issue calls for the utmost 
attention and effort from the U.N. leadership and the member states, as 
these scandals strike at the heart of the purpose and value of the 
United Nations. I believe the U.N.'s top leaders understand the 
magnitude of this threat. They are right to adopt a policy of zero 
tolerance. A range of steps have been taken, including disciplinary 
measures, a new model Memorandum of Understanding between the U.N. and 
troop-contributing countries covering standards, and the waiving of 
immunity, but more needs to be done. The U.S. will continue to work 
with other member states to follow up on actions taken by troop- or 
police-contributing governments against personnel dismissed from U.N. 
missions for engaging in inappropriate or abusive behavior. As a woman 
and a mother, I take this issue personally and will follow it closely, 
if confirmed. Unless we make every effort to end this problem, the 
legitimacy and credibility of the United Nations in the eyes of the 
very peoples that the U.N. is supposed to protect will erode 
dangerously. I will press this issue not just within the U.N. system 
but also with member states in order to expand the consensus, examine 
potential additional steps, and focus on ensuring full implementation 
of the steps taken to date.


    Question. How do resource constraints affect the ability of the 
U.N. to battle sexual abuse as well as other misconduct such as 
mismanagement and corruption within its ranks?

    Answer. As I noted during the confirmation hearing, the United 
Nations is being asked to do more than ever before and yet resources 
and capacities have not been aligned with the mandates that member 
states are giving the U.N. This is manifest in U.N. management and 
oversight as well as program capacities, particularly in the realm of 
peacekeeping. With some 90,000 peacekeepers in 16 U.N. missions--more 
than ever before, the U.N. needs greater capacity for training, 
monitoring and oversight. The United States has supported the recent 
efforts to restructure the Department of Peacekeeping Operations and to 
establish a Peacebuilding Commission to deal with the challenges of 
post-conflict stabilization and reconstruction. These efforts are a 
start, not an end in themselves and effective implementation will 
require additional resources. As I noted during the confirmation 
hearing, the President-elect, the Secretary-designate and I believe 
that the United States should pay its U.N. dues, including our 
peacekeeping assessment, on time and in full.

                               __________

           Responses to Questions Submitted to Susan E. Rice 
                        by Senator David Vitter

    Question. What are your views regarding the status within the 
international system of the independent, sovereign state in general, 
and the importance of preserving and protecting American sovereignty in 
particular? Do you ascribe to traditional views of national sovereignty 
or to the theory of ``global governance?''

    Answer. As I stated at the confirmation hearing, if I am confirmed, 
I will always advocate and defend the United States' national interest 
at the United Nations. No U.S. administration will ever or could ever 
cede sovereignty to an international body or to any other institution.
    President-election Obama, Vice President-elect Biden, Secretary-
designate Clinton and I believe that U.S. interests are, to a great 
extent, served by the United Nations when the U.N. is operating 
effectively. Too often, we are faced with difficult options when 
addressing international challenges: doing nothing in the face of 
violence or conflict or atrocities, and allowing threats and risks to 
fester. Second, the United States can act unilaterally, often at great 
cost in lives and treasure. Or, third, the United States can join 
together with allies and partners and other nations, and share the 
burden of addressing collective challenges. Given that the costs of 
inaction or unilateral action are very often so high, the Obama 
administration believes that it is in the U.S. national security 
interest to invest in strengthening the United Nations to make it a 
more effective tool to share the burdens and costs of meeting global 
challenges.


    Question. An issue you will have to focus on quickly is the World 
Conference Against Racism, commonly known as Durban II and scheduled 
for this April. The preparations for the conference are well underway. 
Unfortunately, it appears likely to reinforce the intolerance and anti-
Semitism of the previous Durban meeting. Several countries have already 
indicated they will not attend and the stated U.S. position is that 
unless major progress is made in ameliorating these problems, we will 
not attend either.
    Should the U.S. attend the Durban II conference?
    What is the policy of the incoming administration on attending the 
conference? What changes do you think are necessary to make it possible 
for the U.S. to attend?

    Answer. Racism is and remains a serious global challenge that 
merits our sustained effort, attention, and involvement. It is 
appropriate to convene an international conference on this subject. As 
you have stated, the problem is that in the past, and potentially now 
as we head towards the conference in April, rather than focus on 
racism, some member states and some nongovernmental organizations have 
instead sought to equate Israel's actions with racism and promote an 
atmosphere of hate and anti-Semitism. This is highly offensive and a 
distortion of the meaning of the term racism. It merits our strongest 
objections.
    The question is how to proceed. The President-elect believes that 
we should make early efforts to determine whether early U.S. engagement 
could enable the upcoming conference and its draft document to be 
improved, refocused on racism, and stripped of the offensive language 
that we find abhorrent. If this is not possible, then we--as well as 
other member states that respect basic principles of justice and 
equity--should not participate in April.


    Question. In its first few months, the Obama administration will 
decide whether to change existing U.S. policy to attend the Durban 
Review Conference (Durban II) and fully participate in the United 
Nations Human Rights Council by seeking a seat in the upcoming May 
election. Would you recommend that the President continue current 
policy or reverse it?

    Answer. Regarding the Human Rights Council, the United States has a 
deep interest in ensuring strong global mechanisms to uphold the 
respect for human rights. The President-elect is committed to enforcing 
respect for human rights. As I stated during the confirmation hearing, 
there is no question that the U.N. Human Rights Council (HRC) has been 
seriously flawed and a major disappointment. Rather than focus on its 
efforts and energies on most egregious instances of human rights abuses 
around the world, in places like Burma, Zimbabwe, Sudan and elsewhere, 
the HRC has devoted an inordinate amount of attention, and a very 
counterproductive focus, on Israel, one of our closest allies.
    The Obama administration intends to work to strengthen the United 
Nations human rights mechanisms so that they focus on the world's most 
egregious human rights abusers. If confirmed, I look forward to working 
with the President-elect--and consulting with this Committee--as we 
review whether and when to run for election to a seat on the Council. 
Whether or not we seek election, our basic orientation will be that our 
ability to effect change is far greater if we are engaged 
diplomatically with friends and partners around the world to build a 
broad-based understanding of the need to use these mechanisms for the 
purpose they were designed, and not allow them to be hijacked for other 
purposes.
    Regarding the upcoming Durban II conference, see answer to the 
previous question.


    Question. The U.N. is charged with many serious responsibilities 
and tasks. Yet, as evidenced by the well-publicized scandals involving 
the Iraq Oil-for-Food program and recent revelations of corruption in 
U.N. procurement, the U.N. all too often has proven vulnerable to 
corruption and fraud, unaccountable in its activities, lacking in 
transparency and oversight, and duplicative and inefficient in its 
allocation of resources. What specifically would you do to address 
these problems?


    Question. As I noted in the confirmation hearing, I agree that no 
one can be fully satisfied with the performance of the United Nations, 
and too often we are dismayed. The United States must press for high 
standards and bring to its dealings with the U.N. high expectations of 
its performance and accountability. The Oil-for-Food scandal 
underscored the need for institutional reform in the U.N. system to 
ensure greater transparency and accountability. The subsequent 
investigations and prosecutions served as a wake up call across the 
U.N. system and prompted more robust efforts to address corruption and 
mismanagement.
    If I am confirmed, I will be committed to working to ensure that 
the U.N. is maximally effective and efficient. The United Nations has 
made some notable progress on reform, dating back to 1994 with the 
establishment of the Office of Internal Oversight Services to 
strengthen its capacity to ensure that money being spent is being well 
accounted for. To date, OIOS recommendations have saved the U.N. and 
the taxpayer an estimated $200 million. The U.N. has developed an 
internal audit and an inspector general capability, strengthened 
whistleblower protections, and enhanced financial disclosure 
requirements for U.N. staff. More recently we have seen efforts to 
reorient and restructure the Department of Peacekeeping Operations and 
to establish a Peacebuilding Commission to deal with the challenges of 
post-conflict stabilization and reconstruction. The procurement task 
force has substantially improved the U.N.'s procurement operations and 
has uncovered over $650 million in faulty contracts. So there have been 
important steps taken. But more must be done.
    My top priorities for U.N. reform would be financial 
accountability, management efficiency, transparency, ethics and 
internal oversight, and program effectiveness in areas such as 
peacekeeping, conflict prevention, and mediation. A key challenge now 
is ensuring effective implementation of ongoing initiatives and 
preventing them from being watered down or weakened, even as we 
consider what further steps should be taken to improve U.N. 
effectiveness and ability to address the challenges of the 21st 
century. I believe firmly that it is not enough to ensure that U.S. 
taxpayer dollars are not being wasted. We must insist that U.S. 
taxpayer dollars are being spent effectively and accomplishing their 
intended goals.


    Question. Information provided by UNP whistleblowers to the U.S. 
Mission to the United Nations in 2006 led the U.S. to investigate the 
practices and activities of UNP in North Korea. U.N. and independent 
audits concluded that these activities directly violated U.N. and UNP 
standard operating procedures and basic ``best practices.'' \1\ Current 
law requires the U.S. to withhold 20 percent of U.S. contributions to 
the UNP unless the Secretary of State certifies that UNP has given the 
U.S. adequate access to information on its programs and activities, is 
conducting appropriate oversight of UNP programs and activities 
globally, and is implementing a whistleblower protection policy 
equivalent to that of the U.N. Ethics Office. Would you agree that such 
a certification is not merited at this time?
---------------------------------------------------------------------------
    \1\ Brett D. Schaefer and Steven Groves, ``Congress Should Withhold 
Funds from the U.N. Development Program,'' WebMemo #1783, January 26, 
2008, at http://www.heritage.org/Research/; and George Russell, 
``Report Shows U.N. Development Program Violated U.N. Law, Routinely 
Passed on Millions to North Korean Regime,'' Fox News, Jun 11, 2008, at 
http://coburn.senate.gov/ffm/index.cfm.

    Answer. I take very seriously my responsibility to the U.S. 
taxpayer to ensure that our U.N. contributions are well-spent and well-
managed. I also take very seriously compliance with U.S. law. It is 
clearly in our interest for the UNP to be as efficient and transparent 
as possible and to not facilitate any illicit activity in the countries 
in which it has programs. And, to take this one step further, it is 
vital that Member States-including the United States Government-have 
access to all information necessary to have confidence in UNP programs. 
I understand that in October 2008, the State Department did report to 
Congress that the UNP had met the three criteria set out in the 
transparency and accountability provision of section 668(b) (1)(2)(3) 
of the Department of State, Foreign Operations and Related Programs 
Appropriations Act, 2008 (Div. J, P.L. 110-161). If I am confirmed, I 
will closely evaluate the certification requirement pertaining to the 
UNP and work very closely with the Secretary-designate to examine how 
best to ensure that U.S. funds, whether they are provided to the UNP or 
any other multilateral institution, are spent consistent with U.S. 
---------------------------------------------------------------------------
national interests and U.S. law.


    Question. U.N. peacekeeping is now being conducted with 
unprecedented pace, scope, and ambition, and increasing demands have 
revealed ongoing, serious flaws. Specifically, recent audits and 
investigations have uncovered substantial problems with mismanagement, 
fraud, and corruption in procurement for U.N. peacekeeping, and 
incidents of sexual exploitation and abuse by U.N. peacekeepers and 
civilian personnel have been shockingly widespread. Please explain the 
steps that have been taken by the U.N. to address these problems, why 
they have failed to address the situation, and what specific policies 
and reforms you would pursue to address these ongoing problems?

    Answer. The incidents of sexual exploitation are totally 
reprehensible and unacceptable. This issue calls for the utmost 
attention and effort from the U.N. leadership and the member states, as 
these scandals strike at the heart of the purpose and value of the 
United Nations. I believe the U.N.'s top leaders understand the 
magnitude of this threat. They are right to adopt a policy of zero 
tolerance. A range of steps have been taken, including disciplinary 
measures, a new model Memorandum of Understanding between the U.N. and 
troop-contributing countries covering standards, and the waiving of 
immunity, but more needs to be done. The U.S. will continue to work 
with other member states to follow up on actions taken by troop- or 
police-contributing governments against personnel dismissed from U.N. 
missions for engaging in inappropriate or abusive behavior. As a woman 
and a mother, I take this issue personally and will follow it closely, 
if confirmed. Unless we make every effort to end this problem, the 
legitimacy and credibility of the United Nations in the eyes of the 
very peoples that the U.N. is supposed to protect will erode 
dangerously.
    I pledge to work tirelessly to ensure that every American taxpayer 
dollar is spent wisely, effectively, and efficiently. The United States 
will weigh very carefully the merits of existing and proposed U.N. 
peace operations, and we will continue to evaluate ongoing preventive 
measures that have been undertaken as a result of recent scandals. The 
United States will also continue to strongly support an independent and 
effective Office of Internal Oversight Services, including the 
integration of the U.N. Procurement Task Force. Finally, the United 
States has supported recent efforts to reorient and restructure the 
Department of Peacekeeping Operations and to establish a Peacebuilding 
Commission to deal with the challenges of post-conflict stabilization 
and reconstruction--in part to ensure more robust training and 
oversight of U.N. peace operations.


    Question. The United States has long maintained a policy--one 
backed by presidents of both parties--of opposing the many one-sided 
Security Council resolutions that, more often than not, criticize 
Israel, but fail to address other issues, such as Palestinian 
terrorism. More than forty-one anti-Israel Security Council resolutions 
have been vetoed by the United States over the years.
    Do you support the use of the American veto to block one-sided 
anti-Israel resolutions in the Security Council?
    What do you believe should be the standard employed in deciding 
whether to veto or not?

    Answer. Yes. The United States has a long history of using its veto 
at the Security Council to ensure that it does not pass resolutions 
that unfairly target the State of Israel. Each proposed resolution must 
be judged on its merits, and the Obama administration will act in our 
interest in the Security Council. I don't want to speculate on what 
future resolutions might look like. When it is in the U.S. interest, we 
will use our veto as necessary.


    Question. On the nuclear front, the Director-General of the IAEA, 
Mohamed El-Baradei, recently said Iran could produce enough enriched 
uranium for a nuclear bomb in six months to a year. Though the Security 
Council has passed three resolutions imposing sanctions on Iran for its 
refusal to suspend its enrichment activity, overall, the response has 
been weak with efforts to impose harsher sanctions repeatedly being 
delayed and diluted by Russia and China. Iran has also violated the 
U.N. charter, calling for the destruction of Israel, a fellow member.
    As U.N. Ambassador, how high on your agenda is the issue of Iran? 
What do you believe should be done at the Security Council regarding 
the Iranian nuclear hreat?
    What steps will the Obama administration push early this year? What 
do you believe can be done to get better cooperation from Russia and 
China?

    Answer. The President-elect has said that the prospect of an Iran 
armed with nuclear weapons is unacceptable, and poses a great threat to 
our national security and to the security and stability of the region 
and the world. As I stated during the confirmation hearing, Iran's 
pursuit of a nuclear weapons will continue to demand the attention of 
the U.N. Security Council as a central element of the U.S. agenda. The 
President-elect believes that the U.S. should pursue a strategy that 
employs all policy tools at our disposal, first and foremost direct, 
vigorous, and principled diplomacy integrated with effective pressure, 
including sanctions, and close cooperation with our ``P-5 plus 1'' 
partners, other members of the U.N. Security Council, the International 
Atomic Energy Agency and other partners around the world. It is this 
kind of comprehensive, integrated strategy that will improve the 
prospects of more unified action by the U.N. Security Council to 
enforce existing resolutions on Iran and, as appropriate, pursue 
additional sanctions.
    As I noted during the confirmation hearing, the United States has a 
wide and complex set of interests when it comes to Russia and China. 
The Obama administration will conduct these relationships by seeking to 
maximize our shared interests and common objectives, notably with 
respect to the challenge of Iran's nuclear program, while also 
recognizing that there will be instances and areas of difference. If 
confirmed, I will reach out to my Russian and Chinese colleagues early 
and often in an effort to develop pragmatic working relationships with 
both countries at the U.N. I will work to build these relationships to 
try to maximize their willingness to join us on issues where we share 
common interests vital to our national security.


    Question. Can and should Iran's status at the United Nations--
particularly its leadership role in key committees--be challenged if it 
continues to call for the destruction of Israel and continues to 
violate multiple mandatory Security Council resolutions calling upon it 
to cease its nuclear enrichment program?

    Answer. The U.S. will seriously review Iran's bids for leadership 
positions in the United Nations. In recent years, the United States has 
persistently opposed Iran's candidacy for such positions. For example, 
in October 2008, despite its intense lobbying of other members, Iran 
was resoundingly defeated by a vote of 158 to 32 in the General 
Assembly secret ballot for a non-permanent (two-year) membership on the 
U.N. Security Council.


    Question. Would you oppose decisions by international bodies--
whether sanctioned by treaties or not that would impede the movement 
and operations of the U.S. Navy?

    Answer. Yes, the United States would oppose such decisions. The 
United States controls the movement and operations of the U.S. Navy.


    Question. Would you support efforts by American companies to 
explore mineral resources in the ocean on their own, outside 
multilateral treaties or organizations?

    Answer. U.S. law (the Deep Seabed Hard Minerals Resources Act of 
1980), which contemplates international regulation of seabed mining 
beyond U.S. jurisdiction, requires any U.S. company wishing to exploit 
mineral resources in the deep seabed to apply for a permit from the 
National Oceanic and Atmospheric Administration. Under the existing 
international regime, most other countries of the world would be bound 
not to honor such a permit. The Obama administration supports 
maximizing legal certainty and international recognition of the outer 
limits of the U.S. continental shelf beyond 200 nautical miles to 
promote and support U.S. commercial exploration of seabed mineral 
resources. This is most effectively achieved through U.S. accession to 
the Law of the Sea Convention.


    Question. Regarding national sovereignty, what is the bright line 
beyond which you will not compromise the United States' position?

    Answer. As I stated at the confirmation hearing, if I am confirmed, 
I will always advocate and defend the United States' national interest 
at the United Nations consistent with U.S. sovereignty. As with all 
past administrations, the Obama administration will be guided by the 
interests of our country and our people.


    Question. In a world supposedly beset by more and more global 
problems and by calls for global solutions, what role do you see for 
the US continuing to act as a sovereign nation, rather than as one 
entity in a global village?

    Answer. I agree that in the 21st century, the United States and the 
world face urgent global threats, challenges, and opportunities. 
Terrorism, the spread of weapons of mass destruction, civil conflict, 
climate change, genocide, extreme poverty, and deadly infectious 
disease are shared challenges that no single nation can defeat alone. 
It is because our security at home is affected by instability, 
violence, disease, or failed states in far corners of the world that 
the President-elect has affirmed America's commitment to the United 
Nations as an indispensable, if imperfect, institution for advancing 
our security and well-being in the 21st century. He has made it clear 
that we must pursue a national security strategy, based on America's 
interests and security, that builds strong international partnerships 
to tackle global challenges through the integration of all aspects of 
American power--military and diplomatic; economic and legal; cultural 
and moral. The Obama administration will invest in the United Nations 
as a sovereign nation in pursuit of our national interests. Like all 
U.S. presidents, President-elect Obama will never hesitate to take the 
action necessary to protect this country and secure our interests.


    Question. The resources of the Arctic are becoming accessible. 
Should these resources be allocated by the five nations bordering the 
region, or should every nation in the world participate?

    Answer. Rights over resources depend upon such factors as the 
nature of the resources and their location. Coastal States have 
complete sovereignty within their 12-mile territorial seas, for 
example. A coastal State is entitled to sovereign rights over natural 
resources within 200 nautical miles from its shores. A coastal State 
also enjoys sovereign rights with respect to resources (but not the 
water column above) of the continental shelf beyond 200 nm to the 
extent the area meets the relevant criteria under international law. 
(Parties to the Law of the Sea Convention have access to a procedure 
that will maximize legal certainty and international recognition of the 
outer limits of the continental shelf beyond 200 nm.) Where there are 
overlapping maritime claims with respect to any of these areas between 
opposite or adjacent States, it is up to those States to agree 
bilaterally on the boundary between them. A separate regime would apply 
to the exploitation of mineral resources in areas of the Arctic beyond 
any State's jurisdiction.


    Question. As you may be aware, there have been calls, for example 
by a former official in the Clinton administration's State Department 
named Nigel Purvis with the Brookings Institute (in a paper for 
Resources for the Future), that the U.S. should disband with the 
practice of seeking Senate ratification of environmental agreements 
such as the Kyoto Protocol. Given that many parties have suggested the 
U.S. will certainly join to a Kyoto successor expected to be negotiated 
this year, this issue is one of concern to me.
    Note that despite many inaccurate media reports, the U.S. signed 
Kyoto during the Clinton administration (November 12, 1998), and 
despite two presidents choosing to not ask the Senate to ratify, it 
never officially rescinded that signature. As the Senate has not sought 
to push the issue of ratifying the signed treaty, either, it is fair to 
say there is a demonstrated lack of Senate support for such an 
agreement.
    Still, this position argues that, given Kyoto's history in the 
Senate, a successor protocol should be entered but this time not 
treated as a treaty, but instead called a congressional-executive 
agreement thereby getting around the obviously unattainable two-thirds 
requirement. This also would ensure a no amendment, no filibuster vote 
on the agreement.
    Now, it seems clear that the courts, should they take this 
potentially ``political question,'' would look with disfavor on an 
effort so transparently reactive to a lack of two-thirds Senate 
support. Regardless, it seems we should want to avoid such disputes 
altogether. So, do you agree that such an important, potentially 
economically significant agreement should be entered in this fashion, 
or do you agree that any Kyoto successor or Kyoto-style treaty should 
continue to be treated by the U.S. as a treaty for purposes of Senate 
ratification?

    Answer. As the President-elect has said, the world is in need of an 
urgent response to climate change and United States must be a leader in 
developing and implementing it. The Obama administration intends to 
consult closely and often with Congress regarding climate change. The 
content, form, and implementation of any international agreement will 
be consistent with the U.S. Constitution and a subject for close 
consultation with the Senate.


    Question. President-elect Obama has never endorsed the 
International Criminal Court treaty. Senator Hillary Clinton has never 
endorsed the International Criminal Court treaty either. Will you, if 
confirmed, actively seek ratification of the International Criminal 
Court treaty?

    Answer. The President-elect believes strongly that it is in the 
U.S. national interest to have effective mechanisms of international 
justice. Now that the ICC has been operational for some years, we are 
learning more about how the ICC functions. Thus far, the ICC has acted 
with professionalism and fairness, pursing perpetrators of truly 
serious crimes, like genocide in Darfur, and atrocities in the Congo 
and Uganda. The President-elect intends for the United States to 
continue to support the ICC's investigations of perpetrators of 
genocide in Darfur and, working with our allies, to shape the court. 
The United States will be a leader in bringing war criminals to 
justice, consistent with U.S. policy interests and with U.S. law.
    The United States has more troops deployed overseas than any 
nation. As commander in chief, the President-elect will want to make 
sure that they have maximum protection. We intend to consult thoroughly 
with military commanders and other experts, and examine the full track 
record of the ICC, before reaching any decision on whether to join the 
ICC. A very important element of this evaluation will be engaging with, 
and understanding the views of, Congress, particularly this Committee.

                               __________

           Responses to Questions Submitted to Susan E. Rice 
                       by Senator Robert Menendez

Darfur
    Question. I applaud the stand you have taken concerning genocide in 
the Darfur region of Sudan. I have long been at the forefront of trying 
to put a stop to this, as I know you have been as well.
    What steps can the U.S. take to speed up the deployment of 
peacekeepers and otherwise improve the security situation in Darfur?

    Answer. President-elect Obama, Vice President-elect Biden, 
Secretary-designate Clinton and I have been very clear and forceful in 
our condemnation of the genocide in Sudan and in our commitment to far 
more robust actions to try and end it. As I stated during the 
confirmation hearing, the pace of UNAMID's deployment needs to be 
accelerated, combined with sufficient logistical support to protect 
civilians on the ground, and this will be an urgent focus of mine, if I 
am confirmed. We need to send a clear message to Khartoum that they 
must end obstruction of the U.N. force (UNAMID), including through 
endless bureaucratic hurdles and delays. We also need to address some 
of the U.N.'s own requirements that have inadvertently slowed UNAMID's 
deployment thus far.


    Question. Assuming the international community is able to deploy 
all 26,000 UNAMID peacekeepers in the near term. What is your 
assessment of how this will change the situation on the ground in 
Darfur? Is it likely that people in IDP camps will return to their 
areas of origin? Will 26,000 be able to provide sufficient security for 
the entire Darfur region? What are the major risks to this deployment?

    Answer. Full deployment of the UNAMID force, including much-needed 
logistics and communications units, should enable the mission to more 
effectively and comprehensively protect civilians in Darfur. But 
lasting security that would encourage the displaced to return to and 
rebuild their homes cannot be achieved without a comprehensive 
political solution that enfranchises and empowers the people of Darfur. 
Failure to ensure that UNAMID is fully deployed and adequately 
resourced would gravely threaten the mission, as would failure to 
achieve a political solution to the crisis.
The Comprehensive Peace Agreement
    Question. The genocide in Darfur has moved attention away from the 
extremely important Comprehensive Peace Agreement which was signed in 
2005. If the peace agreement fails and there are no consequences for 
failing to adhere to the Agreement, the citizens of Sudan will suffer 
greatly. I see a direct correlation between success of the CPA, and any 
progress in Darfur.
    What can the U.S. do to ensure success in the implementation of the 
CPA?

    Answer. I agree that the success of the CPA and resolution of the 
crisis in Darfur are inextricably connected, and believe that policy 
toward Sudan must take a comprehensive approach. The United States will 
demonstrate strong recommitment to CPA implementation and work with 
international partners toward this end, including by assisting all 
relevant parties to prepare for safe, free, and fair elections in 2009 
and working to achieve a viable wealth-sharing agreement for Abyei.


    Question. With its oil revenues falling (assuming this continues), 
and less cash available to Southern Darfur, is there a window of 
opportunity for ending coercive politics, and for the international 
community to work more effectively with Sudan to finally end the 
genocide in Darfur?

    Answer. It is possible that falling oil revenues will require the 
Government of Sudan to make greater effort to build consensus in taking 
federal decisions. The United States and the rest of the international 
community should explore every potential opportunity to end the 
genocide in Darfur and promote justice and peace in Sudan. That said, 
we must always be mindful of the Government of Sudan's record of 
abusive policies and unfulfilled commitments.
Iran
    Question. Iran poses a major challenge for the U.S. and its allies. 
It is the world's leading state sponsor of terror, openly threatens the 
existence of U.N. member states, and is working toward achieving a 
nuclear weapons capability. In June 2008, Mohamed El-Baradei, the 
director general of the International Atomic Energy Agency, said that 
if it chose to do so, Iran could produce enough enriched uranium to 
make a nuclear bomb in six months to a year. Though the Security 
Council has passed resolutions imposing sanctions on Iran for its 
refusal to suspend its enrichment activity, these resolutions have not 
dissuaded the Iranians. Efforts to impose harsher sanctions have been 
delayed or watered down by Russia and China.
    Given the current circumstances, what course of action should the 
U.S. take at the Security Council regarding the Iranian nuclear threat?

    Answer. The President-elect has said that the prospect of an Iran 
armed with nuclear weapons is unacceptable, and poses a great threat to 
our national security and to the security and stability of the region 
and the world. As I stated during the confirmation hearing, Iran's 
pursuit of a nuclear weapons will continue to demand the attention of 
the U.N. Security Council as a central element of the U.S. agenda. The 
President-elect believes that the U.S. should pursue a strategy that 
employs all policy tools at our disposal, first and foremost direct, 
vigorous, and principled diplomacy integrated with effective pressure, 
including sanctions, and close cooperation with our ``P-5 plus 1'' 
partners, other members of the U.N. Security Council, the International 
Atomic Energy Agency and other partners around the world. It is this 
kind of comprehensive, integrated strategy that will improve the 
prospects of more unified action by the U.N. Security Council to 
enforce existing resolutions on Iran and, as appropriate, pursue 
additional sanctions.
U.N. Millennium Development Goals


    Question. In the year 2000, the international community agreed to a 
set of goals such as cutting global poverty in half by 2015, putting 
every child in school, tackling preventable diseases, and other 
critical development objectives. While significant progress has been 
made in several regions, many countries, particularly in Africa, 
continue to lag behind on progress towards these objectives. President 
Elect Obama has stated that he will make the U.N. Millennium 
Development Goals official U.S. policy, and that he expects to see 
progress in meeting the Goals by the end of his first term, including 
reducing by half the number of people living on less than a dollar a 
day and suffering from hunger, and reversing the number of new HIV 
infections and malaria cases.
    How would you work with our foreign assistance agencies, and with 
NGOs, to coordinate U.S. development assistance with the Millennium 
Development goals?

    Answer. As you note, the President-elect is committed to 
integrating the Millennium Development Goals into U.S. foreign policy. 
The President-elect, the Secretary-designate and I intend to strengthen 
the civilian aspects of foreign policy including diplomacy and 
development by increasing foreign aid and by empowering our diplomatic 
and development experts to use their knowledge to manage programs 
creatively. Officials and NGOs are often working in the same regions to 
meet the same challenges. The Obama administration will work 
constructively with NGOs, some of which are already working to advance 
the MDGs. For example, at the September 25, 2008, conference on the 
Millennium Development Goals in New York, NGOs, such as the Gates 
Foundation, made important pledges in support of these global 
objectives. Sustained dialogue with NGO partners will be an important 
element of the Obama administration's approach in this regard.
Responsibility to Protect
    Question. The U.S. has endorsed the concept that the international 
community has a responsibility to protect civilians from genocide, 
ethnic cleansing, war crimes and crimes against humanity, when a state 
is unable or unwilling to do so. While the responsibility to protect, 
or R2P, may include some forms of military intervention as a last 
resort, there is a great deal that can be done, short of military 
action, to prevent genocide and mass atrocities.
    Currently, there is no mechanism within the U.N. to coordinate the 
collection of information on potential threats of genocide and mass 
atrocities. The U.N. Secretary General is expected to release his first 
report very soon on implementing the Responsibility to Protect in the 
U.N. system. One likely proposal in that report will be the creation of 
a mass atrocities ``early warning'' office at the U.N., to collect 
information, assess, and warn of threats of mass atrocities.
    Do you support the creation of a U.N. mass atrocities early warning 
office?

    Answer. Yes. The Responsibility to Protect is a multi-faceted 
doctrine that begins with prevention and encompasses the entire range 
of policy options up to, and including, the use of force, to encourage 
and enable countries to act in a fashion that protects those within 
their borders and prevent them from being attacked and harmed. As I 
noted during the confirmation hearing, I agree with you that there has 
been a gap between the expectations that the norm created and the 
realities on the ground, including regarding the international 
community's ability to identify potential threats of genocide and mass 
atrocities. Development of a more effective and reliable process for 
assessing risk and providing early warning should be a priority.
UNDPA
    Question. The second initiative involves the U.N. Department of 
Political Affairs (DPA), which currently has a staff of only 223 
employees. To bolster DPA's presence and peacemaking ability, Under 
Secretary General for Political Affairs Lynn B. Pascoe asked the 
General Assembly to increase personnel at DPA by 100 posts. The General 
Assembly decided to table this proposal until 2009.
    What is your view on expanding the size of the U.N. Department of 
Political Affairs?

    Answer. Conflict prevention is an essential, yet comparatively 
weak, component of the United Nation's work. The United States has long 
supported the strengthening of the Department of Political Affairs, 
which means improving the focus and quality of its work--not just the 
number of employees. I understand that the most recent U.N. budget 
agreement included 49 new posts, as well as flexibility for how to 
deploy some of the senior posts within DPA. If confirmed, I look 
forward to working with the Secretary-General and other member states 
to promote further enhancements to DPA's work.
Human Rights at the U.N.
    Question. The U.N. Human Rights Council, created in 2006 to replace 
the U.N. Human Rights Commission, was criticized by the outgoing 
administration as being only marginally better than the body it 
replaced, and the United States did not seek to become a member of the 
Council. I would note that the criteria for membership on the Human 
Rights Council is not very exacting, as states that are under U.N. 
sanctions for human rights abuses are allowed to be members. The Human 
Rights Council has also focused on allegations of human rights 
violations by Israel, while failing to confront human rights abusers 
such as Iran, Burma, Sudan, and North Korea.
    The Human Rights Council is currently in a five-year incubation 
period that ends in 2011. Do you think the Human Rights Council, as it 
is currently set up, should become a permanent U.N. body at the end of 
that period?

    Answer. We have a deep interest in ensuring strong global 
mechanisms to uphold the respect for human rights. The President-elect 
is committed to enforcing respect for human rights. There is no 
question that the U.N. Human Rights Council (HRC) has been seriously 
flawed and a major disappointment. Rather than focus its efforts and 
energies on most egregious instances of human rights abuses around the 
world, in places like Burma, Zimbabwe, Sudan and elsewhere, the HRC has 
devoted an inordinate amount of attention, and a very counterproductive 
focus, on Israel, one of our closest allies. The Obama administration 
intends to work to strengthen the United Nations human rights 
mechanisms, including the Human Rights Council, so that they focus on 
the world's most egregious human rights abusers. The incoming Obama 
administration has not made a decision regarding the future of the 
Human Rights Council beyond the 2011 deadline, and will evaluate this 
issue based on the principles outlined above.
    In your view, what is the best way for human rights issues to be 
brought up and addressed at the UN?

    Answer. Promoting and defending human rights has been a principle 
priority of the United States and other U.N. members states since the 
founding of the United Nations, and it is among the core principles of 
the United Nations. The Obama administration will seek to advance human 
rights across the full spectrum of venues, institutions, and 
opportunities at the United Nations. And, there is a wide range of 
international norms and standards and several international 
institutions in which to do so. The body of international human rights 
standards that are now widely acknowledged (if not always respected) by 
nearly all the governments were in great measure developed within the 
United Nations system. For example, the Universal Declaration of Human 
Rights and the International Covenant on Civil and Political Rights, to 
which the United States is a party, were developed by the Human Rights 
Commission. These and other instruments have been, and will continue to 
be, important tools used to press for an end to violations of human 
dignity and for the promotion of civil and political rights. Similarly, 
the United Nations has played a key role in the development of treaties 
signed or ratified by the United States and relating to labor rights, 
the rights of women, racial discrimination, the rights of children in 
conflict, and many other issues.
    In addition, the U.N. plays an important role in the promotion and 
protection of human rights in the field, including through human rights 
monitoring and electoral assistance. Beyond that, the Office of the 
High Commissioner for Human Rights deploys several different kinds of 
standing human rights missions that help to ensure respect for human 
rights and the rule of law: these include human rights country offices 
and/or advisors providing advice and assistance to governments and 
civil society; human rights advisors in United Nations peace 
operations; and regional offices and centers providing advice and 
assistance in Asia, Latin America, the Middle East and Africa. The 
United States will support important efforts, such as these, that 
reflect our commitment advancing and defending human rights.
    However, as noted above, the HRC, some member states have sought to 
shield from scrutiny the worst perpetrators of abuses, while providing 
distorted and disproportionate criticisms on Israel. The challenge for 
the United States and its partners, friends, and allies is to bring the 
full weight of sustained diplomacy, shared values, and power to improve 
the Human Rights Council by building broad and deep coalitions in 
support of universal human rights at the United Nations.
Security Council Reform
    Question. A General Assembly task force recently recommended that 
negotiations take place towards increasing the number of permanent 
members of the U.N. Security Council, with Japan, Germany, Brazil and 
India being most frequently mentioned as new members.
    What is your view on expanding the number of permanent members of 
the Security Council? What do you believe the criteria should be for a 
nation to become a new permanent member of the Security Council? Will 
the Obama administration support permanent Security Council membership 
for Japan?

    Answer. The President-elect and I recognize that the Security 
Council was created many years ago at a time when there were very 
different international realities and that there is a strongly felt 
sentiment among many member states that the Security Council should 
better reflect 21st century circumstances. The factors that the Obama 
administration would consider most essential, including in evaluating 
additional permanent Council members, would be ensuring that a proposal 
does not impede the Security Council's effectiveness and that it 
enhances the standing of the Council in the eyes of those nations that 
seek a greater voice in international fora. Regarding specific 
candidacies for permanent Council membership, at this stage we have not 
made a determination about any particular configuration of SC reform.
Use of U.S. Veto in Security Council
    Question. In past administrations, both Republican and Democratic, 
the United States has frequently vetoed U.N. Security Council 
resolutions because the resolutions were excessively critical of 
actions by Israel.
    In your view, what standard should the U.S. follow in deciding 
whether to veto a U.N. Security Council resolution?

    Answer. Yes. The United States has a long history of using its veto 
at the Security Council to ensure that it does not pass resolutions 
that unfairly target the State of Israel. Each proposed resolution must 
be judged on its merits, and the Obama administration will act in our 
interest in the Security Council. I don't want to speculate on what 
future resolutions might look like. When it is in the U.S. interest, we 
will use our veto as necessary.
UN Management Reform
    Question. The U.N. is being called upon to do more and more each 
year, with fewer and fewer resources, making sound management of its 
resources more critical than ever. The Secretary-General continues to 
push member states to take further steps in the area of management 
reform, particularly in the areas of procurement, accountability, and 
personnel.
    What actions should the U.S. take to advance the reform of 
management operations at the U.N. Secretariat?

    Answer. As I noted in the confirmation hearing, I agree that no one 
can be fully satisfied with the performance of the United Nations, and 
too often we are dismayed. The United States must press for high 
standards and bring to its dealings with the U.N. high expectations of 
its performance and accountability. The Oil-for-Food scandal 
underscored the need for institutional reform in the U.N. system to 
ensure greater transparency and accountability. The subsequent 
investigations and prosecutions served as a wake up call across the 
U.N. system and prompted more robust efforts to address corruption and 
mismanagement.
    If I am confirmed, I will be committed to working to ensure that 
the U.N. is maximally effective and efficient. The United Nations has 
made some notable progress on reform, dating back to 1994 with the 
establishment of the Office of Internal Oversight Services to 
strengthen its capacity to ensure that money being spent is being well 
accounted for. To date, OIOS recommendations have saved the U.N. and 
the taxpayer an estimated $200 million. The U.N. has developed an 
internal audit and an inspector general capability, strengthened 
whistleblower protections, and enhanced financial disclosure 
requirements for U.N. staff. More recently we have seen efforts to 
reorient and restructure the Department of Peacekeeping Operations and 
to establish a Peacebuilding Commission to deal with the challenges of 
post-conflict stabilization and reconstruction. The procurement task 
force has substantially improved the U.N.'s procurement operations and 
has uncovered over $650 million in faulty contracts. So there have been 
important steps taken. But more must be done.
    My top priorities for U.N. reform would be financial 
accountability, management efficiency, transparency, ethics and 
internal oversight, and program effectiveness in areas such as 
peacekeeping, conflict prevention, and mediation. A key challenge now 
is ensuring effective implementation of ongoing initiatives and 
preventing them from being watered down or weakened, even as we 
consider what further steps should be taken to improve U.N. 
effectiveness and ability to address the challenges of the 21st 
century. I believe firmly that it is not enough to ensure that U.S. 
taxpayer dollars are not being wasted. We must insist that U.S. 
taxpayer dollars are being spent effectively and accomplishing their 
intended goals.
United Nations Development Fund for Women (UNIFEM)
    Question. The United Nations Development Fund for Women provides 
financial and technical assistance to programs that foster gender 
equality in more than 100 countries. It focuses its support in areas 
where women are facing the highest levels of economic and political 
insecurity, often where other assistance agencies have pulled out.
    Would you seek to increase attention and support for UNIFEM, both 
within the U.S. government and by other member states?

    Answer. Yes. If I am confirmed, I will seek to increase attention 
and support for UNIFEM.
United Nations Trust Fund to End Violence against Women
    Question. The United Nations Trust Fund to End Violence against 
Women has supported national, regional and local efforts in the 
developing world to combat violence against women. While funds have 
increased, in 2007 the Trust Fund was only able to award $5 million to 
29 initiatives working in 36 countries.
    As U.S. Permanent Representative, would you seek to increase 
attention and support for the U.N. Trust Fund to End Violence Against 
Women, both within the U.S. government and by other member states?

    Answer. Yes. If I am confirmed, I will seek to increase attention 
and support for the U.N. Trust Fund to End Violence against Women.
U.N. Peace Building Commission
    Question. In 2005, the U.N. Peace Building Commission was createdto 
streamline reconstruction and peace building efforts in countries 
emerging from violence. As I understand it, the Peace Building 
Commission is intended to provide a mechanism to coordinate and provide 
foreign assistance more effectively to countries emerging from 
conflict. To date, some of the countries this commission has provided 
support for include Burundi, Sierra Leone, Cote d'Ivoire and Guinea 
Bissau.
    What is your view of the U.N Peace Building Commission?

    Answer. The United States is a member of the U.N. Peacebuilding 
Commission and supports its work. The U.N. Peacebuilding Commission 
(PBC) is an important pillar of U.N. reform that will enhance the 
U.N.'s capacity to address post-conflict stability, reconstruction, and 
governance challenges.
Cluster Munitions Convention and Oslo Process
    Question. On December 3, 2008 several of our closest military 
allies [Britain, France, Canada, Australia, Netherlands]--signed a 
treaty in Oslo banning the use of cluster munitions. The Bush 
administration took no part in the negotiation of this treaty and did 
not sign it. President-elect Obama has indicated that he is committed 
to restoring our diplomatic alliances and reengaging the United States 
with international humanitarian law. A spokeswoman for the Obama 
transition team told the Chicago Tribune after the signing of the 
cluster munitions treaty that the next president would ``carefully 
review the new treaty and work closely [with] our friends and allies to 
ensure that the United States is doing everything feasible to promote 
protection of civilians.''
    Should the United States join the Convention on Cluster Munitions?

    Answer. The President-elect believes that the U.S. objective should 
be to stop the use of cluster bombs that pose a serious risk to 
civilians. The Obama administration has not taken a position on the new 
cluster bomb treaty. If confirmed, I look forward to participating in 
the Obama administration's review of the new treaty and working closely 
with our friends and allies to ensure that the United States is doing 
everything feasible to promote protection of civilians--especially 
children--while also protecting our troops.

                               __________

           Responses to Questions Submitted to Susan E. Rice 
                         by Senator Jim DeMint

Foreign Policy Philosophy
    Question. What is your view regarding the status within the 
international system of the independent, sovereign state in general, 
and the importance of preserving and protecting American sovereignty in 
particular? Do you ascribe to traditional views of national sovereignty 
or to the theory of ``global governance?''

    Answer. As I stated at the confirmation hearing, if I am confirmed, 
I will always advocate and defend the United States' national interest 
at the United Nations. No U.S. administration will ever or could ever 
cede sovereignty to an international body or to any other institution.
    President-elect Obama, Vice President-elect Biden, Secretary-
designate Clinton and I believe that U.S. interests are, to a great 
extent, served by the United Nations when the U.N. is operating 
effectively. Too often, we are faced with difficult options when 
addressing international challenges: doing nothing in the face of 
violence or conflict or atrocities, and allowing threats and risks to 
fester. Second, the United States can act unilaterally, often at great 
cost in lives and treasure. Or, third, the United States can join 
together with allies and partners and other nations, and share the 
burden of addressing collective challenges. Given that the costs of 
inaction or unilateral action are very often so high, the Obama 
administration believes that it is in the U.S. national security 
interest to invest in strengthening the United Nations to make it a 
more effective tool to share the burdens and costs of meeting global 
challenges.


    Question. The United States has long maintained a policy--espoused 
by presidents of both parties--of opposing the many one-sided U.N. 
Security Council resolution. More than forty-one anti-Israel Security 
Council resolutions have been vetoed by the United States over the 
years.


          Do you support the use of the American veto to block one-
        sided anti-Israel resolutions in the Security Council?

          What do you believe should be the standard employed in 
        deciding whether to veto or not?

          How would you have advised President-elect Obama to vote on 
        the recent U.N. resolution on Israel and Hamas? Would you have 
        recommended a veto or voting for, against, or abstaining?

    Answer. Yes. The United States has a long history of using its veto 
at the Security Council to ensure that it does not pass resolutions 
that unfairly target the State of Israel. Each proposed resolution must 
be judged on its merits, and the Obama administration will act in our 
interest in the Security Council. I don't want to speculate on what 
future resolutions might look like. When it is in the U.S. interest, we 
will use our veto as necessary.
    As for U.N. Security Council Resolution 1860, we are obviously very 
concerned about the serious situation in Gaza and southern Israel. 
President-elect Obama has spoken about his deep concern for the loss of 
civilian life in Gaza and Israel, and it is very important that a 
durable ceasefire be achieved. That will require an end to Hamas rocket 
fire at civilians, an effective mechanism to prevent smuggling of 
weapons into Gaza, and an effective border regime. We will work hard 
with our international partners to make sure all these elements happen. 
The ceasefire should be accompanied by a serious effort to address the 
immediate humanitarian needs of the Palestinian people and a longer 
term reconstruction and development effort. The Bush administration is 
in the middle of sensitive diplomatic negotiations on behalf of the 
United States, so I think it is best that I not comment specifically on 
the negotiations underway. I will say that we plan to be actively 
engaged on diplomacy in the Middle East in pursuit of peace agreements 
to resolve conflicts and, when necessary, to bring hostilities to an 
end. We are committed to helping Israel and the Palestinians achieve 
their goal of two states living side by side in peace and security, and 
will work toward this goal from the beginning of the administration.
Taiwan
    Question. Several years ago, Asia experienced a serious infectious 
disease issue with the Avian Flu. However, each nation's response had 
varying degrees of success. Specifically, the lack of membership in the 
World Health Organization (WHO), was a hindrance to Taiwan's ability to 
respond. Do you support Taiwan's membership in the WHO?

    Answer. As a matter of law and consistent with the ``one China'' 
policy, the United States has supported, and will continue to support, 
meaningful participation through observer status for Taiwan in the 
World Health Organization.
Iran
          Iran poses a challenge for the U.S. and for the international 
        community. It is the world's leading state sponsor of terror; 
        it openly threatens the existence of U.N. member states; and it 
        is working toward achieving a nuclear weapons capability.
          On the nuclear front, the Director-General of the IAEA, 
        Mohamed El-Baradei, recently said Iran could produce enough 
        enriched uranium for a nuclear bomb in six months to a year. 
        Though the Security Council has passed three resolutions 
        imposing sanctions on Iran for its refusal to suspend its 
        enrichment activity, overall, the response has been weak with 
        efforts to impose harsher sanctions repeatedly being delayed 
        and diluted by Russia and China.
          Iran has also violated the U.N. charter, calling for the 
        destruction of Israel, a fellow member.


    Question. What do you believe should be done at the Security 
Council regarding the Iranian nuclear threat? What steps will the Obama 
administration push early this year? What do you believe can be done to 
get better cooperation from Russia and China?

    Answer. The President-elect has said that the prospect of an Iran 
armed with nuclear weapons is unacceptable, poses a great threat to our 
national security and to the security and stability of Israel, the 
region and the world. The President-elect believes that the U.S. should 
pursue a strategy that employs all policy tools at our disposal, first 
and foremost direct, vigorous, and principled diplomacy integrated with 
effective pressure, including sanctions, and close cooperation with our 
"P-5 plus 1" partners, other members of the U.N. Security Council, the 
International Atomic Energy Agency and other partners around the world. 
It is this kind of comprehensive, integrated strategy that will improve 
the prospects of more unified action by the U.N. Security Council to 
enforce existing resolutions on Iran and, if appropriate, pursue 
additional sanctions.
    As I noted during the confirmation hearing, the United States has a 
wide and complex set of interests when it comes to Russia and China. 
The Obama administration will conduct these relationships by seeking to 
maximize our shared interests and common objectives, notably with 
respect to the challenge of Iran's nuclear program, while also 
recognizing that there will be instances and areas of difference. If 
confirmed, I will reach out to my Russian and Chinese colleagues early 
and often in an effort to develop pragmatic working relationships with 
both countries at the U.N. I will work to build these relationships to 
try to maximize their willingness to join us on issues where we share 
common interests vital to our national security.


    Question. Can and should Iran's status at the U.N.--particularly 
its leadership role in key committees--be challenged if it continues to 
call for the destruction of Israel and continues to violate multiple 
mandatory Security Council resolutions calling upon it to cease its 
nuclear enrichment program?

    Answer. The U.S. will seriously review Iran's bids for leadership 
positions in the United Nations. In recent years, the United States has 
persistently opposed Iran's candidacy for such positions. For example, 
in October 2008, despite its intense lobbying of other members, Iran 
was resoundingly defeated by a vote of 158 to 32 in the General 
Assembly secret ballot for a non-permanent (two-year) membership on the 
U.N. Security Council.
International Atomic Energy Agency


    Question. Will you pledge to consult closely with the members of 
this Committee concerning who the U.S. will support as the next 
Executive Director of the International Atomic Energy Agency?

    Answer. Yes. If confirmed, I will work with the Secretary of State 
to consult closely with the Committee on this issue.
Durban II

    Question. The original Durban Conference on Racism, held in 2001, 
was an anti-America, anti-Israel hatefest from which then-Secretary of 
State Colin Powell walked out. The Durban Review Conference, or Durban 
II, is scheduled for April 2009 and its preparatory process is being 
chaired by Iran and Libya, among others. Former Assistant Secretary of 
State Kristin Silverberg stated last April in testimony before Congress 
that ``There is. absolutely no case to be made forparticipating in 
something that is going to be a repeat of Durban I.'' \1\
---------------------------------------------------------------------------
    \1\ Testimony of Assistant Secretary of State Kristin Silverberg, 
``United Nations Peacekeeping Operations,'' House Foreign Affairs 
Committee, April 2, 2008. http://foreignaffairs.house.gov/110/41673.pdf
---------------------------------------------------------------------------
    Durban II's declared agenda is ``to foster the implementation of 
the Durban Declaration and Program of Action.'' That declaration 
singles out Israel for accusations of racism against the Palestinians. 
This is the only country-specific accusation in a document that is 
supposed to address international racism and xenophobia. The Durban 
Review Conference Working Group has recently revealed the latest draft 
of its outcome report. The opening of the report claims it will 
``preserve all themes and messages'' of Durban II which includes such 
outrageous anti-Semitic attacks such as:\2\
---------------------------------------------------------------------------
    \2\ 2From the December 26, 2008 Durban Review Conference 
Preparatory Committee Report found at EyeOntheUN.org. http://
tinyurl.com/6tgk2n


   ``Expresses deep concern at the practices of racial discrimination 
        against the Palestinian people as well as other inhabitants of 
---------------------------------------------------------------------------
        the Arab occupied territories''

   `` . . . the Palestinian people . . . have been subjected to . . . 
        torture.''

   `` . . . a foreign occupation founded on settlements, laws based on 
        racial discrimination . . . contradicts the purposes and 
        principles of the Charter of the United Nations. . . . ''


    The report also includes efforts to limit the freedom of expression 
and thwart international efforts to combat terrorism. Regardless of the 
presence or absence of new hate-speech in Durban II's final product, 
involvement in Durban II would legitimize the advancement of anti-
Semitism. As a result, Canada and Israel have refused to participate, 
and the Netherlands and other EU states are also considering staying 
away.


    If confirmed, will you commit to continuing the United States 
policy of withholding U.S. funds in order to avoid directly or 
indirectly funding this event? Will you commit to continuing the U.S. 
policy of refusing to participate in the conference ``unless it is 
proven that the conference will not be used as a platform for anti-
Semitic behavior'' \3\ --a stance that has already prompted decisions 
by some nations not to participate?
---------------------------------------------------------------------------
    \3\ Khalilzad, April 8, 2006. http://www.usunnewyork.usmission.gov/
press--releases/20080408--075.html

    Answer. Racism is and remains a serious global challenge that 
merits our sustained effort, attention, and involvement. It is 
appropriate to convene an international conference on this subject. As 
you have stated, the problem is that in the past, and potentially now 
as we head towards the conference in April, rather than focus on 
racism, some member states and some nongovernmentalorganizations have 
instead sought to equate Israel's actions with racism and promote an 
atmosphere of hate and anti-Semitism. This is highly offensive and a 
distortion of the meaning of the term racism. It merits our strongest 
objections.
    The question is how to proceed. The President-elect believes that 
we should make early efforts to determine whether early U.S. engagement 
could enable the upcoming conference and its draft document to be 
improved, refocused on racism, and stripped of the offensive language 
that we find abhorrent. If this is not possible, then we--as well as 
other member states that respect basic principles of justice and 
equity--should not participate in April.
Human Rights Council

    Question. The United Nations Human Rights Council was supposed to 
reform the discredited Human Rights Commission. The United States voted 
against the adoption of the resolution creating the Council because of 
its many inherent flaws that did not bode well for the new body. Over 
the past 2 and a half years of the Council's existence that concern was 
confirmed:

   More than 50 percent of the resolutions adopted by the Council 
        condemning a specific country for human rights abuses adopted 
        by the Council have been directed at Israel, while the 
        Commission had 30 percent of its resolutions directed at 
        Israel.

   The Council has had four special sessions condemning Israel (as 
        compared to 9 regular sessions for human rights issues around 
        the globe); the Commission had one special session on Israel.

   The Council eradicated the human rights investigations that had 
        been created by the Commission on Cuba, Belarus, and the 
        Democratic Republic of the Congo.


    There is deep concern that the Council has taken steps backwards 
and continues to provide cover for some of the worst human rights 
abusers. If you are confirmed and during your tenure, will the United 
States continue to refrain from rejoining, funding, or otherwise 
legitimizing the Human Rights Council?

    Answer. The United States has a deep interest in ensuring strong 
global mechanisms to uphold the respect for human rights. The 
President-elect is committed to enforcing respect for human rights. As 
I stated during the confirmation hearing, there is no question that the 
U.N. Human Rights Council (HRC) has been seriously flawed and a major 
disappointment. Rather than focus on its efforts and energies on most 
egregious instances of human rights abuses around the world, in places 
like Burma, Zimbabwe, Sudan and elsewhere, the HRC has devoted an 
inordinate amount of attention, and a very counterproductive focus, on 
Israel, one of our closest allies.
    The Obama administration intends to work to strengthen the United 
Nations human rights mechanisms so that they focus on the world's most 
egregious human rights abusers. If confirmed, I look forward to working 
with the President-elect--and consulting with this Committee--as we 
review whether and when to run for election to a seat on the Council. 
Whether or not we seek election, our basic orientation will be that our 
ability to effect change is far greater if we are engaged 
diplomatically with friends and partners around the world to build a 
broad-based understanding of the need to use these mechanisms for the 
purpose they were designed, and not allow them to be hijacked for other 
purposes.


    Question. What do you believe should be U.S. strategy for promoting 
and advocating for human rights at the United Nations?

    Answer. Promoting and defending human rights has been a principle 
priority of the United States since the founding of the United Nations, 
and it is among the core principles of the United Nations. The Obama 
administration will seek to advance human rights across the full 
spectrum of venues, institutions, and opportunities at the United 
Nations. The body of international human rights standards that are now 
widely acknowledged (if not always respected) by nearly all the 
governments were in great measure developed within the United Nations 
system. For example, the Universal Declaration of Human Rights and the 
International Covenant on Civil and Political Rights, to which the 
United States is a party, were developed by the Human Rights 
Commission. These and other instruments have been, and will continue to 
be, important tools used to press for an end to violations of human 
dignity and for the promotion of civil and political rights. Similarly, 
the United Nations has played a key role in the development of treaties 
signed or ratified by the United States and relating to labor rights, 
the rights of women, racial discrimination, the rights of children in 
conflict, and many other issues.
    In addition, the U.N. plays an important role in the promotion and 
protection of human rights in the field, including through human rights 
monitoring and electoral assistance. Beyond that, the Office of the 
High Commissioner for Human Rights deploys several different kinds of 
standing human rights missions that help to ensure respect for human 
rights and the rule of law: these include human rights country offices 
and/or advisors providing advice and assistance to governments and 
civil society; human rights advisors in United Nations peace 
operations; and regional offices and centers providing advice and 
assistance in Asia, Latin America, the Middle East and Africa. The 
United States will support important efforts, such as these, that 
reflect our commitment advancing and defending human rights.
    However, as noted above, there also remains cause for deep concern 
regarding the Human Rights Council. In the HRC, some member states have 
sought to shield from scrutiny the worst perpetrators of abuses, while 
pursuing distorted and disproportionate criticisms of Israel. The 
challenge for the United States and its partners, friends, and allies 
is to bring the full weight of sustained diplomacy, shared values, and 
power to improve the Human Rights Council by building broad and deep 
coalitions in support of universal human rights at the United Nations.
UN Peacekeeping

    Question. According to the Government Accountability Office, U.S. 
contributions for U.N. peacekeeping have more than doubled in the last 
six years.\4\ In 2003, U.S. taxpayers funded over $700 million for 
peacekeeping, but in 2009, the amount is expected to rise to $1.8 
billion. Even though the U.S. is assessed only 22 percent for the U.N. 
core budget, Congress appropriates 26 percent of the entire 
peacekeeping budget.
---------------------------------------------------------------------------
    \4\ ``United Nations Peacekeeping: Challenges Obtaining Needed 
Resources Could Limit Further Large Deployments and Should Be Addressed 
in U.S. Reports to Congress,'' Government Accountability Office, 
December, 2008.
---------------------------------------------------------------------------
    The other members of the U.N. Security Council do not even give 
Peacekeeping half of what the U.S. taxpayer gives--yet they have equal 
responsibility with the decisions to create, veto or maintain 
Peacekeeping missions. China only gives 3 percent, Russia gives less 
than 1 percent, France gives just 7.5 percent, and the U.K. gives 
almost 8 percent.
    Should U.S. peacekeeping assessments be lowered and the other 
Security Council members' raised in order to equally share the burden? 
What action will you take to change the assessment level for each of 
the permanent members of the U.N. Security Council?

    Answer. I do believe that the scale of assessments for peacekeeping 
should be examined to address whether some members of the Council are 
not paying their proper share. I do not believe it would be wise to 
unilaterally lower U.S. peacekeeping assessments. The U.S. is currently 
the lead financial contributor to U.N. peacekeeping, but only 
marginally more so than Japan. It is not in the United States' 
interest--as a founding member and host country of the U.N., and the 
sole remaining superpower in the world--to cede its leadership role at 
the United Nations. Furthermore, we should recognize that the U.S. 
contributes less than 1 percentwhen it comes to military personnel for 
U.N. peacekeeping mission--significantly less than the United Kingdom 
and France.


    Question. According to a leaked 2007 report from internal United 
Nations auditors, 43 percent of mostly U.N. peacekeeping procurement 
investigated was tainted by fraud. Out of $1.4 billion in U.N. 
contracts internally investigated, $610 million was tainted by ten 
``significant fraud and corruption schemes.'' \5\ Since 43 percent of 
the mostly peacekeeping procurement contracts are tainted and the U.S. 
taxpayer contributes up to 26 percent of all U.N. funding, it is safe 
to say the entire U.S. contribution in this case has been lost to 
corruption and waste.
---------------------------------------------------------------------------
    \5\ ``Report of the Office of Internal Oversight Services on the 
activities of the Procurement Task Force for the 18-month period ended 
30 June 2007,'' U.N. General Assembly, October 5, 2007. http://
tinyurl.com/9extl7
---------------------------------------------------------------------------
    According to human rights and aid groups, such as Save the 
Children, U.N. peacekeepers many times sexually exploit and abuse the 
women and children that they are meant to protect in U.N. refugee 
camps. Some reports state that ``children as young as six are trading 
sex with aid workers and peacekeepers in exchange for food, money, soap 
. . . '' \6\
---------------------------------------------------------------------------
    \6\ ``Watchdog needed on child abuse by peacekeepers: NGO.'' AFP, 
May 27, 2008.
---------------------------------------------------------------------------
    Please explain the steps that have been taken by the U.N. to 
address these problems, why they have failed to address the situation?

    Answer. The incidents of sexual exploitation are totally 
reprehensible and unacceptable. This issue calls for the utmost 
attention and effort from the U.N. leadership and the member states, as 
these scandals strike at the heart of the purpose and value of the 
United Nations. I believe the U.N.'s top leaders understand the 
magnitude of this threat. They are right to adopt a policy of zero 
tolerance. A range of steps have been taken, including disciplinary 
measures, a new model Memorandum of Understanding between the U.N. and 
troop-contributing countries covering standards, and the waiving of 
immunity, but more needs to be done. The U.S. will continue to work 
with other member states to follow up on actions taken by troop- or 
police-contributing governments against personnel dismissed from U.N. 
missions for engaging in inappropriate or abusive behavior. As a woman 
and a mother, I take this issue personally and will follow it closely, 
if confirmed. Unless we make every effort to end this problem, the 
legitimacy and credibility of the United Nations in the eyes of the 
very peoples that the U.N. is supposed to protect will erode 
dangerously.


    Question. Given the amount of waste, fraud, and sexual abuse that 
takes place in U.N. peacekeeping operations, what specific policies and 
reforms you would pursue to address these ongoing problems and protect 
the U.S. taxpayer from inadvertently funding these illicit activities?

    Answer. As I noted above, this issue calls for the utmost attention 
and effort from the U.N. leadership and the member states, as these 
scandals strike at the heart of the purpose and value of the United 
Nations. In addition, as I stated during the confirmation hearing, I 
pledge to work tirelessly to ensure that every American taxpayer dollar 
is spent wisely, effectively, and efficiently. The United States will 
weigh very carefully the merits of existing and proposed U.N. peace 
operations, and we will continue to evaluate ongoing preventive 
measures thathave been undertaken as a result of recent scandals. The 
United States will also continue to strongly support an independent and 
effective Office of Internal Oversight Services, including the 
integration of the U.N. Procurement Task Force. Finally, the United 
States has supported recent efforts to reorient and restructure the 
Department of Peacekeeping Operations and to establish a Peacebuilding 
Commission to deal with the challenges of post-conflict stabilization 
and reconstruction--in part to ensure more robust training and 
oversight of U.N. peace operations.


    Question. Do you think it is acceptable that U.N. procurement 
contracts for peacekeeping or other programs are not publicly 
transparent? Since the U.S. is the largest contributor to U.N. 
peacekeeping, what actions will you take to bring transparency and 
accountability to peacekeeping procurement?

    Answer. As I noted in the confirmation hearing, I believe that 
transparency and accountability remain vitally important. If confirmed, 
I intend to pursue broader and deeper cooperation from friends, 
partners and allies to achieve substantial and sustained reform across 
the full range of management and performance challenges.
U.N. Reform

    Question. Under the Bush administration, there was a concerted 
effort to improve transparency and accountability at the U.N. However, 
these successes were limited to the Secretariat and not the myriad of 
other funds and agencies that make up the U.N. Do you support these 
efforts and what policies will you promote to improve reform the U.N.?

    Answer. I believe that expanding the reach of transparency and 
accountability reforms to the full range of U.N. funds and specialized 
agencies is important. If confirmed, I intend to pursue this issue with 
our friends, partners and allies, as well as with the U.N. leadership. 
In addition, as I noted during the confirmation hearing, I believe that 
our challenge today regarding U.N. reform includes ensuring effective 
implementation of enacted reforms and ensuring that those steps are not 
weakened or watered down, but rather strengthened, over time.
UN Development Program

    Question. The Senate Permanent Subcommittee on Investigations 
released a report in January 2008 which documented how the U.N. 
Development Program (UNDP) lacked even basic fiscal and management 
controls with its programs in North Korea.\7\ The report included 
findings such as:
---------------------------------------------------------------------------
    \7\ ``UNDP: A Case Study of North Korea,'' Senate Permanent 
Subcommittee on Investigations, January 23, 2008. http://tinyurl.com/
8w9et4


   UNDP gave ``development'' money to the North Korean entity that 
---------------------------------------------------------------------------
        finances the regime's illicit missile sales.

   The regime had free access to U.N. bank accounts and used them to 
        launder millions of dollars, avoid sanctions, and wire cash all 
        around the world.

   UNDP broke U.N. rules such as permitting the regime to handpick its 
        own agents to staff and manage UNP programs in North Korea.

   UNDP ignored U.N. ethics and whistleblower protections while 
        punishing-instead of rewarding-UNDP whistleblowers that rang 
        the alarm.


    Whistleblowers, human rights groups, and press reports indicate UNP 
programs in other countries of concern--such as Burma, Syria, Iran, and 
Zimbabwe--suffer from the same mismanagement and lack of fiscal 
controls.
    The UNP has had an opportunity to reform, but instead, it has 
restricting public access to program documents and audits-even refusing 
to release all the evidence during the investigation into this matter 
by our Senate Permanent Subcommittee on Investigations.
    Will you commit to conditioning U.S. contributions to UNP on the 
following:


   1. publicly posting on the internet the past 5 years worth of UNP 
            line-item budgets, audits, and program reviews for each UNP 
            program;

   2. posting all new documents of this sort within 2 weeks of 
            completion; and

   3. providing unfettered access to the U.S. Government Accountability 
            Office to conduct an investigation of the past 5 years of 
            UNP activity in Burma, Zimbabwe, Syria and Iran and 
            publicly report to Congress its findings as it pertains to:


   a. fiscal and management controls;

   b. hiring practices,

   c. compliance with international accounting standards and Financial 
            Action Task Force recommendations;\8\
---------------------------------------------------------------------------
    \8\ ``Methodology for Assessing Compliance with the FATF 40 
Recommendations and the FATF 9 Special Recommendations,'' Financial 
Action Task Force, October 2008. http://tinyurl.com/98muha

   d. compliance with U.S. export controls for WMD or dual-use 
---------------------------------------------------------------------------
            capabilities;

   e. compliance with U.N. guidelines, procurement rules, and Security 
            Council resolutions;

   f. compliance with international accounting standards; and

   g. whether or not UNP programs produce independently verified and 
            measurable results?


    Answer. This is a vital issue. I take very seriously my 
responsibility to the U.S. taxpayer to ensure that our U.N. 
contributions are well-spent and well-managed. I also take very 
seriously compliance with U.S. law. I am very troubled by the findings 
of the report from the Senate Permanent Subcommittee on Investigation 
on the UNP's programs in North Korea. I understand that te UNP 
suspended its program in March 2007. I also understand that after 
several reviews and investigations, a number of recommendations emerged 
to correct program management weaknesses, some specific to DPRK and 
others with agency-wideapplicability. And it has come to my attention 
that North Korea has accepted a number of conditions for resuming UNP 
activities, and that the Executive Board will take up North Korea's 
request for resumption shortly.
    If I am confirmed, I will work very closely with the Secretary-
designate to immediately review the conditions proposed for North 
Korea, the management and program implementation practices in North 
Korea, and the general steps taken and commitments made by the UNP to 
improve accountability and transparency. As part of that review, we 
will consider your proposed improvements on the transparency side and 
develop a strategy for seeking even greater transparency from the UNP. 
It is clearly in our interest for the UNP to be as efficient and 
transparent as possible and to not facilitate any illicit activity in 
the countries in which it has programs. And, to take this one step 
further, it is vital that Member States--including the United States 
Government--have reasonable access to all information necessary to have 
confidence in UNP programs. I would also work with other interested 
parties to try to build a strong consensus view at the United Nations 
in this regard and make clear to the UNP that this is a matter of 
significant focus and concern.


    Question. Several U.N. programs, such as the U.N. Development 
Program, utilize a method of funding called ``national execution'' 
where the U.N. transfers funding directly into the central banks of 
countries where the U.N. works. While the U.N. claims this is to build 
``capacity'' of these countries to perform their own development 
programs, as in the case of North Korea and Burma, the U.N. has no 
fiscal controls in place to verify the funds are used as intended. And 
since money is fungible, there are no guarantees the transferred funds 
will not pay for things such as the genocide in Burma or the 
concentration camps of North Korea. For example, the Senate Permanent 
Subcommittee on Investigations reports the UNP, while claiming to be 
transferring economic development money to North Korea, ended up 
transferring funds to the state-controlled entity that finances the 
regimes illicit weapons sales-sales which reportedly continue even as 
recently as August of 2008.\9\
---------------------------------------------------------------------------
    \9\ ``UNDP: A Case Study of North Korea,'' Senate Permanent 
Subcommittee on Investigations, January 23, 2008 http://tinyurl.com/
8w9et4; Hosenball, Mark and Christian Caryl, ``The Flight That 
wasn't,'' Newsweek, December 1, 2008.
---------------------------------------------------------------------------
    The Financial Action Task Force (FATF) is an inter-governmental 
body whose purpose is the promotion of national and international 
policies to combat money laundering and terrorist financing. FATF has a 
list of 40 recommendations and 9 special recommendations it uses to 
test whether financial institutions are taking necessary precautions to 
avoid terror financing, moneylaundering and other illicit 
activities.\10\
---------------------------------------------------------------------------
    \10\ ``Methodology for Assessing Compliance with the FATF 40 
Recommendations and the FATF 9 Special Recommendations,'' Financial 
Action Task Force, October 2008. http://tinyurl.com/98muha
---------------------------------------------------------------------------
    Will you commit to protecting the U.S. taxpayer from inadvertently 
funding such things as genocide in Burma or weapon sales to terrorists 
by North Korea by prohibiting U.S. funds from going to any U.N. System 
entity\11\ or other foreign development organization that transfers 
funds to banks within states that are not certified by FATF?
---------------------------------------------------------------------------
    \11\ ``United Nations System: Principle Organs,'' United Nations--
http://www.un.org/aboutun/chart--en.pdf

    Answer. As I noted above, I take very seriously my responsibility 
to the U.S. taxpayer to ensure that our U.N. contributions are well-
spent and well-managed. We intend to carefully review the best way to 
advance our interests through the U.N. while at the same time ensuring 
that U.S. taxpayer dollars are not inadvertently funding the illegal 
and immoral acts of rogue regimes. If confirmed, I will work with the 
President-elect, the Secretary-designate and the Cabinet, will ensure 
that the U.S. employs all tools of national power to crack down on 
terror funding, money laundering and other illicit activity.
U.N. Budget
          According to the State Department, the U.N. 2008/2009 
        Biennial Budget represents the largest increase for a funding 
        request in U.N.s history.\12\ The 2008/2009UN budget is in 
        excess of $5.2 billion. This represents 25 percent more than 
        the 2006/2007 budget that was only $4.17 billion and a 193 
        percent increase from 1998/1999 budget. The U.N. budget has 
        grown 17 percent in the previous five years, but the U.S. 
        budget has grown only 7 percent.
---------------------------------------------------------------------------
    \12\ ``Presentation of Ambassador Mark Wallace on the 2008/2009 
U.N. Budget,'' State Department, December 11, 2007. http://tinyurl.com/
993mba
---------------------------------------------------------------------------
          The State Department also reports that the overwhelming 
        majority of the U.N. budget--75 percent--goes to staff salaries 
        and common staff costs including travel to resorts for 
        conferences rather than direct humanitarian assistance or 
        conflict prevention. Despite the increasing costs, the U.N. has 
        yet to identify offsets in existing funding to pay for the 
        increased spending, a position that is supported by a U.N. 
        General Assembly resolution. \13\
---------------------------------------------------------------------------
    \13\ Resolution adopted by the General Assembly, 2005 World Summit 
Outcome, A/RES/60/1, October 24, 2005.
---------------------------------------------------------------------------
          
    Following the U.N. Secretariat's poor example, the 3/4 of the U.N. 
not covered by the U.N. budget have their own out of control spending 
growth and lack of offsets: Peacekeeping is growing by 40 percent, the 
U.N. Tribunals are growing by 15 percent, and the numerous Funds and 
Programs are no better off.\14\
---------------------------------------------------------------------------
    \14\ ``Presentation of Ambassador Mark Wallace on the 2008/2009 
U.N. Budget,'' State Department, December 11, 2007. http://tinyurl.com/
993mba


    Question. With a large U.S. deficit right now, and the U.N.'s 
refusal to identify wasteful and duplicative spending to offset new 
spending. Would you support a zero-growth budget at the U.N. and that 
the U.S. only make zero-growth budget requests to Congress for all 
---------------------------------------------------------------------------
future contributions to U.N. entities?

    Answer. If I am confirmed, addressing the U.N. budget will be an 
important issue for me. The United Nations is a vital institution, but 
it must be run more effectively and efficiently. The U.N. budget has 
increased as member states have asked the U.N. to take on increased 
responsibilities. The U.N. is contributing in significant ways in 
places of importance to the United States including Afghanistan and 
Iraq. The U.N. Secretariat is also trying to improve its capacities, 
which may in some cases require additional resources. In June 2008, the 
Fifth (Budget) Committee approved an additional 45 positions for the 
Department of Peacekeeping Operations' Office of Military Affairs 
(OMA), in order to improve its capacity for planning operations. I 
support these efforts.
    At the U.N., the U.S. needs to engage in thoughtful, effective 
diplomacy early on in the budget process. While the idea of zero-based 
budgeting may appear attractive, it may not allow the U.N. to 
strengthen those capacities that are sorely needed. Some areas may need 
to grow, others be reduced, but at different rates. Diplomacy's best 
resource is good people. They run the programs and staff the missions. 
Therefore, staff costs are an important component of the budget of 
diplomatic organizations like the U.N. Working through the U.N. enables 
the U.S. to share the burdens and costs of managing international peace 
and security, climate change and human dignity. When it is necessary to 
act internationally, sharing the costs can help efficiency especially 
in a time of economic constraints.
Increasing Transparency, Accountability and Effectiveness at the U.N.

    Question. The U.N. is charged with many serious responsibilities 
and tasks. Yet, as evidenced by the well-publicized scandals involving 
the Iraq Oil-for-Food program and recent revelations of corruption in 
U.N. procurement, the U.N. all too often has proven vulnerable to 
corruption and fraud, unaccountable in its activities, lacking in 
transparency and oversight, and duplicative and inefficient in its 
allocation of resources. In addition to the other problems highlighted, 
what other specific ideas do you have to address these problems?

    Answer. As I noted in the confirmation hearing, I agree that no one 
can be fully satisfied with the performance of the United Nations, and 
too often we are dismayed. The United States must press for high 
standards and bring to its dealings with the U.N. high expectations of 
its performance and accountability. My top priorities for U.N. reform 
would be financial accountability, management efficiency, transparency, 
ethics and internal oversight, and program effectiveness in areas such 
as peacekeeping, conflict prevention, and mediation.
    As I noted above, a key challenge now is ensuring effective 
implementation of ongoing initiatives and preventing them from being 
watered down or weakened, even as we consider what further steps should 
be taken to improve U.N. effectiveness and ability to address the 
challenges of the 21st century. I believe firmly that it is not enough 
to ensure that U.S. taxpayer dollars are not being wasted. We must 
insist that U.S. taxpayer dollars are being spent effectively. In this 
regard, and in light of the substantial cost of U.N. peace operations, 
I intend to devote substantial focus to ensure that U.N. peace 
operations are efficient, effective, and appropriate, including by 
ensuring that U.N., as well as our own, procedures to support such 
operations are streamlined.
U.N. Accountability and Transparency Reform

    Question. While there are several steps taken toward U.N. reform--a 
U.N. Ethics Office, permanent oversight board, and the Office of 
Internal Oversight Services (OIOS)--they have turned out to be 
disappointments. The U.N. Ethics Office is ignored by U.N. agencies, 
such as the U.N. Development Program, while U.N. whistleblowers are 
attacked, demoted, and demeaned by U.N. officials with impunity. The 
OIOS is undermined by not having independent funding or free authority 
to investigate senior U.N. officials and programs as necessary.
    Recently, a special task force of the OIOS that focused on rooting 
out fraud and corruption that undermines the entire U.N. system, has 
been shut down by the U.N. bureaucrats and member state representatives 
that are most threatened by accountability and sunshine. This task 
force has resulted in the identification of over $630 million in U.N. 
contracts that are tainted by bribery and fraud, successfully brought 
criminal convictions to U.N. employees and a contractor involved in 
corruption, and suspended or removed more than 45 private companies 
from the U.N. contracting system, and initiated disciplinary actions 
against 17 other U.N. employees including 5 who were dismissed.
    However, the U.N. system will not restore funding to this task 
force, and it will now close down.
    Given the failure of the past two administrations to ``talk the 
U.N. into reforming,'' and given that the only time the U.N. has 
seriously considered reform was when the US withheld its contributions, 
what actions will you be willing to take to have the U.N. reform 
including a permanent restoration of funding to the anti-fraud task 
force?

    Answer. Regarding the U.N. procurement task force, as I noted 
during the confirmation hearing, the United States strongly supports 
the independent authority of an OIOS that is fully staffed and retains 
its robust mandate. A stronger and more effective U.N. requires a 
greater focus on accountability and transparency. It is essential that 
OIOS have the capacity to undertake professional investigations. The 
United States will work to ensure that, as the procurement task force 
is transitioned into the OIOS, the capacity and resources to sustain 
its investigative oversight of U.N. procurement practices remain 
robust.


    Question. What specific reforms will you pursue should you be 
confirmed?

    Answer. As I noted in the confirmation hearing, I agree that no one 
can be fully satisfied with the performance of the United Nations, and 
too often we are dismayed. The United States must press for high 
standards and bring to its dealings with the U.N. high expectations of 
its performance and accountability. My top priorities for U.N. reform 
would be financial accountability, management efficiency, transparency, 
ethics and internal oversight, and program effectiveness in areas such 
as peacekeeping, conflict prevention, and mediation.As I noted above, a 
key challenge now is ensuring effective implementation of ongoing 
initiatives and preventing them from being watered down or weakened, 
even as we consider what further steps should be taken to improve U.N. 
effectiveness and ability to address the challenges of the 21st 
century. I believe firmly that it is not enough to ensure that U.S. 
taxpayer dollars are not being wasted. We must insist that U.S. 
taxpayer dollars are being spent effectively. In this regard, and in 
light of the substantial cost of U.N. peace operations, I intend to 
devote substantial focus to ensure that U.N. peace operations are 
efficient, effective, and appropriate, including by ensuring that U.N., 
as well as our own, procedures to support such operations are 
streamlined.


    Question. Will you commit to a policy of 25 percent withholdings 
from the U.S. contributions to the U.N. if it continues to refuse 
reform including the enforcement of the U.N. Ethics office jurisdiction 
on every U.N. program and fund, permanently restoring independent 
funding of the anti-fraud task force, and a "Freedom of Information 
Act" U.N. rule requiring public access to budgets, contracts, 
procurement documents, program reviews, and other documents showing how 
the U.N. spends our money?

    Answer. I do not believe that the U.S. should, as a general 
practice, condition its dues to the U.N. on specific reforms. The 
United States should pay its dues on time and in full. Transparency and 
accountability are essential for an effective United Nations. If 
confirmed, I will be committed to working to ensure the independence 
and credibility of OIOS. This includes supporting existing efforts to 
absorb the functions and expertise of the Procurement Task Force into 
OIOS. I will also work with other member states and the Secretary-
General to push for a robust ethics and whistleblower protection regime 
throughout the U.N. system.


    Question. The United Nations Transparency and Accountability 
Initiative is current U.S. policy in place at the State Department. 
This policy seeks to have the U.N., including all its funds and 
programs, enact the following reforms:


   Availability of internal audits and other reports, e.g. 
        evaluations, investigations, etc. to Member States;

   Public access to all relevant documentation related to operations 
        and activities including budget information and procurement 
        activities;

   ``Whistleblower Protection" policies;

   Financial disclosure policies;

   An effective Ethics Office;

   Independence of the respective internal oversight bodies;

   Adoption of IPSAS accounting standards in the Funds and Programs 
        and

   Establishing a cap on administrative overhead costs for the Funds 
        and Programs.


    Will you commit to maintaining this policy? If so, how will this 
policy manifest in your and your staff interactions with the U.N.?

    Answer. If confirmed, I intend to review and, as necessary, enhance 
the capacity of the U.S. mission to press for a more effective and 
efficient U.N. I will carefully review the U.N. Transparency and 
Accountability Initiative being pursued by the U.S. Mission and the 
State Department. In consultation with the Secretary of State, I will 
ensure that a key objective, as I have noted above, will be to improve 
financial accountability, management efficiency, transparency, ethics 
and internal oversight, and program effectiveness in areas such as 
peacekeeping, conflict prevention, and mediation.


    Question. Since the U.S. is vastly outnumbered on the U.N. 
executive boards for U.N. funds and programs, besides voting for 
reform, what actions will you take to enforce this policy should you be 
confirmed?
    Achieving effective and lasting reforms at the U.N. requires a 
broad-based consensus among U.N. member states to enact and fully 
implement reform measures. I intend to pursue these issues with other 
member states through direct and sustained diplomatic outreach. Having 
a more effective and efficient United Nations serves the interests of 
all member states, and I believe that more can be done through 
diplomatic engagement that is not encumbered by the divisions of the 
20th century.


    Question. The Federal Funding Accountability and Transparency Act 
(FFATA), coauthored by President-elect Obama, requires all federal 
funding to be put on the public website, USAspending.gov. This includes 
all contract, subcontract, grant, and subgrant data such as the amount 
of award, source of funds, and the intended purpose of the funds.
    Despite this law, the State Department has failed to comply by not 
listing all its contributions to entities within the U.N. system, such 
as the U.N. Development Program, UNICEF, or UNSCO. Other U.S. agencies 
that transfer U.S. funds to U.N. entities-such as the Departments of 
Agriculture, Commerce, Defense, Treasury, Interior, Energy, and 
Education-have either ignored FFATA or only have submitted partial 
information for their U.N. funding.
    Should the U.S. fund a U.N. entity or any other grantee or 
subgrantee of the State Department if it does not comply with U.S. law 
as found in the FFATA, and supply subgrant information to be posted on 
USAspending.gov? If you are confirmed, what will you do to ensure 
compliance at the State Department and other U.S. agencies with the 
FFATA requirements regarding U.N. system funding?

    Answer. As I have noted in response to previous question regarding 
the UNP, I take very seriously my responsibility to the U.S. taxpayer 
to ensure that our U.N. contributions are well-spent and well-managed. 
I also take very seriously compliance with U.S. law. As the Department 
of State has responsibility for compliance with the FFATA, I will work 
with Secretary-designate Clinton to carefully review this issue and 
support the Department's efforts to comply with the FFATA, if I am 
confirmed. It will important to have close consultations with the 
Committee and other Members of Congress on this and the full range of 
issues pertaining to the United Nations.

                                 <all>

      

</pre></body></html>
